<html>
<title> - H.R. 831, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE BAY MILLS INDIAN COMMUNITY; AND H.R. 2793, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS.</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 831, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND 
 CLAIMS OF THE BAY MILLS INDIAN COMMUNITY; AND H.R. 2793, TO PROVIDE 
  FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE SAULT 
                 STE. MARIE TRIBE OF CHIPPEWA INDIANS.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, June 24, 2004

                               __________

                           Serial No. 108-100

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-455                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 24, 2004..........................     1

Statement of Members:
    Carson, Hon. Brad, a Representative in Congress from the 
      State of Oklahoma, Prepared statement of...................    84
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan..........................................     8
        Prepared statement of....................................     9
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     6
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     5
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     7
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     2
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     3
        Prepared statement of....................................     3
    Rogers, Hon. Mike, a Representative in Congress from the 
      State of Michigan..........................................    11
        Prepared statement of....................................    16
        Letter submitted for the record..........................    12
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan..........................................    17
        Prepared statement of....................................    22
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     4

Statement of Witnesses:
    Bennett, Hon. George, Tribal Councilor, Grand Traverse Band 
      of Ottawa and Chippewa Indians, Oral statement of..........    62
    Black, William, Legislative and Community Affairs Director, 
      Michigan International Brotherhood of Teamsters, Detroit, 
      Michigan...................................................    78
        Prepared statement of....................................    79
    Cummings, Richard, President, Michigan Machinists Council, 
      Port Huron, Michigan.......................................    75
        Prepared statement of....................................    77
    Falcon, Tribal Chief Audrey, Saginaw Chippewa Indian Tribe, 
      Mt. Pleasant, Michigan.....................................    72
        Prepared statement of....................................    74
    Kewaygoshkum, Hon. Robert, Tribal Council Chairman, Grand 
      Traverse Band of Ottawa and Chippewa Indians, Suttons Bay, 
      Michigan, Prepared statement of............................    63
    Lambert, Hon. Alan R., Mayor, City of Romulus, Romulus 
      Michigan...................................................    50
        Prepared statement of....................................    52
    Martin, Aurene, Deputy Assistant Secretary for Indian 
      Affairs, U.S. Department of the Interior, Washington, D.C..    28
        Prepared statement of....................................    30
    Neal, Hon. B. Mark, Mayor, City of Port Huron, Port Huron, 
      Michigan...................................................    43
        Prepared statement of....................................    44
    Parker, Hon. Jeff, President of the Executive Council, Bay 
      Mills Indian Community of Michigan, Brimley, Michigan......    38
        Prepared statement of....................................    40
    Shagen, Paul W., Esq., Senior Tribal Attorney, Sault Ste. 
      Marie Tribe of Chippewa Indians of Michigan, Sault Ste. 
      Marie, Michigan............................................    45
        Prepared statement of....................................    47

Additional materials supplied:
    Deuman, Leanne Barnes, Attorney at Law, Law Offices of Thomas 
      J. Veum, P.C., Sault Ste. Marie, Michigan, Statement 
      submitted for the record...................................    21
    Engler, Hon. John M., Former Governor, State of Michigan, 
      Letter submitted for the record............................    19
    Kilpatrick, Hon. Kwame M., Mayor, City of Detroit, Michigan, 
      Letter submitted for the record............................    85


    LEGISLATIVE HEARING ON H.R. 831, TO PROVIDE FOR AND APPROVE THE 
 SETTLEMENT OF CERTAIN LAND CLAIMS OF THE BAY MILLS INDIAN COMMUNITY; 
  AND H.R. 2793, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN 
     LAND CLAIMS OF THE SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS.

                              ----------                              


                        Thursday, June 24, 2004

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 2:21 p.m., in 
Room 1324, Longworth House Office Building, Hon. Richard W. 
Pombo [Chairman of the Committee] presiding.
    Present: Representatives Pombo, Young, Duncan, Jones, 
Gibbons, Hayworth, Flake, Rehberg, Cole, Pearce, Rahall, 
Kildee, Faleomavaega, Pallone, Christensen, Inslee, and 
Bordallo.
    Also Present on Dais: Representative Stupak.

 STATEMENT OF HON. RICHARD POMBO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order.
    The Committee is meeting today to hear testimony on H.R. 
831 and H.R. 2793. They are intended to settle land claims 
asserted by the Bay Mills Indian Community and the Sault Ste. 
Marie Tribe of Chippewa Indians. The bills are sponsored by 
Michigan Representatives Candice Miller and John Dingell.
    The Chairman. Bay Mills and Sault Ste. Marie have 
reservations on the Upper Peninsula of Michigan, and the land 
claims pertain to an area called Charlotte Beach, which is also 
on the U.P. The premise of these bills is to extinguish the 
land claims in exchange for placing lands in trust for the 
purpose of gaming several hundred miles away from the tribes' 
existing reservation. Casinos would be constructed on the trust 
lands pursuant to the Indian Gaming Regulatory Act or as 
specified in the terms of the bills and the Tribal-State 
settlement agreements the bills ratify.
    A few months ago, our distinguished former Chairman of this 
Committee, Mr. Young of Alaska, added similar legislation on 
H.R. 3550 during the Transportation Committee's markup of that 
bill. Because such legislation is within the Resources 
Committee's jurisdiction, at my request, the Gentleman from 
Alaska was kind enough to withdraw the land claims language 
from TLU when it reached the Floor.
    As everyone should know by now, I made the request because 
it is my policy to protect this Committee's jurisdiction in the 
most aggressive manner possible. Because interest in these 
bills remains strong among several members of this Committee, 
among many others in the House, including the Ranking Democrat 
Member, Mr. Rahall, it is appropriate to hold a hearing on 
these bills.
    Holding this hearing today accomplishes two purposes. It 
upholds the regular order of the House, thereby discouraging 
attempts by other committees to dabble in our jurisdiction--
    [Laughter.]
    The Chairman.--and it enables people on both sides of this 
issue, including those riding the fence, to air out their 
questions, concerns, and positions.
    I look forward to hearing the testimony of our witnesses 
today. It is my understanding that one of our colleagues from 
the State of Michigan, after they are done testifying, want to 
participate in the hearing. At this time, I ask unanimous 
consent that the Gentleman from Michigan, Mr. Stupak, be 
allowed to sit on the dais and participate in the hearing.
    Before anybody objects, I say that for those that are 
interested in sitting on the dais, I want to point out that in 
this Committee we operate with the understanding that we show 
respect for the other members of the Committee and for our 
witnesses. And if at any time--I know this is an emotional 
issue for people, but if at any time you go beyond what I 
consider the decorum of this Committee, I will ask you to be 
removed.
    Hearing no objections, so ordered.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    H.R. 831 and H.R. 2793 are intended to settle land claims asserted 
by the Bay Mills Indian Community and the Sault Sainte Marie Tribe of 
Chippewa Indians. The bills are sponsored by Michigan Representatives 
Candice Miller and John Dingell. Bay Mills and Sault Sainte Marie have 
reservations on the Upper Peninsula of Michigan, and the land claims 
pertain to an area called Charlotte Beach, which is also on the U.P.
    The premise of these bills is to extinguish the land claims in 
exchange for placing lands in trust for the purpose of gaming several 
hundred miles away from the tribes' existing reservations. Casinos 
would be constructed on the trust lands pursuant to the Indian Gaming 
Regulatory Act, or as specified in the terms of the bills and the 
tribal-state settlement agreements the bills ratify.
    A few months ago, our distinguished former chairman of this 
Committee, Mr. Young of Alaska, added similar legislation to H.R. 3550 
during the Transportation Committee's mark-up of that bill. Because 
such legislation is within the Resources Committee's jurisdiction, at 
my request the Gentleman from Alaska was kind enough to withdraw the 
land claims language from TEA-LU when it reached the Floor. As everyone 
should know by now, I made the request because it is my policy to 
protect this Committee's jurisdiction in the most aggressive manner 
possible.
    Because interest in these bills remains strong among several 
Members of this Committee and among many others in the House, including 
the Ranking Democratic Member, Mr. Rahall, it's appropriate to hold a 
hearing on these bills. Holding this hearing today accomplishes two 
purposes: It upholds the regular order of the House, thereby 
discouraging attempts by other Committees to dabble in our 
jurisdiction, and it enables people on both sides of this issue, 
including those riding the fence, to air out their questions, concerns, 
and positions.
                                 ______
                                 
    The Chairman. With that, I will now recognize the Ranking 
Democrat of the Committee, Mr. Rahall.

STATEMENT OF HON. NICK J. RAHALL, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman. I do thank you for 
holding today's hearing and certainly look forward to welcoming 
our colleagues to present their testimony.
    We are going to hear about two extremely important and 
worthy measures that have been brought to our attention by my 
good friend, by the past and future Chairman of the Energy and 
Commerce Committee, and the dean of the House of 
Representatives, John Dingell; and our colleagues Candice 
Miller and Bart Stupak.
    There is, in my view, a compelling public interest in these 
two bills being enacted into law. At issue are approximately 
110 acres of land in an area known as Charlotte Beach. 
Currently some 109 Indians reside in this area under a clouded 
title to the land.
    It is my understanding that this situation rose out of a 
series of long and tortured events, but it fundamentally boils 
down to the fact that these ancestral lands, while they were 
supposedly to have been held in trust, were instead illegally 
sold for unpaid taxes. I would suggest that this is not a 
tenable situation. Those who reside in the Charlotte Beach area 
are being robbed of their peace of mind, with no security in a 
place they call home. At the same time, the two tribes are 
being robbed of enjoyment and benefit of their ancestral lands.
    Moreover, the issues addressed by these two bills have 
already passed one public interest test. The legislation would 
simply ratify a settlement agreement between the Bay Mills 
Indian Community and the Sault Ste. Marie Tribe of Chippewa 
Indians and the State of Michigan.
    So I again commend our colleagues, Representatives John 
Dingell, Candice Miller, for bringing this legislation to our 
attention. And I also thank my good friend Bart Stupak, who, as 
I understand, supports enactment of this settlement agreement. 
I look forward to their testimony today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rahall follows:]

     Statement of The Honorable Nick Rahall, II, Ranking Democrat, 
                         Committee on Resources

    Mr. Chairman, today the Committee meets to receive testimony on two 
extremely important and worthy measures that have been brought to our 
attention by my good friend, the Dean of the House of Representatives, 
John Dingell, and our colleague, Candice Miller.
    There is, in my view, a compelling public interest in these two 
bills being enacted into law.
    At issue are approximately 110 acres of land in an area known as 
Charlotte Beach. Currently, some 100 non-Indians reside in this area 
under a clouded title to the land. It is my understanding that this 
situation arose out of a long and tortured series of events, but 
fundamentally boils down to the fact that these ancestral lands of the 
Indians while supposedly to have been held in trust where instead 
illegally sold for unpaid taxes.
    I would suggest that this is not a tenable situation. Those who 
reside in the Charlotte Beach area are being robbed of their peace of 
mind, with no security in the place they call home. At the same time, 
the two tribes are being robbed of the enjoyment and benefit of their 
ancestral lands.
    Moreover, the issues addressed by these two bills have already 
passed one public interest test. The legislation would simply ratify a 
settlement agreement between the Bay Mills Indian Community and the 
Sault Ste. Marie Tribe of Chippewa Indians and the State of Michigan.
    So again, I commend Representatives John Dingell and Candice Miller 
for bringing this legislation to our attention, as well as to my good 
friend Rep. Bart Stupak, who also supports enactment of this settlement 
agreement.
                                 ______
                                 
    The Chairman. Thank you.
    Normally under the Rules of the Committee we limit opening 
statements. But the former Chairman of the Committee has asked 
to be recognized for a very, very brief statement. Mr. Young.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Thank you, Mr. Chairman. Very frankly, I'm at a 
little bit of a loss because I have never been called a dabbler 
before.
    [Laughter.]
    Mr. Young. I've been called many things, but a dabbler 
never. And I do recognize and respect the gentleman's fierce 
defense of the Committee. As the former Chairman, I admire 
that, and you are absolutely correct, and we did withdrawn the 
provision in my bill.
    But this is not new to me. Mr. Stupak actually came to me 
with Mr. Bonior introducing these bills in 2002, with the 
Government's support, the signing off by the tribes, and I 
became interested. And we tried to move these bills, and of 
course, as you recognized, we moved them through the House and 
got over to the Senate side and they began to languish away 
like many other pieces of legislation.
    So I am here to say that this is not a new subject for me, 
and one that does support this concept, and hope through the 
hearing we will understand why those oppose. For those I would 
suggest, respectfully, the Old Young Rule I hope still applies 
to this Committee, whereby you do not do harm to another 
Member's District. If you are not from that District, you are 
not representing those people. And if you don't represent those 
people, then you should be out of this issue. Because this is a 
form of representative Government. And second, you know, when 
one lives in glass houses, someone should be very careful 
because someone may be caught up with shattered glass.
    And so I am suggesting respectfully through the hearing 
that we learn all the facts and information on this issue. And 
as one of the original sponsors in passage of the original 
gaming issue, with Mr. Udall, I want everybody, as long as they 
play by the rules and requirements passed by this Committee, 
then they should be entitled to attempting to do what they wish 
to do, and that is settle their land claims settlement.
    And with that, Mr. Chairman, I thank you for your kindness 
in your recognition and the respect you show me, as I 
respectively show you as Chairman. Thank you very much.
    The Chairman. Thank you. I would also like to recognize Mr. 
Kildee of Michigan.

STATEMENT OF HON. DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Kildee. I thank the Chairman for recognizing me.
    Mr. Chairman, as a member with an established and 
unwavering record of being an advocate for protecting the 
sovereign rights of Indian tribes, I find no pleasure in 
stating my strong opposition to the land settlement bills of 
the Bay Mills Community and the Sault Ste. Marie Tribe, two 
tribes located in my State, the great State of Michigan. I have 
such deep respect and admiration for my friends, Bay Mills 
Chairman Jeff Parker and Sault Ste. Marie Chairman Bernard 
Bouschor. Nor do I delight in objecting to the bills that my 
colleagues have sponsored so that their Districts could enjoy 
the economic benefits of Indian gaming.
    Mr. Chairman, should Congress enact these bills, the 
unintended consequences will be to set dangerous precedents 
that would serve to undermine the Indian Gaming Regulatory Act, 
IGRA, and would promote bad public policy regarding Indian Land 
Claims Settlements.
    First, legitimacy of these land claims has never been fully 
adjudicated, and the Department of Interior was not involved in 
the negotiations between the Governor and the tribes that led 
to the settlement agreements, even though the Secretary would 
be required to take land into trust for the tribes.
    Second, never before has Indian Land Claims Settlement 
legislation, such as we have before us today, expressly 
permitted a tribe to use the Land Claims Settlement exception 
of IGRA. Nor has Congress ever passed a law ratifying every 
term of a gaming compact negotiated between a State and tribe, 
as we would do today. Under IGRA, Congress delegated the 
responsibility of taking land into trust as part of a 
settlement of a land claim and also the approval of a 
negotiated State-Tribal gaming compact to the Department of 
Interior. While Congress may approve land settlement 
legislation for claims that arise from U.S. Government dealings 
with Indian tribes, controversial provisions that authorize 
off-reservation gaming and approve gaming compact terms should 
not be included in Indian land settlement legislation.
    Third, the result of these bills, if enacted, could lead to 
a proliferation of off-reservation Indian gaming on land where 
Indian tribes have no historical tribes. Indian tribes could 
open gaming facilities anywhere in any State where gaming is 
permissible--downtown Chicago, New York City, Columbus, Ohio, 
or Newark, New Jersey. The land that the Bay Mills Community 
and the Sault Ste. Marie Tribe seek to have taken into trust is 
several hundred miles away from the tribes' reservation and the 
sites are not a part of the tribes' ancestral homeland. For 
those of us who have fought tirelessly against legislative 
attacks that would serve to harm Indian gaming, we could expect 
a flurry anti-Indian gaming riders, legislation, and court 
battles to follow the enactment of these bills.
    In the current political climate, could we really expect to 
be successful in defending an action that so clearly abuses the 
intent of IGRA by making virtually any place in America a 
possible Indian gaming site? I have received several tribal 
resolutions from tribes in Michigan opposing these bills. In 
addition, the Chairman has received letters from bipartisan 
groups of our colleagues that express opposition to these bills 
and raise general concerns about off-reservation Indian gaming.
    Mr. Chairman, I am aware of the previous attempts to 
include these bills in an appropriation measure, and I hope 
that you will continue to oppose any attempt to move these 
bills, or any variation of these bills, in legislation that is 
not before this Committee. We must maintain, as you have so 
well in the past, the jurisdiction of this Committee.
    I yield back the balance of my time, and I thank you again 
for yielding.
    The Chairman. Thank you, Mr. Kildee.
    Mr. Gibbons?

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman. And I did 
want to take a moment for thank you for recognizing me to make 
a few remarks here. I do want to associate myself with the 
remarks of my friend from Michigan, Mr. Kildee, on this and 
briefly to express my reservations regarding the two bills that 
are the subject of our meeting this afternoon.
    My concern stems, Mr. Chairman, not from any opposition to 
the institution of gaming, Native American or otherwise, as my 
home State of Nevada owes much of its current economic 
prosperity to its thriving gaming industry. My personal 
apprehension is with legislation that seeks to circumvent the 
Congressionally established process for establishing Native 
American casinos in the United States, as outlined in the 
Indian Gaming Regulatory Act, IGRA, that was passed by 
Congress. In fact, I have a deep concern with any bill designed 
to provide a certain unfair advantage to one business-seeking 
group or entity over all others, who follow the letter of the 
law in the pursuit of their business opportunity.
    I am assured, Mr. Chairman, that many of my colleagues here 
are also holding a similar opinion. I believe Congress would be 
making a grave mistake if we were to approve these two bills. 
And if we pass this legislation, we would be granting a 
tremendous favor or advantage of one group of Native Americans 
over others. And if Congress rolls out the red carpet for one 
tribe or entity, who can say that we shouldn't roll it out for 
all others in the same fashion? Where would we draw the line, 
and why would we have regulations and controls in place that we 
do?
    More importantly, Mr. Chairman, if Congress were to move 
forward with these proposals, we would be giving a tremendous 
advantage to the Native American gaming community, leaving the 
non-Native American gaming entities, like those in Nevada, to 
operate at an unfair and biased business atmosphere and 
disadvantage.
    In 1988, Congress established a firm review and approval 
process for all proposed Indian casinos through the IGRA 
process. Congress intended the States, local Government, and 
residents to work together with the tribes and the Federal 
Government to establish Native American casinos only on tribal 
lands and in areas mutually agreed upon by all sides. The bill 
before us today seeks to usurp that well-founded procedure to 
the detriment of other legal gaming entities and other tribes 
who followed the letter of the law when conducting business.
    I look forward to hearing our witnesses' testimony today 
and hearing their response to my questions. And with that, Mr. 
Chairman, I will yield back the balance of my time, and thank 
you for your courtesy.
    The Chairman. Thank you. And for our last opening statement 
on the Committee, Mr. Pallone.

 STATEMENT OF HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I just wanted to say, having read the background on these 
two bills, I think that it is clear that the Bay Mills Indian 
Community, Sault Ste. Marie Tribe of Chippewa, and the State of 
Michigan and the local municipalities have all worked together 
to reach a mutual agreement about the land claims in question 
and the building of new gaming facilities. It is unfortunate 
that, when it comes to Indian gaming, such cooperation is a 
rarity rather than a norm. More often than not, we are used to 
hearing about fierce legal battles that have pitted local 
municipalities against tribes.
    That is not the case in these two instances. As evidenced 
by the local referendums that were passed, these communities 
want Indian gaming and see it as an opportunity to spur 
economic development and create jobs. Consider the level of 
success the Sault Ste. Marie Tribe and its neighbors have 
already experienced from Indian gaming. Revenues from the 
tribe's current five casinos have allowed the tribe to offer 
critical services to its 29,000 enrolled members, including a 
new health center and additional housing.
    Additionally, these casinos have provided their host 
communities with hundreds of thousands of dollars. It is my 
understanding that through past casino revenues, these local 
communities were able to purchase snow plows, fire trucks, 
ambulances, and a number of other important items that they 
could not have afforded otherwise. With the addition of another 
gaming facility, I am sure the surrounding communities and the 
State are sure to reap additional benefits.
    So I think that this is an example of where, if people work 
together, both tribes, the State, the local communities, I 
think it is a great example of success in that respect. And for 
that alone, I think that we should support the bill.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I would like to now introduce our 
first witnesses, three of our distinguished colleagues from the 
State of Michigan, Mr. Dingell, Mr. Rogers, and Mr. Stupak.
    Let me take this time to remind all of today's witnesses 
that, under Committee Rules, oral statements are limited to 5 
minutes. Your entire written statement will appear in the 
record.
    Mr. Dingell?

 STATEMENT OF HON. JOHN DINGELL, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Dingell. I thank you for calling this hearing today and 
I thank the members of the Committee for being here to listen 
to the merits of the issue.
    I also thank the distinguished Mayor of Romulus, Mr. Alan 
Lambert, Mr. William Black, of the Michigan Brotherhood of 
Teamsters, and Mr. Paul Shagen of the Sault Tribe for being 
here today to talk about the resolution of a land dispute that 
has long plagued our State.
    I would also like to thank my colleague, Congresswoman 
Candice Miller, for her valuable work on this issue and for 
introducing one of the two bills which are before the Committee 
today.
    I also want to thank my dear friend Mr. Stupak, who 
represents the District in which the Indians interested in this 
matter reside.
    I am here to speak of economic development opportunities 
that have arisen for my constituents. As you all know, we have 
had significant job losses in Michigan. This will afford us a 
fine opportunity for economic development and makes possible 
the creation of about 6,500 well-paying union jobs that will 
help our State recover from the difficulties that we have 
confronted in the economy. It also is to be noted that this 
will benefit the entirety of southeast Michigan in a very 
specific way.
    I sit before the Committee today to discuss Land Settlement 
Agreements that were entered into with Michigan's former 
Governor, Mr. John Engler. One agreement affects the citizens 
in and around the Port Huron area, in Representative Candice 
Miller's District, and while the other directly impacts 
citizens within and surrounding the city of Romulus, it is a 
part of my Congressional District.
    I would like at this time to submit both of these Land 
Settlement Agreements for purposes of the record, Mr. Chairman. 
I believe they will be helpful.
    [NOTE: The agreements have been retained in the Committee's 
official files.]
    Mr. Dingell. Mr. Chairman, I would note that only with the 
settlements of these two land claims will this issue go away 
and cease in the State of Michigan. I will begin speaking about 
why I became involved in this.
    As you will note, Governor Engler came to this conclusion 
with both the Bay Mills Community and the Sault Community over 
a land dispute in which the Indians have been very grossly 
unfairly treated. Land had been taken from them in spite of 
their clear right under the treaty. This is, I think, a good 
settlement in something which has created great difficulty 
throughout the entirety of Michigan.
    Two communities, I would note, in my District have 
indicated their interest in locating a casino in the community, 
and it is my purpose to try and see to it that they are heard 
and that their concerns and your concerns with regard to what 
they seek are properly addressed. Romulus, I note, passed a 
referendum with 57 percent support, approval for the casino. At 
Port Huron, the community also held a referendum that passed by 
a margin of 55 to 45.
    I would note that in response to the requests of my people 
in Romulus, I introduced legislation to ensure that the 
citizens of Romulus received complete and proper representation 
and that they have a seat at the table regarding legislation 
regarding not only our affairs, but Port Huron. And I note that 
I support both bills and believe that they are both in the 
interest of settlement of a difficult problem in Michigan which 
has long plagued us.
    The legislation that I introduced would extinguish land 
claims in the area of the Sault Tribe. In exchange, the 
legislation will grant the Sault Tribe alternative lands in 
Otsego, Michigan, and Romulus, Michigan, as outlined in the 
settlement agreement. I would note, just yesterday I introduced 
new legislation to perhaps modernize this by dropping 
Vanderbilt from this, which has expressed no interest to me in 
participating in the provisions of the legislation of which I 
am particularly interested.
    Settlements of these land claims, I note, will provide 
6,500 badly needed well-paying jobs in Michigan, and the Sault 
Tribe would bring to our people in Romulus some $350 million 
worth of world-class casino, conference center, and hotel. And 
they would bring in not only gamblers, but also those who would 
provide an additional boost to the surrounding economy by 
creating opportunities for conferences and other things which 
are important to us. Similar opportunities would occur in Port 
Huron, which is a city suffering significant economic problems 
at this particular time. About $11 million will be added in 
revenues to western Wayne County, and some $30 million in tax 
receipts will be received by reason of this.
    Romulus, I believe, and Port Huron deserve the passage of 
these bills to provide jobs and revenues to their people and to 
the State of Michigan. After more than 3 years, we are here 
today to discuss the merits of legislation concerning two 
communities in Michigan which have great need.
    I want to thank you, Mr. Chairman, to your consideration to 
me and to us for holding these hearings today and for giving me 
an opportunity to bring you the concerns of these two 
communities, particularly my city of Romulus, where a fully 
integrated community has great difficulties in terms of 
providing the necessary jobs to the people that reside there.
    Thank you, Mr. Chairman, and I will ask that my entire 
statement be included in the record.
    [The prepared statement of Mr. Dingell follows:]

    Statement of The Honorable John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    Mr. Chairman, I would like to thank you for calling this important 
hearing today. I would also like to thank the members of the Committee 
that are here to listen to the merits of this issue. I would like to 
thank The Mayor of Romulus, Alan Lambert, William Black of the Michigan 
Brotherhood of Teamsters, and Paul Shagen of the Sault Tribe for coming 
here to speak today to talk about how the resolution of this land 
dispute would benefit their respective communities. I would like to 
thank Representative Candice Miller for her valuable work on this issue 
and introducing one of the bills before the Committee today. Finally, I 
would like to thank Rep. Bart Stupak for his long and dedicated work on 
helping to resolve the land dispute issue in his district.
    I am here to speak of the economic development opportunities that 
have arisen for my constituents in the 15th Congressional District of 
Michigan; an opportunity that would bring 3,500 well paying jobs to my 
district. Like all of Michigan in the last few years, my district has 
seen its share of job loss. We have lost many well paying manufacturing 
jobs. To that end, local governments are looking for new ways to bring 
dollars to their communities. When the constituents of my district 
approached me and said, ``Dingell, we want to be considered for an 
economic development opportunity based on gaming.'' I told them I would 
be here to do all that I can to help.
    Some may say enough is enough, and that the State does not need 
another casino. Others will express strong opposition based on the fact 
that it is just too far away from the original reservation. While still 
others may say that the Southeastern Michigan gaming market is 
saturated. To those opposed to these pieces of legislation, I simply 
say, let's not create a battle between those communities that have 
casinos versus those communities that do not. Rather, let us work 
together to help extinguish land disputes that have been around for 
generations while at the same time allowing investment in our 
communities and our State. Let us build a brighter Michigan that 
creates 6,500 well paying, union jobs that will help our state recover 
from the recent job loss we have experienced.
    I sit before the Committee today to discuss two land settlement 
agreements that were entered into by Michigan's former Republican 
Governor, John Engler. One agreement affects the citizens in and around 
the City of Port Huron in Representative Candice Miller's district, 
while the other directly impacts the citizens within and surrounding 
the City of Romulus that is a part of my Congressional district. I 
would like to submit both of these settlement agreements for the 
record. Since I represent the 15th Congressional District, it is to 
that bill that I will mainly speak about today. I must stress that only 
with the settlement of both land claims will this issue cease in the 
State of Michigan.
    I will begin by speaking about how I came to be involved in this 
effort. I will then explain why I introduced H.R. 2793. Finally, I will 
talk about how this legislation would help my constituents in Romulus, 
Michigan.
    We are here today to discuss legislation that was introduced as a 
result of agreements reached by former Michigan Governor John Engler 
with both the Sault St. Marie Tribe of Chippewa Indians and the Bay 
Mills Indian Community.
    As you will hear from the other panelists, the settlement 
agreements stem from a dispute by both tribes over land in Charlotte 
Beach, Chippewa County, Michigan. To end this long running dispute, 
Governor Engler signed agreements with both the Bay Mills Indian 
Community and the Sault Tribe. In order to execute the agreements, Rep. 
Miller introduced legislation with regards to the Bay Mills tribe and 
Port Huron, Michigan while I introduced legislation with regard to the 
Sault Tribe and Romulus, Michigan as well as to Otsego County, 
Michigan.
I. TWO COMMUNITIES IN MY DISTRICT EXPRESSED INTEREST IN LOCATING A 
        CASINO IN THEIR COMMUNITY.
    My role in this process began when Governor Engler signed a land 
settlement agreement at the end of December 2002 with the Sault Tribe 
that would provide land for gaming in Otsego County, Michigan as well 
as one of three other areas, the city of Flint, Michigan, the city of 
Romulus, Michigan, and Monroe County, Michigan, south of the River 
Raisin.
    Both the City of Romulus and Monroe County, Michigan are in my 
Congressional District. For almost 6 months the two communities in my 
district discussed whether or not they wanted to be considered for a 
casino. Eventually Monroe County fell out of the running while the City 
of Romulus expressed continued support for a casino. In fact, voters in 
Romulus passed a referendum with 57% support approving a casino to be 
built in that city. As for Port Huron, that community also held a 
referendum that passed with a margin of 55% to 45% in favor of pursuing 
gaming.
    To answer the call I received from Romulus, I introduced 
legislation, helping ensure that the citizens of Romulus receive 
complete and proper representation in the House and that they have a 
seat at the table should legislation regarding Port Huron begin moving. 
Since both bills derive from land settlement agreements that originate 
from the same land dispute it is important that both bills move 
together so this matter may be resolved completely and in a timely 
manner.
    The legislation I introduced would extinguish the land claims in 
the area of the Sault Tribe. In exchange, the legislation will grant 
the Sault tribe alternative lands in Otsego County, Michigan and 
Romulus, Michigan as outlined in the settlement agreement. These 
alternative lands would become part of the reservation of the Sault 
Tribe community. I would note, just yesterday, I introduced new 
legislation that would limit the alternative lands solely to Romulus, 
Michigan. In addition, the Sault Tribe has voluntarily elected to 
pursue only the possibility of alternative land in Romulus.
    In addition, my legislation directs the Secretary of the Interior 
to take these lands into trust as land obtained in a settlement of a 
land claim under the Indian Gaming Regulatory Act.
II. SETTLEMENT OF THESE LAND CLAIMS WILL PROVIDE 6,500 BADLY NEEDED, 
        WELL PAYING JOBS IN MICHIGAN.
    Approval of these land claims will create 3,500 new jobs in Western 
Wayne County and 3,000 in Port Huron. Many would be high paying, union 
jobs in two communities where unemployment is high.
    The Sault tribe would build a $350 million world-class casino, 
conference center and hotel, bringing in not only gamblers, but also 
conferences that would provide an additional boost to the surrounding 
economy.
    Furthermore, it will add up to another $11 million in revenue to 
Western Wayne County, and provide more than $30 million in tax revenue 
to the State of Michigan annually.
III. ROMULUS AND PORT HURON DESERVE THE PASSAGE OF THESE BILLS TO 
        PROVIDE JOBS AND REVENUE TO THEIR COMMUNITIES AND THE STATE OF 
        MICHIGAN.
    After more than three years, we are here today to discuss the 
merits of legislation concerning both Romulus and Port Huron. It is 
important that we work toward passage of these bills in a timely manner 
to help these communities. In this struggle of the haves versus the 
have nots, it is important to give these communities the opportunity to 
pursue economic development.
    I want to thank the Chairman for calling this legislative hearing 
on both my legislation and Rep. Miller's legislation. It is important 
to settle both claims at the same time so we can allow the State and 
these communities the prospect of job creation. During these difficult 
economic times, we must give our communities the tools with which to 
prosper. I look forward to working with this Committee and you Mr. 
Chairman in making these economic development opportunities a reality.
    NOTE: Attachments to Mr. Dingell's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    The Chairman. Without objection, so ordered.
    Mr. Rogers?

  STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Rogers. Thank you, Mr. Chairman, Ranking Member Rahall, 
the distinguished members from Michigan, Mr. Dingell, Mr. 
Stupak. I thank you for convening this important hearing on an 
issue that will have a profound impact on the citizens 
throughout my home State of Michigan.
    Others today will discuss the flawed policy of the two 
bills before you, but I will focus my testimony on Michigan's 
opposition to two new casinos, and any new casinos, and the 
inaccurate notion that new casinos bring economic development 
without significant consequences.
    Mr. Chairman and Ranking Member, without objection I would 
ask to submit for the record a letter that was circulated by 
myself and Congresswoman Carolyn Kilpatrick, and is signed by 
35 of our colleagues, opposing each of these bills. I would 
note that the first six signatures on this letter are members 
from Michigan, both Republicans and Democrats.
    [The letter follows:]

    [GRAPHIC] [TIFF OMITTED] T4455.001
    
    [GRAPHIC] [TIFF OMITTED] T4455.002
    
    [GRAPHIC] [TIFF OMITTED] T4455.003
    
    [GRAPHIC] [TIFF OMITTED] T4455.004
    
    [GRAPHIC] [TIFF OMITTED] T4455.005
    

    Mr. Rogers. Michigan residents have said clearly that 
enough is enough with regard to new casinos in our State. 
Michigan already has more casinos, at 20, than public 
universities, at 15. In a recent survey, only 6 percent of 
Michigan voters favored opening a new casino in our State. 
Newspapers from Detroit to Flint to Washington, D.C. have 
opposed the authorization of these new casinos. In fact, the 
Flint Journal stated in opposition to these bills, and I quote: 
Flint is a likely next target expecting to benefit from an 
advisory voter referendum this year. Such referenda passed in 
Romulus and Port Huron were, in typical misleading fashion, 
misleading voters, were fed the lie that gambling is a means of 
economic development. End quote.
    Mr. Chairman, that brings me to my second point. During my 
service as an FBI agent working organized crime in the city of 
Chicago, I saw first-hand how casinos would introduce a whole 
host of unintended consequences to a community. One study shows 
that States face an additional $6 billion per year in total 
increased costs related to gambling--for bankruptcies, 
addiction treatment centers, and in increased costs to the 
judicial system. A news report last month stated that the city 
of Detroit, this year, had to pay in excess of $1.2 million in 
additional unaccounted for police, fire, and emergency services 
directly related to the three new casinos currently operating 
there. Bankruptcy filings in the Eastern District of Michigan 
have risen 60 percent since the opening of those three casinos. 
I am going to repeat that: 60 percent increase in personal 
bankruptcy filings since the three Detroit casinos were 
approved.
    Though Mayor Kilpatrick's leadership is helping revitalize 
the city of Detroit, the three Detroit casinos have not panned 
out to be the savior for the city the supporters of it 
originally claimed. Five years after a ballot proposal that I 
strongly opposed was approved, Detroit faces a $65 million 
budget shortfall, is losing more people than any other large 
city in America, and has been ranked as the Nation's most 
dangerous city for four out of the past 5 years. Casinos 
haven't saved Detroit, and casinos won't save Romulus or Port 
Huron, either.
    Studies have shown that counties that host new casinos, and 
this is the entire population of the county, face an additional 
$219 per adult per year in direct costs and indirect costs. 
Thirty-seven percent of that, which is based on Government 
services, an increase in Government services and a tax on those 
services caused by the casino. Crime, bankruptcies, suicide, 
family costs, and abuse all account for the increase.
    More than two-thirds of all compulsive gamblers--also borne 
out in Canadian casinos as well--turn to crime to finance their 
addiction. There are 350,000 addictive compulsive gamblers in 
Michigan today. A recent research project by the University of 
Nevada-Reno found that cities hosting new casinos had sharp 
increases in theft, domestic abuse, drug crimes, personal 
bankruptcies, and suicides. A 2001 study by the University of 
Illinois and Georgia found that 8 percent of property crime and 
10 percent of violent crime in counties that had casinos was 
due directly to the presence of a casino. There is no place in 
Michigan where a casino is more than one hour's drive.
    Mr. Chairman, our citizens are saying enough is enough, and 
I ask your Committee to stand with them today. Thank you again 
for convening and allowing me to testify on this very important 
matter.
    [The prepared statement of Mr. Rogers follows:]

 Statement of The Honorable Mike Rogers, a Representative in Congress 
                       from the State of Michigan

    Chairman Pombo and Ranking Member Rahall, I thank you for convening 
this important hearing on an issue that will have a profound impact on 
the citizens throughout my home state of Michigan. Others today will 
discuss the flawed policy of the two bills before you. I will focus my 
testimony on Michigan's opposition to new casinos, and on the 
inaccurate notion that new casinos bring economic development without 
significant consequences.
    Mr. Chairman and Ranking Member, without objection I ask to submit 
for the record a letter that was circulated by Congresswoman Carolyn 
Kilpatrick and myself that is signed by thirty-five of our colleagues 
opposing both of these bills. I would note that the first six 
signatures on this letter are Members from Michigan, Republicans and 
Democrats.
    Michigan residents have said clearly that enough is enough with 
regards to new casinos in our state. Michigan already has more casinos 
at twenty than public universities at fifteen. In a recent survey, only 
6% of Michigan voters favored opening a new casino in the state, 66% 
were opposed and 28% were undecided. Newspapers from Detroit to Flint 
to Washington, DC have opposed the authorization of these new casinos. 
In fact, the Flint Journal stated in opposition to these bills that: 
``Flint is a likely next target, expecting to benefit from an advisory 
voter referendum this year. Such referenda passed in Romulus and Port 
Huron where in typical misleading fashion voters were fed the lie that 
gambling is a means of economic development.''
    Mr. Chairman, that brings me to my second point. During my service 
as an FBI Special Agent working organized crime in the City of Chicago, 
I saw first-hand how new casinos would introduce a whole host of 
unintended consequences to a community. One study shows that states 
face an additional $6 billion per year in total increased costs related 
to gambling, bankruptcies, addiction treatment centers and the judicial 
system. A news report last month stated that the City of Detroit this 
year had to pay in excess of $1.25 million in additional, unaccounted 
for, police, fire and emergency services directly related to the three 
casinos that currently operate there. Further, bankruptcy filings in 
the Eastern, Michigan District Court have risen nearly 60% since the 
three Detroit casinos were approved. Though Mayor Kilpatrick's 
leadership is helping revitalize the City of Detroit, the three Detroit 
casinos have not panned out to be the savior for the city the 
supporters of it originally claimed. Five years after a ballot proposal 
that I strongly opposed was approved, Detroit faces a $65 million 
budget shortfall, is losing more people than any other large city in 
America and has been ranked as the Nation's most dangerous city for 
four out of the past five years. There are no movie theaters in the 
city and no major shopping malls. Casinos haven't saved Detroit and 
casinos won't save Romulus or Port Huron.
    Studies have shown that counties which host a new casino face an 
additional $219 per adult per year in direct costs, 37% of which are 
increased taxes. Crime, bankruptcies, suicide, family costs and abuse 
all account for the increase. More than two-thirds of compulsive 
gamblers turn to crime to finance their addiction and there are 350,000 
compulsive gamblers in Michigan. In fact, a recent research project by 
the University of Nevada-Reno found that cities hosting new casinos had 
sharp increases in theft, domestic abuse, drug crimes, personal 
bankruptcies and suicides. A 2001 study by the Universities of Illinois 
and Georgia found that 8% of property crime and 10% of violent crime in 
counties that had casinos was due directly to the presence of the 
casino.
    There is no place in Michigan where a casino is more than an hour's 
drive. Mr. Chairman, our citizens are saying enough is enough and I ask 
your Committee to stand with them. Thank you again for convening this 
hearing.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Stupak?

  STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, Mr. Rahall, and 
members of the Committee for the opportunity to testify.
    I have been working on this land transfer problem for 
years. I first introduced legislation back in 1999 in an effort 
to resolve this issue. As you can see from the size of my file, 
it has been a long road.
    I hope that my testimony on these two bills will help to 
finally resolve the land dispute between the Bay Mills Indian 
Community--Bay Mills Tribe, the Sault Ste. Marie Band of 
Chippewa Indians--Sault Tribe, and most importantly, the 
property owners along Charlotte Beach on Michigan's eastern 
Upper Peninsula, all of which reside in my District.
    Currently, the two tribes claim rights to the land along 
Charlotte Beach, creating a cloud on the land-holder's title by 
the property owners. I first became involved in this land issue 
at the request of the property owners, not the tribes. With a 
cloud on their title, the Charlotte Beach property owners have 
been sued, have had a difficult time trying to secure real 
estate loans, cannot get title insurance, have experienced lost 
real estate values as well as significantly lower property 
values.
    In order to resolve this land issue, an agreement was 
reached in September of 2002 and again in December 2002 with 
the former Governor, John Engler, between the two tribes. In 
the settlement agreements, the tribes agreed to extinguish 
their property claims on the Charlotte Beach in exchange for 
land in two Michigan communities, Romulus and Port Huron. Under 
Federal law, these parcels of land would be taken into trust on 
the tribes' behalf by the Federal Government.
    You will hear today that the measures are also supported by 
local elected officials in Port Huron and Romulus. In addition, 
the voters in these communities have signaled their approval. 
It is crucial that Congress ratify the two settlement 
agreements reached by the Bay Mills and Sault tribes and former 
Governor Engler. The tribes have worked with the State of 
Michigan and with each other, but without Congressional 
approval the land exchange cannot be completed.
    By ratifying these two land transfer settlements, Congress 
has an opportunity we can't afford to miss--an opportunity to 
right a wrong and bring an end to a land dispute that has been 
going on far too long. This wrong has been inflicted upon all 
three of the parties involved--the two tribes, who have a 
legitimate claim to more than 100 acres along Charlotte Beach, 
and 180 innocent homeowners along Charlotte Beach. And that is 
all that these two bills really do. They simply ratify a land 
exchange and put an end to a longstanding land dispute. This is 
a specific solution to a localized problem that has been 
arrived at only after extensive negotiation between all the 
parties and the State of Michigan.
    If I can get one point across to you in my testimony today, 
it is that the parties involved have worked together to come to 
an agreement to end a land dispute. Congress has the 
opportunity, the power, and the obligation to finally settle 
this dispute.
    Finally, the Charlotte Beach landowners support this 
legislation, and their attorney, Leanne Barnes Deuman, has 
drafted testimony to submit for this hearing, so I ask, Mr. 
Chairman, it be included in the record. I would also like to 
submit a letter written by former Michigan Governor John Engler 
recently on this issue. I would like that letter to be also 
submitted for the record.
    It is my hope that the rights of all parties involved will 
be addressed during the discussion of this bill and that an 
agreement will be reached. I remain committed to addressing 
this issue and will continue to work with everyone, including 
our colleagues Mr. Dingell and Ms. Miller, and this Committee 
to bring about a final resolution to this land dispute, no 
matter how long it takes.
    With that, Mr. Chairman, I will conclude my testimony. I 
will be happy to answer any questions you may have. I would ask 
unanimous consent that the letter dated June 23, 2004, from 
former Governor John M. Engler, and the testimony drafted by 
the attorney, Lee Barnes Deuman, Attorney at Law, on behalf of 
the landowners be submitted for the record.
    The Chairman. Without objection.
    [The Engler letter and Deuman statement submitted for the 
record follow:]

[GRAPHIC] [TIFF OMITTED] T4455.006

[GRAPHIC] [TIFF OMITTED] T4455.007


Statement submitted for the record by Leanne Barnes Deuman, Attorney at 
 Law, Law Offices of Thomas J. Veum, P.C., 216 Ashmun Street, P.O. Box 
                 516, Sault Ste. Marie, Michigan 49783

    I am Leanne Barnes Deuman, an attorney in private practice in Sault 
Ste. Marie, Michigan. I am pleased to submit this testimony for the 
record in support of both H.R. 831 and H.R. 2793.
    I represent 149 individuals who own very small parcels of land in 
an area known as Charlotte Beach, Michigan. My clients innocently 
acquired their land parcels in an area that later became the subject of 
a land claim by Indian tribes in the Upper Peninsula of Michigan, 
including the Sault Ste. Marie Tribe of Chippewa Indians and the Bay 
Mills Indian Community. My clients' story is very sad; their resources 
are extremely meager; and without the help of Congress, the lands which 
constitute their most precious assets, will be rendered worthless 
forever. The following is their story.
    The Charlotte Beach lands are located on the southern shore of what 
is now known as Lake Nicolet, approximately 18 miles southeast of the 
City of Sault Ste. Marie, in the Upper Peninsula of Michigan. Prior to 
private ownership of the Charlotte Beach lands, these lands were 
designated for withdrawal from the public domain under a certain Treaty 
of 1855. This Treaty, known as the Treaty of Detroit, withdrew public 
domain land for selection by individual Ottawa and Chippewa Indians 
whose tribes were party to the treaty with the United States. After the 
1855 Treaty was negotiated, but prior to its ratification by Congress 
and, therefore, prior to the actual withdrawal of the lands from the 
public domain, the federal government issued land patents to Boziel 
Paul and his wife, who were non-Indians. Those land patents issued to 
the Pauls in 1856 included the present day Charlotte Beach property.
    In 1857, for reasons which are not fully documented, the Pauls 
conveyed their Charlotte Beach property to the then Governor of 
Michigan, Kinsley S. Bingham, in trust for the benefit of two Bands of 
Chippewa Indians in and around Sault Ste. Marie. Whether the deed was 
delivered and/or accepted by the Governor is also unknown. Of course, 
once in the hands of the Governor, the lands were technically in fee 
status and subject to the payment of real property taxes, which taxes 
subsequently were never paid. As a result of the non-payment of taxes, 
the lands were forfeited and sold by the State of Michigan to third 
parties at tax sales, notwithstanding the Indians interests in those 
lands.
    In the late 1990s, litigation over those lands ensued, but did not. 
result in clearing the cloud on the title to these Charlotte Beach 
parcels. The federal court litigation brought by the Bay Mills Indian 
Community, one of the modern political successors in interest to the 
two Bands for which the lands were originally withdrawn, was dismissed 
on procedural grounds for failure to join an indispensable party, the 
Sault Ste. Marie Tribe of Chippewa Indians, another modern day 
political successor in interest to the Bands for whom the lands were 
also withdrawn. The State court litigation, also brought by Bay Mills, 
was dismissed on substantive grounds, but did not clear the landowners 
title. Therefore, as of today, there has never been an adjudication of 
the Indians claims to the Charlotte Beach parcels in private ownership. 
As a result, there is an outstanding cloud on title to these parcels, 
which will never be lifted absent Congressional action extinguishing 
those claims. The cloud will never be lifted because tribes are immune 
from suit resulting from their sovereign status. Thus, any quiet title 
action by my clients (or any other Charlotte beach landowner) against 
tribes designed to clear the cloud on title will not be allowed to 
proceed. At this point, and based upon the previous litigation, it does 
not appear that any tribe will ever waive its immunity if such 
litigation were initiated. Therefore, the cloud will remain unless 
cleared through Congressional action.
    The nature and extent of the economic loss to my clients is 
devastating and overwhelming. At present, no title company in Michigan 
of which I am aware is willing to issue a title insurance commitment or 
title insurance policy in connection with any of the Charlotte Beach 
parcels. As you no doubt appreciate, that means no present owner of a 
Charlotte Beach parcel is able to sell his or her property, since few 
if any buyers are willing to forego title insurance. And the title 
companies are unwilling to insure over the Indian claims even for an 
additional insurance premium. Similarly, no Charlotte Beach parcel 
owner can use his or her land to secure any loan. Thus, not only can 
they no longer sell their land, they can no longer refinance any 
existing loan on their property.
    Theoretically, a Charlotte Beach land owner could sell his or her 
land for cash, but of course few if any are willing or able to buy a 
parcel with a cloud on title and. without title insurance, and it is a 
rare purchaser willing to buy land they know they will be unable to 
resell in the future because of the cloud on title. This is 
particularly true since litigation over the cloud on title has occurred 
and may occur again in the future.
    This cloud on title is devastating to my clients. For most of my 
clients, their Charlotte Beach lots are the location of their primary 
residences. And these residences are anything but glamorous. The lots 
are small and the homes are modest; indeed, many of the parcels are 
occupied by trailers or modular homes. The residents are good, hard 
working people with meager resources. Their homes and parcels represent 
the bulk of their personal worth. They live in a poor rural area, where 
jobs are low paying and hard to find. Suffice it to say, these parcels 
and the homes located on them are neither large, nor glamorous. The 
owners can barely afford to attend court hearings in connection with 
litigation affecting their lands, let alone afford the legal fees 
required to protect their only real asset in life.
    You will likely hear a variety of testimony today by many persons 
interested in the Bills before you. That testimony may come from down 
State political figures, such as Mayors of large cities in Michigan. It 
will probably also come from publicly-traded corporations owning and 
operating substantial casinos. Clearly, those persons testifying will 
have interests they wish to protect, for which they are not to be 
faulted. But, please, do not forget the real victims of this land 
claims dispute. The real victims are the property owners of the 
Charlotte Beach parcels, who bought lands with whatever resources were 
available to them, only to find out years later that there is a cloud 
on their title that relates back to the mid 1800s, and that that cloud 
has, as a practical matter, rendered their property difficult, if not 
impossible, to sell or collateralize. Had they foreseen litigation and 
the problems which ensued in conjunction with it, they may have taken a 
different path. Had they known in advance, perhaps they could have 
bought land elsewhere. Now, having purchased the land and subsequently 
learning of the defect in their title, they are absolutely helpless to 
do anything about it. They have no money for legal fees. And even if 
they did, the money would do them no good, since there is no way to 
quiet title to lands against unwilling defendants which are immune from 
suit.
    The only salvation for these innocent purchasers of Charlotte Beach 
land is for Congress to step in and extinguish the Tribes claims to 
these parcels. Of course, the Tribes interest in these parcels must be 
compensated, but we understand that the Bills before you would 
accomplish that, thereby passing constitutional muster. We support the 
passage of these Bills that would clear the cloud' on the Charlotte 
Beach parcels and allow my clients to go on with their lives, knowing 
that their homes will no longer be considered worthless.
    Thank you for accepting my testimony and allowing my clients 
concerns to be brought to the Committee's attention.
                                 ______
                                 
    [The prepared statement of Mr. Stupak follows:]

 Statement of The Honorable Bart Stupak, a Representative in Congress 
                       from the State of Michigan

    Thank you, Mr. Chairman, Mr. Rahall, and members of the Committee, 
for the opportunity to testify on this important matter. As most of you 
know, I have been working on this land transfer problem for years and 
first introduced legislation in 1999 in an effort to resolve this 
issue. And as you can see from the size of my file, it's been a long 
road.
    I hope that my testimony on these two bills will help to finally 
resolve this land dispute for the Bay Mills Indian Community (Bay Mills 
Tribe), the Sault Ste. Marie Band of Chippewa Indians (Sault Tribe), 
and most importantly, property owners along Charlotte Beach on 
Michigan's Eastern Upper Peninsula--all of whom reside in my district. 
Currently, the two tribes claim rights to the land along Charlotte 
Beach, creating a ``cloud'' on the land owned by the property owners of 
Charlotte Beach.
    I first became involved in this land issue at the request of the 
property owners, not the tribes. With a ``cloud'' on their title the 
Charlotte Beach property owners have been sued, have a difficult time 
trying to secure real estate loans, and have experienced lost real 
estate sales as well as significantly lower property values.
    In order to resolve this land issue, an agreement was reached in 
September of 2002 between former Michigan Governor John Engler and the 
Bay Mills tribe. And in December of that same year, the former governor 
reached a similar settlement agreement with the Sault Tribe on their 
land claim.
    In the settlement agreements, the tribes agree to extinguish their 
property claims on Charlotte Beach in exchange for land in two Michigan 
communities--Romulus and Port Huron. Under federal law these parcels of 
land would be taken into trust on the tribes' behalf by the federal 
government. (25 USC Sec. 465 authorizes the Secretary of the Interior 
to take this land into trust on behalf of tribes)
    You will hear today that the measures are also supported by the 
local elected officials in Port Huron and Romulus. In addition, the 
voters in these communities have signaled their approval.
    It is crucial that Congress ratify the two settlement agreements 
reached between the Bay Mills and Sault tribes and former Governor 
Engler. The tribes have worked with the State of Michigan and each 
other, but without Congressional approval, the land exchange cannot be 
completed.
    By ratifying these two land transfer settlements, Congress has an 
opportunity we can't afford to miss--an opportunity to right a wrong 
and bring an end to a land dispute that has been going on far too long.
    This wrong has been inflicted upon all three of the parties 
involved--the two tribes who have a legitimate claim to more than 100 
acres of Charlotte Beach and the 180 innocent homeowners along 
Charlotte Beach.
    And that is all these two bills do--ratify a simple land exchange 
and put to rest this land dispute. This is a specific solution to a 
localized problem that has been arrived at only after extensive 
negotiations between the parties.
    If I can get one point across to you in my testimony today, it is 
that the parties involved have worked together to come to an agreement 
on a land dispute. Congress has the opportunity, the power, and an 
obligation to finally settle this dispute.
    Finally, the Charlotte Beach landowners support this legislation 
and their attorney, Leanne Barnes Deuman, has drafted testimony to 
submit for this hearing, and I ask, Mr. Chairman, that it be included 
in the record.
    I would also like to submit a letter written by former Michigan 
Governor Engler for the record.
    It is my hope that the rights of all parties involved will be 
addressed during the discussion of this bill and that an agreement will 
be reached. I remain committed to addressing this issue and will 
continue to work with everyone, including our colleagues John Dingell 
and Candice Miller to bring about a final resolution to this land 
dispute--no matter how long it takes!
                                 ______
                                 
    The Chairman. I know that Mr. Dingell has a conflicting 
appointment. If it is necessary for you to leave, you may.
    Mr. Dingell. Thank you, Mr. Chairman. You are most 
gracious.
    The Chairman. And Mike, did you have to leave, too?
    Mr. Rogers. Very shortly, Mr. Chairman.
    The Chairman. OK. Does anybody have any questions that they 
would like to ask of Mr. Rogers or Mr. Dingell before they have 
to go?
    Mr. Rahall. Mr. Chairman, if I might ask just one quick 
question of Mr. Dingell before he leaves.
    Is there any reason to believe that if your legislation 
were enacted into law that the Sault Ste. Marie Tribe would 
pull out of the Detroit casino in which it has an 80 percent 
interest, as I understand it.
    Mr. Dingell. No, there is no reason. There is a commitment 
on the part of the tribe that that will not happen. There also 
is a commitment on the part of the tribe that they are going to 
do everything they can to hold Detroit and the city of Detroit 
risk-free in the event that this casino starts going up in 
terms of loss of tax revenues and things of that kind.
    Mr. Rahall. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Young?
    Mr. Young. Mr. Rogers, do you have gambling in your 
District?
    Mr. Rogers. Mr. Chairman, I do not.
    Mr. Young. You do not have any gambling in your District?
    Mr. Rogers. Mr. Chairman, I do not.
    Mr. Young. It is my understanding that there are two 
casinos across the border from Port Huron. Is that correct?
    Mr. Rogers. Port Huron?
    Mr. Young. Yes.
    Mr. Rogers. That's correct.
    Mr. Young. In Canada.
    Mr. Rogers. Mm-hm.
    Mr. Young. And that 75 percent of that revenue they 
generate is from America, Americans?
    Mr. Rogers. I think there is some dispute about percentage, 
but I imagine it is a healthy percentage.
    Mr. Young. I just--one of the things, again, in my opening 
statement was that I am really here because of Candice Miller. 
And it is her District, and I am very supportive of that. And 
the people have spoken from that District. And if they are 
willing to take over the responsibility of the--in fact, if 
there is a gaming casino, what is wrong with that?
    Mr. Rogers. Well, unfortunately, the impact of casinos 
don't remain wholly in a Congressional District. The entire 
Congressional District certainly didn't speak. And it has large 
ramifications, really, across the State of Michigan. The Mayor 
of Detroit, who is opposed to these two new casinos--
    Mr. Young. But she has three in her District, right?
    Mr. Rogers. The Mayor does, that is right.
    Mr. Young. If she has three, I can understand why she is 
opposed to this one because it might take something from that 
District, because--I believe that was just brought up by Mr. 
Dingell.
    Mr. Rogers. Sure.
    Mr. Young. But the reality is we are talking about who has 
and who had not, not about, you know, the legitimacy of 
settling the land claims part. That is what this bill is about. 
Like Mr. Stupak said, we are trying to settle it. I would feel 
a lot more comfortable with your testimony if you would say, 
OK, let's bar all casinos period.
    Mr. Rogers. I would be happy to join with--
    Mr. Young. You would be happy with that.
    Mr. Rogers. Absolutely.
    Mr. Young. But would the Mayor be happy with that?
    Mr. Rogers. Probably not.
    Mr. Young. Would any other mayor--
    Mr. Rogers. Politics makes strange bedfellows, Mr. Young.
    Mr. Young. I know. I understand that.
    Mr. Rogers. You understand that.
    [Laughter.]
    Mr. Young. I haven't talked to Candice about that.
    [Laughter.]
    Mr. Rogers. What you do on your own time, Mr. Chairman, is 
absolutely up to you.
    Mr. Young. I will have to find out about that. But what I 
am suggesting is that it appears to me, with 20 casinos in 
Michigan, it is those that have the casinos now are ganging up 
against those that do not have and saying this is an 
inappropriate thing to do. And to me, that is really not quite 
cricket, I mean, as I look upon this. It is sort of, you know, 
I got mine, pull the gangplank up now and nobody else needs 
this.
    Mr. Rogers. Well, and I understand--I welcome that in this 
fight. If they want to stop the expansion of casinos, I am with 
them. I have opposed--
    Mr. Young. Elimination--if we are going to do it, we 
eliminate.
    Mr. Rogers. I would be happy to do that as well. I don't--
    Mr. Young. You would, but they would not.
    Mr. Rogers. Well, that is correct. But at the end of the 
day, as you know, Mr. Chairman, you put together coalitions to 
further your goal. And I say I will gladly work with them if 
they want to stop the expansion of casinos. I have opposed 
every Indian compact that came through the State legislature 
when I was there. I opposed the three Detroit casinos for, 
really, all the reasons I have mentioned. They have not been an 
economic panacea. As a matter of fact, they have had tremendous 
costs.
    You know, the last movie theater left Detroit, Kmart closed 
up and left there. It is a major city. I can go on.
    Mr. Young. Don't bring that in. I have Kmarts that left 
this area, too, and no casino was here. I have had 7-Elevens 
close here, and there are no casinos here. So don't blame 
everything on the casinos. I can go back to my good friend Mr. 
Gibbons from Nevada saying what a great thing it is for Nevada 
and how it works very well. This is not about gambling, it is 
about who is going to gamble.
    Mr. Rogers. Well, I disagree. It is about the economic 
impact to the communities that house casinos.
    Mr. Young. You and I have a difference of opinion on it.
    Mr. Rogers. Absolutely. And unfortunately, the statistics 
bear out that there is a negative consequence to having 
casinos. Some will make money. I have no doubt that the tribes 
will make a tremendous amount of money. But there is a cost to 
the community that houses these casinos. We have seen it in all 
20 communities that house the casinos currently and we see it 
across the country. As a matter of fact, even Nevada is coming 
to start to deal with some of their problems that are--
    Mr. Young. You and I are arguing about gambling. We are not 
talking about the claims settlement.
    Mr. Rogers. And I understand that. There is great argument 
just on the claims settlement why this shouldn't happen. I 
happened to argue--I am going to let somebody else argue that. 
But there is also great argument why we ought not have rampant 
expansion of gambling without taking into consideration the 
impact of everybody who lives in the surrounding communities. 
At what cost--
    Mr. Young. Again--wait a minute. But they already voted on 
that. The community there already voted on it. And if you 
believe in democracy and the Republic, you have to respect the 
wishes of the people who vote on it. You have no right to sit 
in judgment on those around the area it affects. You say it 
affects the whole State.
    Mr. Rogers. It does affect it.
    Mr. Young. I would agree with that if you didn't have the 
20 other gambling institutions within the State. If it was the 
first one, great. But in the meantime, they are going through 
the town, a little town, a very depressed area, and going into 
Canada and spending their dollars. And you are not stopping 
that. It is like exporting jobs. It is like exporting money to 
buy oil from the OPEC countries. I don't think that is correct, 
either. I think that ought to be left here in the United 
States. We ought to be drilling our own wells, not voting ``not 
drill'' them.
    Thank you, Mr. Chairman.
    Mr. Rogers. I would be happy to debate that issue anytime, 
Mr. Young.
    Mr. Young. Really? You would like to debate the drilling?
    [Laughter.]
    Mr. Young. On ANWR?
    [Laughter.]
    Mr. Rogers. I will trade you that for a casino, Mr. Young.
    Mr. Young. Now we're talking.
    [Laughter.]
    Mr. Rogers. Well, that is good, because you already had me 
on ANWR.
    Mr. Young. We're talkin'.
    [Laughter.]
    Mr. Young. Sold.
    The Chairman. Strange bedfellows, indeed.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    And I do have the utmost respect for Mr. Rogers's opinions 
about this issue. But I was just curious, does the State of 
Michigan also participate in lotteries; if he considers 
lotteries, horse racing, the problems of the sins of alcoholic 
beverages and the beer lobby? Would you also be in agreement 
that we ought to ban all of these evils as well?
    Mr. Rogers. Well, again, you are asking from a moral 
perspective. I argue casino gambling on the economic impact of 
it. I really don't support the State being involved in 
lotteries. It has proven in all State lotteries it tends to go 
after the poor more than it does the wealthy folks, 
unfortunately. Horse racing is a different animal. I have 
adamantly opposed--they are trying to put slot machines at 
horse tracks. I have adamantly opposed that because then, 
again, it takes it from a different demographic and shoves it 
to--quite frankly, it preys on those who are of lesser means. 
And those machines are designed to take your money away from 
you.
    So, I mean, I look at these things as economic and criminal 
enterprise impact. And the information on what casinos do to a 
community is overwhelming. And it is really indisputable. And, 
you know, that 60 percent bankruptcies in southeast Michigan, 
we are all paying for that. You are paying for that. When 
somebody goes down to get a loan, had nothing to do with one of 
these casinos and certainly isn't the recipient of it, they are 
paying a price for that. They are paying a higher price in 
products that they consume.
    Mr. Faleomavaega. Well, I am not going to dispute your 
statistical knowledge of all this, Mr. Rogers, but one of the 
ironies--and correct me if I had a wrong reading of history--
was that one of the first ways that our Revolutionary 
Government started to fund the war effort was to conduct a 
lottery. The Founding Fathers of this Nation had to do this 
simply because of economic necessity. And I was wondering if 
having a lottery at the time we were trying to establish this 
Nation in terms of the economic necessity that the Founding 
Fathers had to do this for economic purposes, not the moral 
issues but strictly because of economics.
    Mr. Rogers. Well, and I will--I am not familiar with that 
case, to be honest with you, but I do know the economics of 
casinos currently as they exist in America today, and they are 
a bad bet for the citizens that house them in those 
communities. Every community has found it. We had, I think, 
seven escort services--just to give you an example on the 
social side--seven escort services, exotic escort services 
prior to the casinos in Wayne County. Two months after the 
casinos opened, there were 42.
    Mr. Faleomavaega. Are you suggesting to the Gentleman from 
Nevada that gaming altogether ought to be banned from the State 
of Nevada?
    Mr. Rogers. I am not going to worry about the State of 
Nevada. I am going to worry about the State of Michigan.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    [Laughter.]
    Mr. Rogers. If they can take our nuclear waste, maybe we 
can talk.
    The Chairman. That is still not a deal.
    Mr. Gibbons. We are getting a lot done here, Mr. Chairman, 
thank you.
    The Chairman. I don't know, he was talking about banning 
beer. I think you are going way too far with that.
    Mr. Rogers. Mr. Chairman, if you noticed, I didn't mention 
beer. I am all for that.
    The Chairman. Further questions? Mr. Kildee.
    Mr. Kildee. Just one question. Mr. Young before he left 
mentioned that it is a question of have and have-nots. Mr. 
Rogers, Bay Mills, are they a have-not right now?
    Mr. Rogers. I don't know what you mean, Mr. Kildee.
    Mr. Kildee. Well, they have a casino, right?
    Mr. Rogers. Yes, they do, actually.
    Mr. Kildee. So it is not a have or have-not there. And 
Sault Ste. Marie has at least one casino up north and they have 
a casino in Detroit.
    Mr. Rogers. That is correct.
    Mr. Kildee. So they would have three casinos if these bills 
were to pass.
    Mr. Rogers. That is correct.
    Mr. Kildee. So it is not so much have or have-not. I helped 
write IGRA myself, and I think it has been helpful to the 
Indian communities. We want to continue to be helpful, but it 
is not--I want to make it clear that this is not really have or 
have-nots, that these tribes, as much as I hold them close to 
my heart, they do have a casino or, in one instance, more than 
one casino--one in Detroit, which is a fairly good market.
    The Chairman. Any further questions? Mr. Inslee?
    Mr. Inslee. Mr. Rogers, you indicated that bankruptcies 
have gone up 60 percent since the Detroit casinos had opened. 
When did they open?
    Mr. Rogers. They went into operation in 2000, I believe.
    Mr. Inslee. So I guess that would have been a 60 percent 
increase in bankruptcies since George Bush has been elected? Is 
that right?
    [Laughter.]
    Mr. Rogers. It is an interesting point, but I would argue 
differently. We have also seen those percentage increases in 
other communities that house casinos. And it is consistent with 
other communities that house casinos as well.
    The Chairman. Mr. Duncan?
    Mr. Duncan. Just very briefly, Mr. Chairman. Chairman Young 
had some good points, but I also think that Congressman Rogers 
has some good points, too. I just wanted to ask, did I hear 
somebody say that Michigan already has 20 casinos? How many 
casinos do you have in Michigan?
    Mr. Rogers. We currently have 20 casinos and there are a 
whole bunch on deck, unfortunately.
    Mr. Duncan. How many are on deck?
    Mr. Rogers. I want to say seven, if I understand correctly. 
Nine, I am being told.
    Mr. Duncan. Other than Nevada, is that going to put 
Michigan at the top per population for Indian casinos, or do 
you know?
    Mr. Rogers. Well, three of those casinos are not quote-
unquote Indian casinos. They were--
    Mr. Duncan. Oh, they are just regular--
    Mr. Rogers.--in the city of Detroit. The remainder of those 
are Indian casinos. We already have--I think, by different 
types of gambling, we are second only to Nevada on the types of 
gambling that Michigan affords.
    Mr. Duncan. All right. Thank you very much.
    The Chairman. Any further questions?
    Mr. Faleomavaega. Mr. Chairman, I just want to correct for 
the record. I am the one that mentioned something about the 
beer lobby. Alcoholic beverages.
    The Chairman. Yes, that is the one I was worried about.
    Mr. Faleomavaega. I just wanted to clarify that for the 
record, Mr. Chairman.
    The Chairman. I even moved your bill.
    [Laughter.]
    The Chairman. No further questions. I want to thank our 
witnesses. I know that two of our witnesses have to leave, but 
Mr. Stupak, you are more than welcome to join us on the dais.
    Mr. Dingell. Thank you, Mr. Chairman. Thank the members of 
the Committee.
    The Chairman. I would like to at this time call up our next 
panel, consisting of Aurene Martin, the Deputy Assistant 
Secretary for Indian Affairs.
    Before you take your seat, if I could just have you stand 
and raise your right hand?
    [Witness sworn.]
    The Chairman. Thank you very much. Welcome back to the 
Committee. I believe we are ready when you are.

    STATEMENT OF AURENE MARTIN, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY FOR INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR, 
                        WASHINGTON, D.C.

    Ms. Martin. Good afternoon, Mr. Chairman, and members of 
the Committee. I would like to thank you for the opportunity to 
present the Department of Interior's views on H.R. 831 and H.R. 
2793, which provide for and approve the settlement of land 
claims of the Bay Mills Indian Community and the Sault Ste. 
Marie Tribe.
    As discussed in our written testimony, the Department is 
not currently able to support the bills as they are written. 
H.R. 831 and H.R. 2793 extinguish land claims of the Bay Mills 
and Sault Ste. Marie tribes against the State of Michigan for 
lands located in Charlotte Beach. The legislation approves the 
settlements the State has entered into with each of the tribes 
to extinguish the claims and quiet title to the tracts at 
issue. It also identifies lands which will be provided to the 
tribes in settlement of the claims and directs the Department 
of Interior to take those lands into trust. Finally, it deems 
the new lands as settling a land claim, thus making them exempt 
from the requirements of Section 20 of the Indian Gaming 
Regulatory Act and eligible for use for Class III gaming 
facilities.
    The Department has reviewed the legislation and identified 
concerns, which are outlined in our written testimony. Our 
concerns include the following: The bill requires us to acquire 
the lands in trust within 30 days of the signing of the bill 
into law. The mandatory nature of the provision does not 
provide for us to not take the lands into trust if there are 
significant contamination issues or other environmental 
concerns with the lands that are at issue. And the timing of 
the trust acquisition is such that we can't do a sufficient 
review of the environmental concerns that we might have with 
the lands at issue.
    We also have some questions regarding the implications of 
Section 9 of the Michigan Compact, the compact that is entered 
into between the tribe and the State for operation of gaming, 
which requires agreement with other affected tribes if these 
settlements fall within its scope.
    Finally, these agreements provide for revenue sharing 
provisions and other provisions which pertain to the operation 
of gaming, which we believe must be reviewed and approved by 
the Department pursuant to the Indian Gaming Regulatory Act 
because they fall within that jurisdiction.
    While we have had significant concerns over the past 2 
years with these agreements, I would like to note that the 
Department has been involved in discussions with the Bay Mills 
Indian Community regarding this legislation, and the community 
has been making every effort to address our concerns. They have 
even made significant progress in dealing with those issues and 
have agreed to deal with some of the environmental issues with 
regard to the legislation and have submitted the agreement that 
they reached with the State of Michigan to the Department for 
our review under the Indian Gaming Regulatory Act.
    However, two issues do remain a concern for us. The 
departmental review which is currently contemplated is not 
binding unless it is addressed in the legislation. That is, we 
can review the agreement that has been submitted to us, but if 
we find that it does not meet the requirements of IGRA, we 
cannot--if this legislation was passed, we cannot do anything 
about it. It is not binding on the parties.
    Most importantly, though, this legislation raises a 
significant policy issue upon which the Department has not yet 
formulated a position. Whether a tribe may settle a land claim 
in exchange for land whose purpose is to be used for conducting 
Class III gaming has not yet been addressed by the Department 
during this Administration. While we have initiated internal 
discussions regarding this issue, we have not yet determined 
our position. This discussion implicates a number of land 
claims in additional States, and we are aware of its far-
reaching implications. Our discussion will address the issue as 
a global matter and will, hopefully, provide a blueprint for 
our positions in the future. However, we have not completed 
that internal discussion and we do not have a position right 
now.
    I would like to thank the Committee for the opportunity to 
present our views, and I would be happy to answer any 
questions.
    [The prepared statement of Aurene Martin follows:]

   Statement of Aurene Martin, Principal Deputy Assistant Secretary--
            Indian Affairs, U.S. Department of the Interior

    Good afternoon, Mr. Chairman and Members of the Committee. My name 
is Aurene Martin, and I am the Principal Deputy Assistant Secretary--
Indian Affairs, at the Department of the Interior. I am pleased to be 
here today to testify on H.R. 831, a bill to provide for and approve 
the settlement of certain land claims of the Bay Mills Indian 
Community, and on H.R. 2793, a bill to provide for and approve certain 
land claims of the Sault Ste. Marie Tribe of Chippewa Indians. For the 
following reasons, the Department is unable to support these bills as 
written.
    H.R. 831 would approve and ratify an agreement executed on August 
23, 2002, between the Governor of the State of Michigan and the Bay 
Mills Indian Community. H.R. 2793 would approve and ratify an agreement 
executed on December 30, 2002, between the Governor of the State of 
Michigan and the Sault Ste. Marie Tribe. The settlement agreements 
provide the basis for Congress to extinguish the two tribes' claims to 
the Charlotte Beach lands. In consideration for the extinguishments of 
the tribes' claims, Section 2 of H.R. 831 would require the Secretary 
to take into trust for the Bay Mills Indian Community alternative land 
located in Port Huron, Michigan, some 250 miles from the Tribe's 
reservation. Section 1(b) of H.R. 2793 would require the Secretary to 
take into trust for the Sault Ste. Marie Tribe two parcels of land, one 
located in Otswego County, subject to the approval of the Village of 
Vanderbilt and the Little Traverse Bay Bands of Odawa Indians, and the 
other one located in the City of Romulus, Michigan, subject to the 
approval of the City.
    The settlement agreements are similar and contain, in pertinent 
part: (1) provisions relating to the tribes' agreement to relinquish 
all legal and equitable claims to the Charlotte Beach lands; (2) the 
Governor's concurrence in the trust acquisition of the alternative 
lands for gaming purposes; (3) tribal payments to the State of Michigan 
in an amount equal to 8% of the net win derived from all Class III 
electronic games of chance in consideration for limited geographical 
exclusivity, and payments in the aggregate amount equal to 2% of the 
net win from all Class III electronic games of chance to local units of 
state governments; (4) limitation of the tribes' Class III gaming 
operations in Michigan; (5) the Governor's forbearance from exercising 
the State's unilateral right to renegotiate the Compact pursuant to 
Section 12(c) of the Compact; and (6) a statement that Section 9 of the 
compact is not implicated by provision of the alternative land to the 
Tribe, and the Governor's waiver of this provision to the extent it is 
determined to be implicated.
    We are concerned with the mandatory nature of the land acquisition 
provisions in the bills for two reasons. First, the bills would require 
that alternative lands be taken into trust even if the Department 
determines that potential liabilities exist on these lands. In this 
regard, we would recommend that any acquisition in trust be conditioned 
upon the lands meeting applicable environmental standards. Second, we 
believe that the 30-day time frame to take the lands into trust after 
receipt of title insurance policies is too short, and would make it 
impossible for the Department to comply with its existing regulation, 
25 CFR 151.12, that a notice be published in the Federal Register at 
least 30 days before land is taken into trust. The Department asks that 
Congress consider the cost to and potential liability of the United 
States Government with respect to legislative transfers of land into 
trust, both in this particular instance and all future mandatory trust 
transactions.
    We also are concerned with the lack of consultation with other 
Michigan tribes that may be impacted by the terms of these settlements, 
especially since the agreements purport to waive Section 9 of the 
Michigan compacts to the extent it is implicated by the settlements.
    Finally, we believe that the gaming-related provisions of the 
settlement agreements should be evaluated under the Indian Gaming 
Regulatory Act (IGRA) through the submission of compact amendments to 
the Secretary. It is our view that IGRA requires that all substantive 
provisions relating to the operation of gaming activities be included 
in a tribal/state compact. These bills arguably carve an unwise 
exception to this requirement, especially since the revenue-sharing 
provisions of the settlement agreements may be in violation of Section 
11(d)(4) of IGRA.
    This concludes my remarks. I will be happy to answer any questions 
the Committee may have. Thank you.
                                 ______
                                 
    The Chairman. Thank you, Ms. Martin.
    The opposition that you state to these two bills seems to 
based largely on technical issues. Is it possible to rewrite or 
amend the legislation in a way that would address what the 
concerns of the Department are?
    Ms. Martin. Generally speaking, yes. But as I stated in my 
written testimony, there is one policy matter which we have not 
resolved internally; that is, whether we believe as a policy 
matter that it is appropriate to take land into trust in 
settlement of a land claim that is solely to be used for gaming 
purposes and, in this case, very far away from where the 
tribes' reservations are.
    The Chairman. So as far as the Department is concerned, 
there are really two big issues; one, are technical issues with 
the legislation, the other being the overall policy statement 
that you have not yet taken a position on, that the Secretary 
has not yet taken a position on, nor has this Committee in 
terms of the location of land such as this. So those are, 
really, two major issues that need to be settled before there 
can be support from the Administration?
    Ms. Martin. Yes, that is true.
    The Chairman. And the second issue is up in the air in 
terms of what position the Secretary ultimately takes?
    Ms. Martin. With regard to the policy issue, yes.
    The Chairman. All right, thank you.
    Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman.
    You have testified to a concern about the Department taking 
land into trust through these bills which might have some 
environmental problems, or be contaminated in some way. Doing 
so could cause serious liability questions for the Department, 
and I think that is a very legitimate concern. I also 
understand that you have worked with the Indian tribes before 
us today on these matters in this legislation.
    Ms. Martin. Yes, we have. We have had some discussions in 
the past few weeks.
    Mr. Rahall. And I would hope you would be willing to work 
with the Bay Mills and Sault Ste. Marie tribes to come up with 
language that has been used before to address some of the 
problems?
    Ms. Martin. Yes, we will.
    Mr. Rahall. One last question, if I might. Your testimony 
says that the 30-day timeframe given in the bills to take land 
into trust once the Department receives a title insurance 
policy was too short to comply with the Department's notice 
regulations. Could you give us a timeframe that is more in line 
with those regulations? For example, would 90 days be adequate 
for the Department?
    Ms. Martin. I can't give you a set number of days right 
now, but I will get back to you on what might be adequate. 
Obviously, we need to take enough time to deal with matters 
that we need to take care of, but the balance is trying to find 
what is the least amount of time that we can do those things.
    Mr. Rahall. Is an Act of Congress required for an Indian 
tribe to relinquish its property rights, or can this be handled 
administratively?
    Ms. Martin. I do believe that an Act of Congress is 
required under 25 U.S.C. Section 177, the Nonintercourse Act.
    Mr. Rahall. That is my understanding as well. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Further questions? Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    Secretary, it is always a pleasure to have you here. A 
couple of quick questions. I want to pick up on a point that 
the Chairman raised and just clarify it for my purposes and my 
understanding. Are your objections primarily process- and 
jurisdictional-oriented, or are they substantive? In other 
words, you have, obviously, some concerns about times and 
certain things that worry you about the process. But as you 
step back and look at the agreement, is there anything in the 
agreement, from the Department's standpoint, that causes you 
problems?
    Ms. Martin. We have not fully reviewed the agreement yet. 
It was submitted to us within the last 2 weeks for review for 
IGRA purposes. Whether provisions of that agreement violate 
provisions of IGRA, we haven't yet determined. But the 
provisions of the bill and the terms of the legislation, the 
concerns that we have had with those, based on our discussions 
with Bay Mills, at least, they would be more than willing to 
work with us to try to rectify what those problems might be.
    Mr. Cole. Could you characterize too, or if you have an 
opinion on the process, the negotiation process between the 
State of Michigan when Governor Engler was Governor, and the 
tribe? Does that appear to have been open and fair and, you 
know, handled well, from your standpoint?
    Ms. Martin. As far as I am aware, it was conducted in an 
open and fair manner. I do know that when I testified on 
similar legislation 2 years ago, a representative of the 
Governor appeared at that hearing and did testify in support of 
the legislation.
    Mr. Cole. Does the fact that the local community appears to 
be supportive of this influence your decision, impact it one 
way or the other? Make any difference?
    Ms. Martin. Yes, it does have an impact on our 
decisionmaking. There is a policy of the Secretary and the 
Department generally to always try to get the support of a 
local community whenever we enter into any kind of activity in 
that area. So it would be our policy also here to try to 
respect agreements that States and tribes come to terms with. 
Here, though, we have, I think, what is a far-reaching policy 
matter which needs to be addressed by the United States, and we 
just have not done that yet.
    Mr. Cole. It is still pretty impressive, though, to see a 
State, a tribe, and a locality that actually work together and 
arrive at a solution. I mean, we don't see that very often. It 
is a remarkable occurrence.
    One last question, if I may. You mentioned that the 
Secretary had not yet arrived at a determination as to whether 
or not land could be moved into trust solely for the purposes 
of gaming, if I understood your point. Have previous 
Administrations--is this an Administration question? Have 
previous Administrations taken a position on this or Congress 
taken a position on this before? So are you reviewing what we 
have done before or is this totally new ground that you are 
looking at?
    Ms. Martin. It is my understanding that both this 
Administration up to now and the past Administration had an 
informal policy that they would not approve either water or 
land claims settlements that contemplated an exchange of land 
which would solely be used for gaming. And my understanding is 
also that Congress has never approved such a settlement, 
either. But we are at a point now where there are a number of 
land claims negotiations that are being undertaken in different 
States, where the settlement contemplated is specifically land 
being taken into trust for gaming. So we will have to, if not 
here, in some other settlement in, I think, the relatively near 
future, have to take some kind of a position on that issue.
    Mr. Cole. Well, again, I would just join my colleagues, I 
think on both sides of this issue, and ask, with full 
understanding that it is a pretty weighty question, that you 
expedite that. Because we do--obviously we are going to have a 
number of cases that depend on this kind of decision, and at 
least give us some enlightenment as to where the Administration 
is going to ultimately come down on this. It would be 
extraordinarily helpful.
    Ms. Martin. Yes, sir.
    Mr. Cole. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Kildee. Mr. Chairman?
    The Chairman. Further questions from Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Madam Secretary, I appreciate your testimony. Someone asked 
whether we could rewrite this legislation to remove any 
imperfections. But would rewriting the legislation remove the 
far-reaching implications which you mentioned? You mentioned 
that there are far-reaching implications for Congress to enact 
such a law. Because we know there are many tribes throughout 
the country who are seeking to have land put into trust for the 
purpose of gaming. I think the Miamis are seeking a place in 
Illinois, the Delaware a place in New Jersey, and there are 
other places. How many of these cases are pending now where 
they are seeking to put land into trust for that purpose?
    Ms. Martin. I am aware of at least four land claim--well, 
six land claims issues and two water settlements.
    Mr. Kildee. Now, let me ask you this. If Congress, 
bypassing the process which we put together under IGRA, if 
Congress bypasses that and takes land into trust for the 
purpose of gaming, could not then Congress set a precedent 
where no place in America could not be subject to having an 
Indian casino put on that land?
    Ms. Martin. Well, I think that is part of the overall 
discussion. If you start on a path of--even though you might 
say that it is not precedent, you take land into trust in 
settlement of a land claim, and then you take land into trust 
further away from a tribe's aboriginal area, then the next 
step--as you progress further and further, where do you draw 
that line? Do you draw a line at near the reservation, 100 
miles from the reservation, 300 miles? Is it OK to put land in 
a trust in another State? You start down that path, and it has 
implications even though you might not intend for that to 
happen. And we are at that point now.
    Mr. Kildee. The compact which was reached between the Bay 
Mills and the Sault Ste. Marie Tribe with Governor Engler would 
be put into law were we to pass this legislation. Is there 
precedent for a compact to be put into law by Congress?
    Ms. Martin. No, there is not. Not that I am aware of. In 
fact, obviously, that is one of our concerns with the bill, 
that once you approve this legislation and, by virtue of that, 
approve the settlement, then there is the possibility, then, 
other tribes will attempt to bring their provisions to Congress 
for approval, provisions that might not otherwise be approved 
through the departmental process.
    Mr. Kildee. I thank you.
    And thank you, Mr. Chairman. I yield back the balance of my 
time.
    The Chairman. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. And welcome, 
Madam Secretary, to the Committee.
    If we could just put the issue of gaming aside, I was just 
wondering, these lands in question, weren't they once owned by 
the Chippewa Tribe?
    Ms. Martin. Yes, they were.
    Mr. Faleomavaega. So what we are doing here is just simply 
formalizing the situation? I mean, how did the Chippewa Tribe 
lose these lands to begin with?
    Ms. Martin. Well, it is actually a fairly complicated 
history. The lands in Michigan were ceded by a larger Chippewa 
Tribe, as I understand it, but then there were further cessions 
by individual bands as they organized separately. I think 
overall the lands that are at issue here were part of the 
cession by the one Chippewa Tribe in Michigan.
    Mr. Faleomavaega. So there was no forced takeover or 
adverse possession by other interests or other groups of people 
that came and occupied them before it became the State of 
Michigan or during the time that we became a country? I just 
wanted to find out--I am curious. We are conveying land back to 
the true owners of--the people who really owned the land to 
begin with? I am just wondering if this is how I read history, 
and correct me if I am wrong on this.
    Ms. Martin. Well, I think you can make that argument for 
all of the lands in the United States, really.
    Mr. Faleomavaega. Well, I don't want to talk about the 
United States. I just want to talk about Michigan and the 
Chippewa Tribe, because this is what we are discussing here.
    Ms. Martin. They were originally owned by the larger 
Chippewa Tribe, yes, and ceded to the United States by them.
    Mr. Faleomavaega. Ceded, or forced to be ceded?
    Ms. Martin. Ceded through treaty, is my understanding.
    Mr. Faleomavaega. OK, they were not taken like the way it 
was taken in other instances?
    Ms. Martin. No.
    Mr. Faleomavaega. No treaty relationship between the 
Chippewas. This is how the Chippewas lost these lands, by 
treaty?
    Ms. Martin. Oh, if you are talking about the Charlotte 
Beach land--
    Mr. Faleomavaega. I am talking about, specifically, these 
two tracts of--pieces of property here.
    Ms. Martin. Oh, OK. I was confused. I thought you meant the 
lands that were being exchanged.
    Mr. Faleomavaega. No, no, no.
    Ms. Martin. They were actually, the lands in Charlotte 
Beach were reserved to what was historically, what is now the 
Bay Mills Community. But at the time that the tribes entered 
into those agreements, they did not know that the title to 
portions of those lands had been given to a non-Indian.
    Mr. Faleomavaega. Yes, and who gave it to the non-Indian?
    Ms. Martin. The United States.
    Mr. Faleomavaega. Thank you.
    Ms. Martin. OK.
    Mr. Faleomavaega. So what we are actually doing is that we 
are just trying to correct an inequity or a transgression on 
the part of the U.S. Government--took the land away from the 
tribe to begin with. My point here is that these lands belonged 
to the tribe to begin with. So we are just simply formalizing 
the transfer by having the State of Michigan be the transferor, 
if you will, to the tribe.
    The reason why I raise this issue, Madam Secretary, is that 
if these lands belonged to the tribe to begin with, we are just 
simply formalizing another way of conveying it back to the 
tribe that owned the land to begin with. And that being the 
case, why would there be an objection on the part of the 
Administration that this is just simply what we are doing, 
formalizing the transfer of the land that actually was owned by 
the Chippewas to begin with?
    Ms. Martin. Well, but the land that we are exchanging to 
give back to the tribe is--
    Mr. Faleomavaega. Doesn't belong to--
    Ms. Martin. It is not in that area. It is very far away.
    Mr. Faleomavaega. Does it matter? Did it belong to the 
tribes in question?
    Ms. Martin. Well, historically it belonged to a larger 
Chippewa Tribe.
    Mr. Faleomavaega. OK. Madam Secretary, I just wanted to ask 
another question. I understand the DOI policy has not been 
established. Talking about the instances of non-reservation 
lands, if you will, is this time the first instance that 
something like this has happened, as far as the laws, the IGRA 
is concerned, and where you have not really made a decision as 
a policy decision in the Department?
    Ms. Martin. It is the first time before the fact, that is, 
in settlement of the land claim, that we would be taking lands 
into trust for gaming.
    Mr. Faleomavaega. OK, now, do you think the Congress should 
wait for the Department for a decision? Or we could probably 
just put a little zip in the amendment and be done with it as a 
matter of public policy, and make an amendment on the IGRA. So 
that way, you don't have to worry about--or us waiting on the 
part of the Administration to make a decision. Would you 
recommend that we make an amendment, an appropriate amendment 
of these proposed bills to take care of that policy problem 
that you are having?
    Ms. Martin. I think that it would make our discussion much 
easier. I couldn't tell you that that is our position right 
now, though.
    Mr. Faleomavaega. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Further questions? Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman, and thank you for the 
courtesies extended to me at today's hearing.
    Ms. Martin, I think you alluded to it earlier, Chapter 25. 
If we are going to extinguish any claim or title to a land by a 
Native American tribe, Congress must act on it, correct?
    Ms. Martin. Yes.
    Mr. Stupak. And there is land that the BIA takes into trust 
for Native American tribes that is not used for gaming. 
Correct?
    Ms. Martin. Yes.
    Mr. Stupak. If you look at the legislation--I found it on 
Page 3, subsection (b) in one and subsection (c) in the other--
there is no requirement that this land be used for gaming. It 
may be used for gaming, but if they never build a casino on 
this land once it is transferred, there is no penalty or 
anything like that. They don't have to use it for a casino, do 
they?
    Ms. Martin. No, they don't.
    Mr. Stupak. And it goes on, in each of these pieces of 
legislation, I think it is the last part of each of these 
legislation, second-to-last piece, Page 4, subsection (2) ``Not 
Precedent,'' that by extinguishing these land claims, if 
Congress approves this, you would not set a precedent for any 
other tribe or any other State that would enter into a 
settlement of land claims, that these are unique and should not 
be considered as precedent for any future agreement between any 
tribe and the State. Is that correct?
    Ms. Martin. That is what it says, yes.
    Mr. Stupak. And also, in response to Mr. Kildee's question 
about a compact, this is not a compact between the Native 
American tribes and Governor Engler. This is a settlement of a 
claim. The State of Michigan has already approved their compact 
a number of years ago, and it is good for about 20 years, if I 
remember correctly, from the date they approved it. So we are 
not approving a gaming compact here, asking the BIA to approve 
a compact. What is said here is ``as a settlement of a land 
claim.'' That is all this is. Is that--it is not a compact 
between the State of Michigan and these tribes.
    Ms. Martin. The agreement is not termed a compact, but it 
does contain provisions which are normally contained in a 
compact and the type of provisions which IGRA contemplates the 
Department would review.
    Mr. Stupak. Sure, similar provisions. But does not under 
the compact that currently exists between the State of Michigan 
and all the tribes in Michigan--I believe there are eight 
recognized tribes in Michigan that have gaming--that there are 
provisions in that compact that allow the Governor to enter 
into negotiations on points that were not totally addressed in 
that compact when it was signed a couple of years ago. Is that 
not correct?
    Ms. Martin. Yes, but it is also our position that the 
provisions which are addressed in the agreement would amend the 
compact by their very nature.
    Mr. Stupak. Right. But the compact that the State of 
Michigan has with the tribes, which you approved, BIA approved, 
allows the Governor that right to go back and discuss, 
negotiate, and settle issues that come up under this compact 
during this 20-year period that were not contemplated between 
the parties.
    Ms. Martin. Yes.
    Mr. Stupak. And you approved that the Governor could do 
that. And in this case, Governor Engler used that compact, that 
provision to allow him to enter into this settlement agreement. 
Correct?
    Ms. Martin. I believe so.
    Mr. Stupak. OK. When you indicated that the Bay Mills and 
the Sault tribes were--you kept saying, well, there is a bigger 
Chippewa Tribe. But you would agree that the Bay Mills Tribe 
and the Sault Tribe of Chippewa Indians are a successor of this 
larger Chippewa Tribe, and the right that was extended to the 
first Chippewa Tribe--the big Chippewa Tribe, as you describe 
it--flows through to these tribes here present today?
    Ms. Martin. That is a far more complicated question than I 
could answer right now. We would have to undertake a legal 
review to determine whether they are a successor in interest or 
not.
    Mr. Stupak. Well, let me ask you this, then. Successor in 
interest with these tribes does not end with the death of the 
people who made up the agreement. Isn't that correct? It flows 
to their ancestors.
    Ms. Martin. Generally speaking, yes, but every situation is 
different. And there have been a number of land claims 
settlements which have discussed how successors in interest 
would be able to make claims against certain tracts of land. I 
couldn't make that kind of review and answer that question for 
you right now on the spot.
    Mr. Stupak. Are you familiar with the court cases that were 
involved in this case at all?
    Ms. Martin. Not in detail.
    Mr. Stupak. How about this generality that the Court of 
Appeals indicated to the tribes, that the Sault Tribe was an 
indispensable party? The lawsuit was brought by Bay Mills, the 
Sault Tribe was an indispensable party to this land claim. 
Therefore, the judge basically ruled, if you are going to 
settle this case, you have to have both parties here, not just 
one of you, because you cannot extinguish half a cloud on a 
title.
    Ms. Martin. I believe that that is correct.
    Mr. Stupak. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Thank you, Ms. Martin, for your testimony. Members may have 
additional questions that they would like to ask you that will 
be submitted in writing. If you could answer those in writing 
so that they can be included in the hearing record.
    Ms. Martin. Thank you very much.
    The Chairman. Thank you for being here.
    I would like to now call up Panel No. 3. We will hear from 
the Honorable Jeff Parker of the Bay Mills Indian Community; 
the Honorable Mark Neal, Mayor of Port Huron, Michigan; Paul 
Shagen, Senior Tribal Attorney for the Sault Ste. Marie Tribe; 
and the Honorable Alan Lambert, Mayor of Romulus, Michigan.
    If I could have you remain standing.
    [Witnesses sworn.]
    The Chairman. Thank you very much. Let the record show they 
all answered in the affirmative.
    Thank you all for being here today. I would like to start 
with Mr. Parker.

 STATEMENT OF JEFF PARKER, PRESIDENT OF THE EXECUTIVE COUNCIL, 
   BAY MILLS INDIAN COMMUNITY OF MICHIGAN, BRIMLEY, MICHIGAN

    Mr. Parker. Mr. Chairman, members of the Committee, thank 
you very much for allowing me time to testify before you on a 
bill that impacts my tribe. I am the elected president of the 
Bay Mills Indian Community, a post I was first elected to in 
1989 and, except for a couple of years, have held since then.
    We are talking about an issue that is going on its third 
century now of not being resolved, and we are coming before the 
Committee to ask for your help in resolving this issue. In the 
mid-1800s, Bay Mills, on advice from others, ceded property 
that it bought and paid for from the Governor of Michigan. This 
is a mechanism that was used by other tribes in Michigan to 
protect property. In fact, there is still a State reservation 
today, in Athens, Michigan, that was made a reservation by the 
same process. What we are trying to do now is rectify what 
happened to our tribe in losing that property. I am sure there 
are going to be others that are going to talk to you and 
question the distance between an existing Bay Mills reservation 
and lands that we are looking for in settlement in Port Huron.
    I have before me, and I would like to include it for the 
record, what is called a Royce map. Royce was a gentleman the 
Smithsonian Institute had hired to go and put on the maps all 
of the treaties in the United States. This was a report to 
Congress, so it may still be around here somewhere. Anyway, 
these areas are called different things. The Port Huron area is 
called Royce map 66. And when you talked earlier about a bigger 
Chippewa Tribe, the bigger Chippewa Tribe and other tribes in 
Michigan basically ceded that territory to the U.S. Government. 
My ancestor signed that treaty. In fact, today, tribes in 
Michigan, Indian people, are afforded educational opportunities 
based on that treaty. And those opportunities aren't limited in 
any way to one specific tribe, but the entire State.
    I would also like to address some of the concerns people 
have that we are not following the proper process, we are not 
going through the proper channels, we should go before a court. 
And we had gone to court, and we had reached a settlement 
agreement. And when we brought that in to Interior to have them 
review it, they said everything looked OK and looked 
appropriate, thank you very much for at least coming in and 
sharing that with us. As we were leaving, they said, Oh, by the 
way, because you have an interest in property, in order for 
this claim to be fully extinguished, you need an Act of 
Congress.
    We don't need an Act of Congress to ratify things, we need 
an Act of Congress that basically extinguishes Bay Mills claim 
to the Charlotte Beach lands. The settlement that we have 
reached is with the State of Michigan, with the elected leader 
of that State, Governor Engler. Even Congress in IGRA 
contemplated land claims--it is mentioned in IGRA--and 
contemplated mechanisms for doing that, making sure that the 
Governor of the affected State was involved in the process and 
concurred, making sure that the local unit of Government was 
involved and concurred.
    We are by no means attempting to slip a tribal casino into 
an area that is now wanted. And in fact, the Port Huron site 
was selected by Governor Engler as a site that he wanted to 
have this facility to compete with the Canadian casino across 
the bridge that, as you heard earlier, could be 75 percent of 
the revenue comes from United States citizens.
    I am not sure what I can do to convince you that this is 
the right thing. I will tell you that this is not a commercial 
casino that we are dealing with. Tribes don't have the luxury 
of commercial casinos. We are basically taxed 100 percent by 
the Indian Gaming Regulatory Act, as all the revenue that we 
generate from our facilities has to go into social programs, 
educational programs, health and well-being. I would invite you 
to come to Bay Mills to see what we have done, amidst 
considerable competition, to provide benefits not only to the 
tribal community, but the entire surrounding community, non-
Native as well, with our health facility, our community 
college, elementary school. Everything that we have done has 
been open to all people.
    I think it is important to note that when you say Bay Mills 
Indian Community, you really are talking community, because we 
look at everybody as being in the same boat. Maybe it is 
because we are from the U.P. and things are a little tougher up 
there with the longer winters, but if you don't stick together, 
it makes for a long winter.
    With that, I would like to, as I said, include the maps, 
the Royce maps that show the area, as part of my testimony, and 
also some research that was done and testimony that was done 
previously, talking about us going through the court systems 
that should resolve some of those issues.
    With that, I would answer any questions that you may have.
    [The Royce maps and other materials submitted by Mr. Parker 
have been retained in the Committee's official files.]
    [The prepared statement of Mr. Parker follows:]

  Statement of Jeffrey D. Parker, President of the Executive Council, 
       Bay Mills Indian Community of Michigan, Brimley, Michigan

    Mr. Chairman, and members of the Committee, I am pleased to be 
invited to present testimony on behalf of the Bay Mills Indian 
Community on H.R. 831. I speak here today in my official capacity as 
President of the Executive Council, which is the elected government of 
our Tribe. The legislation before you is extremely important to my 
people; its importance will be better understood by my description of 
the history of the Tribe and the origin of this controversy.
    The Bay Mills Indian Community is comprised of the bands of Sault 
Ste. Marie area Chippewa who signed a series of treaties with the 
United States beginning in 1795. My Tribe's modern-day Reservation is 
located at the juncture of the St. Mary's River and Lake Superior, in 
the Iroquois Point area of Michigan's Upper Peninsula, and on Sugar 
Island, which is just east of Sault Ste. Marie, Michigan, in the St. 
Mary's River Channel. My Tribe is one of four in Michigan which has 
maintained continuous government-to-government relations with the 
United States since treaty times. We adopted a Constitution in 1936 
under the Indian Reorganization Act, and codified as our form of 
government the traditional Chippewa public forum, in which all adult 
members comprise the General Tribal Council. I represent a direct 
democracy, which votes every two years to select officers, known as the 
Executive Council. Our total enrollment is approximately 1,500 members. 
It is on their behalf that I speak today.
    I am very proud to testify in support of this legislation, as it 
represents the final step in obtaining redress of a great wrong done to 
our people over 100 years ago, a wrong that has imposed continuing 
consequences to the present day. The Bay Mills Indian Community is 
deeply grateful to Congresswoman Candice Miller for sponsoring H.R. 
831, and to Congressman Don Young for co-sponsoring it. In addition I 
wish to acknowledge the assistance and support that our Congressman, 
Bart Stupak, has given to the Tribe in its efforts to achieve redress 
these many years. I also wish to express my thanks to Chairman Pombo 
and Ranking Member Rahall for understanding how important this 
legislation is to my people and for holding this hearing today.
    Finally, I wish to thank Congressman Dingell for his efforts to 
resolve the Charlotte Beach land claim by introducing the companion 
bill, H.R. 2793. That legislation ratifies the settlement of the Sault 
Ste. Marie Tribe's claim to the same land. As you may know, resolution 
of both claims is necessary to clear the cloud on title of the current 
residents living in the claim area. By the explicit terms of the Sault 
settlement, ratification of the Bay Mills settlement is a precondition 
to the Sault Tribe's settlement becoming effective.
History of Our Land Claim
    The Sault Ste. Marie area Chippewa bands participated in a series 
of treaty negotiations by which large tracts of land were ceded to the 
United States in 1807, 1817, 1820, and 1836. In return, the United 
States promised to reserve certain lands for the exclusive occupancy of 
the Chippewa, and to protect forever reserved lands from further white 
encroachment.
    The Treaty signed by our ancestors in 1836 promised to set aside 
certain lands for us in perpetuity. When the 1836 cession Treaty was 
sent to Congress for ratification, however, the Senate unilaterally 
inserted a provision which limited protection of the lands reserved 
under it to a five-year term. As a result, over the course of a 
relatively short period of time the Chippewa lost hundreds of thousands 
of acres of land, in direct contravention of the express terms of the 
Treaty that had been signed by them.
    In part to rectify the injustices done by the 1836 Treaty, the 
United States in 1855 entered into another Treaty with our ancestors by 
which new lands were to be reserved for our use. Among these lands was 
property specifically identified by legal description in the 1855 
Treaty at Hay Lake (the area in modern times known as Charlotte Beach). 
My Tribe's ancestors signed the 1855 Treaty with the express 
understanding that the Hay Lake/Charlotte Beach land would be set aside 
for our exclusive use, and that it would be protected from alienation 
and white encroachment.
    One day after the 1855 Treaty was concluded, however, the United 
States Land Office allowed that very land at Hay Lake to be sold to 
non-Indian speculators. Hence, despite the fact that the United States 
agents induced our ancestors to sign the 1855 Treaty on the 
understanding that the Hay Lake land would be included within our 
reserved lands, and despite the fact that the Senate ratified the 1855 
Treaty with the legal description of the Hay Lake lands still in place, 
the Tribe lost that land by virtue of the United States Land Office's 
actions.
    In order to recover the Hay Lake land, which was of central 
importance to us for historical, food gathering, and cultural reasons, 
my people used their annuity money to buy back what portion of it that 
they could. Upon advice of the Bureau of Indian Affairs agent at the 
time, trust title to the Hay Lake land was conveyed from the land 
speculators to the Governor of the State of Michigan, to protect the 
land from further alienation and encroachment. This method of 
protecting Indian lands was not uncommon in the nineteenth century, and 
it is well established under federal case law that such lands are 
protected by the Indian Trade and Intercourse Act's prohibition against 
the alienation of Indian lands without express Congressional consent.
    My ancestors hunted and lived on the Hay Lake property for nearly 
thirty years unmolested by the State of Michigan. In the 1880s, 
however, Chippewa County determined that it would impose taxes on the 
property. Even though he held trust title, the Governor of the State of 
Michigan failed to respond to the tax assessment in any manner 
whatsoever. Despite repeated requests from our people to the Bureau of 
Indian Affairs for help, the federal government also took no action. 
Because neither the federal government nor the State of Michigan acted 
to protect our lands as was required by the Indian Trade and 
Intercourse Act, the County moved to foreclose on the property and our 
ancestors were evicted.
    I want to make you aware of what the Bureau of Indian Affairs' own 
agent wrote in 1880 about the impending sale of our Hay Lake lands:
        At the ``Sault'', the Old Chief Shaw wa no is in very destitute 
        circumstances, and much agonized as his land which amounts to 
        some 300 acres bought by annuity money and deed in trust to the 
        Governor of this State many years ago, has been sold for 
        taxes...The Old man wished me to do something for him or ask 
        the Government to provide the means to cancel this claim for 
        taxes, He is Old, sick & Blind; and all his people are very 
        poor, simply sustaining life by fishing, picking berries, or an 
        odd days work which chance may throw in their way...
Emphasis added. G. Lee, Michigan Indian Agent, in a letter to the 
Commissioner of Indian Affairs dated August 1880.
    In 1916, we again petitioned the Bureau of Indian Affairs for help 
when on behalf of the Community tribal member William Johnson wrote to 
the Bureau begging for assistance in regaining the Hay Lake lands. The 
Bureau rebuffed his petition.
    In 1925, an attorney, John Shine, wrote again on the Tribe's 
behalf, begging the Bureau for help in recovering the Hay Lake 
property. The Bureau again rebuffed the Tribe's petition for help.
    In the 1970s, the United States' own expert witness (widely 
considered to be the preeminent historian of Indians in the Great Lakes 
area) in the U.S. v. Michigan treaty fishing rights litigation 
highlighted the existence of the Hay Lake/Charlotte Beach claim in her 
expert report submitted to the Federal District Court for the Western 
District of Michigan. See Report of Dr. Helen Tanner, dated April 1974, 
for the United States in U.S. v. Michigan, Civ. Case No. 2:73 CV 26 
(W.D. MI).
    In the 1980s, the Bay Mills Indian Community repeatedly petitioned 
the Department of the Interior to include the Charlotte Beach claim on 
its list of protected historical Indian claims pursuant to 28 U.S.C. 
Sec. 2415. Through a Field Office of the Office of the Solicitor, 
Interior erroneously denied our Tribe's petition for the simple and 
only reason that the Hay Lake/Charlotte Beach land was held in trust by 
the State rather than the federal government. The Field Solicitor's 
refusal was not legally supportable. Existing federal court opinions 
made clear that the Indian Trade and Intercourse Act protects Indian 
lands held by states, and Congress had specifically directed Interior 
to protect all historical Indian claims except those that ``had no 
legal merit whatsoever.'' (See section 3(a) of Pub. L. 97-394.) 
Further, the Field Solicitor's refusal was inconsistent with general 
Interior policy because in fact Interior had included on the final list 
of protected historical claims a fair number of state-held lands, 
including some held for state recognized tribes.
    In the 1990s, we tried to obtain redress in the courts. Our efforts 
were unsuccessful. Our federal court case was dismissed on a procedural 
technicality (the court found that the Sault Ste. Marie Tribe was an 
indispensable party). We fared no better in the state courts, which 
little understood the federal Indian legal issues before it.
    By the late 1990s, we had been left with little choice but to enter 
into direct settlement negotiations with the Governor of the State of 
Michigan. To Governor John Engler's credit, the State determined that 
it would work with our Tribe to address our long-standing grievances. 
The settlement process was lengthy and often difficult. But as you will 
hear from others testifying today, we were able to forge a settlement 
that addresses the needs and concerns of the Bay Mills Indian 
Community, of the State of Michigan, of the people living within the 
Charlotte Beach land claim area, and of the people living in the area 
in which we wish to acquire replacement land. That settlement, executed 
by the Bay Mills Indian Community and the State in August 2002, is the 
backbone of the legislation here before you today.
    I underscore this history because I want the Congress to understand 
the long-standing importance that this land has held for my people. I 
want the Congress to understand that this land claim is not about 
gaming, not about forum shopping, not about modern-day business deals. 
This land claim exists because of negligence by Land Office staff, 
historical inaction by Department of Interior staff, and abandonment of 
trustee obligations by the Governor. Resolution of this land claim is 
about finally securing just compensation for my people, finally being 
able to close this painful chapter of our history, and finally being 
able to shift our focus to the future. It is about finally achieving 
justice.
The Settlement
    In commencing settlement negotiations with the Governor of 
Michigan, the Bay Mills Indian Community well understood that no 
agreement would be possible without compromise. Because achieving 
closure to this long-standing wrong was very important to our 
community, we worked hard to reach an accommodation with the Governor 
by which a resolution to our claim would serve both our goals and those 
of the State.
    Our goals were to recover lost lands, and to receive monetary 
compensation due us for having lost possession of those lands. As you 
may be aware, the federal courts have determined that such monetary 
compensation generally encompasses compensation for lost rent plus 
interest. (See, e.g., the Cayuga cases.)
    The State's goals were to quiet title to the claim area property 
without displacement of the people living there, to construct a 
settlement that would not have an impact on the State's budget, and to 
ensure that any replacement lands would be located in a community 
desirous of our presence there.
    The Settlement we reached with the Governor in August, 2002 
accomplishes both the Tribe's and the State's goals in a fair and 
equitable manner. Indeed, we would like to think that the spirit of 
mutual respect and cooperation with which these negotiations took place 
should serve as a model for how such difficult and emotionally charged 
issues can be resolved. In addition, I note that the general structure 
of the Bay Mills settlement is consistent with other land claims 
settlements already enacted by Congress. (See, for example, the Torres-
Martinez Desert Cahuilla Indians Claims Settlement ratified in the 
106th Congress and codified at 25 U.S.C. Sec. 1778, in which that 
tribe's claim for trespass damages was resolved with replacement lands 
and a related gaming opportunity.)
Indian Gaming
    We understand that there is a reluctance to allow Indian land claim 
settlements to be used to as vehicles for the expansion of off-
reservation Indian gaming. We share that concern. We think, however, 
that the United States owes it our people, particularly given the long 
and unfortunate history of our dealings with the United States, to take 
a hard look at the merits of this land claim, and to understand the 
proposed settlement in the context of our land claim rather than 
through the filter of modern controversies surrounding Indian gaming.
    If we had never been severed from possession of our Hay Lake 
property, if either the United States government of the State of 
Michigan had honored and enforced the Indian Trade and Intercourse Act 
when Chippewa County sought to (and achieved) our dispossession through 
tax foreclosure sales, then everyone, everywhere, would understand the 
Hay Lake property to be ``Indian lands'' held by the Tribe prior to the 
enactment of the Indian Gaming Regulatory Act (IGRA). Had our ancestors 
never been evicted by county tax assessors, we would continue to live 
there to this day, and we would be entitled, under IGRA, to operate an 
Indian gaming facility there.
    The Governor, acting for the State, made clear that he would not 
agree to my Tribe's recovery of the Hay Lake/Charlotte Beach land 
because it could result in the eviction of current landowners in the 
Hay Lake area. The Governor instead offered his support for the concept 
of finding new lands to replace the Hay Lake/Charlotte Beach property 
in return for our agreement that our trust title to the Hay Lake 
property would be extinguished by Congressional action. By agreeing to 
provide replacement land to the Tribe, the State has alleviated the 
anxiety of persons currently living in the Hay Lake/Charlotte Beach 
claim area that they might some day be evicted from their homes. By 
agreeing that such replacement lands should be eligible for gaming, the 
State has agreed that the replacement land should in fact have the same 
status as the lands we have agreed to give up--that is, the replacement 
land should be treated as if it, too, had been held by the tribe since 
the mid-nineteenth century.
    The Governor insisted that we locate replacement lands in a 
community that was desirous of hosting us. We have done that. As you 
will hear directly from the elected representatives of Port Huron 
today, that community affirmatively wishes our Tribe to locate its 
replacement lands there.
    I also wish to underscore that the State insisted that it would not 
provide appropriated money from its own budget to compensate us for 
nearly one hundred and thirty years' back rent and interest. We have 
agreed to that; indeed, have agreed that we will try to achieve full 
compensation based on the money we ourselves make through economic 
development on the replacement lands. Those funds will generate the 
income we require in order to provide governmental services and 
programs to the Tribe's members and their families. Without that 
income, we would have no choice but to come back both to the State and 
the Federal Government, and insist that we be compensated for both 
parties' failure to protect our lands from alienation as required by 
the Indian Trade and Intercourse Act.
    For these reasons, I strongly and respectfully urge you to consider 
this settlement not through the lens of Indian gaming, but rather in 
the context of the long and well-documented history of the wrong done 
to my people, and in the context of the overall wisdom of a settlement 
crafted to create the greatest good for the most people.
The Department of the Interior
    We have tried to work closely with the Department of the Interior 
over the last few years, and have made every effort to address each of 
the concerns raised by the Department of the Interior about the 
structure and content of the proposed settlement. I wish to note here 
that we have appreciated Interior's efforts to work with us in this 
regard. We have proposed a modification to the draft language in 
Section 2 of H.R. 831 that would alleviate the Department's concerns 
about whether the replacement land would have to be acquired in trust 
if it is contaminated (it would not). We have submitted the settlement 
to the Department for its review so that the Department may satisfy 
itself as to the appropriateness of provisions in the settlement that 
the Department feels implicate the Tribe's Tribal-State Gaming Compact. 
And we have welcomed the inclusion of the Sault Ste. Marie Tribe into 
the settlement and legislative process so that landowners within the 
Hay Lake/Charlotte Beach claim area can be assured that their titles 
will be fully and completely cleared through the complete 
extinguishment of Indian title.
    It is our belief that we have successfully addressed the 
Department's concerns, and it is our hope that, as a result, the 
Department will support our efforts and support enactment of H.R. 831.
Conclusion
    I recognize that there are additional issues which may be of 
interest or concern to the Committee. I am happy to address any and all 
issues, and I welcome your questions today. I once again thank you for 
the opportunity to tell the Bay Mills Indian Community's story, and I 
respectfully urge you to support the efforts of the Bay Mills Indian 
Community, the citizens of Charlotte Beach and Port Huron, and the 
State of Michigan, by providing the necessary Congressional 
ratification of our settlement without further delay.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Neal?

            STATEMENT OF HON. B. MARK NEAL, MAYOR, 
                  CITY OF PORT HURON, MICHIGAN

    Mr. Neal. Thank you, Chairman Pombo, Ranking Member Rahall, 
ladies and gentlemen of the Committee, distinguished guests.
    My name is Mark Neal. I am the Mayor of the city of Port 
Huron. Our population is approximately 32,000 people. We are 
the county seat for St. Clair County. We are along the St. 
Clair River just across from Sarnia, Ontario. We currently have 
in our community an unemployment rate that is approaching 20 
percent. We have many people that live below the poverty level. 
We are very much a blue-collar town.
    We look at this possibility of having this land settlement 
taken care of so a casino could be brought to our city. We 
think it is important from the standpoint it provides 
employment opportunities. With the potential of having 3,000 to 
3,500 jobs created by this casino/convention center, it would 
go a long way in providing employment opportunities for our 
community. We feel the high-paying jobs, that are going to be 
union, would turn over those wages in our community many times 
over and would support other industries in our community as 
well.
    In our community, we have had, unfortunately, many 
employment opportunities dry up. We are very much dependent on 
the automotive industry, and the way the automotive industry in 
the State of Michigan has gone, it has disappeared. We have 
lost those jobs out of our State. And unfortunately, we haven't 
had any new industry move in to replace them. Our community is 
looking at this opportunity to create a whole other type of 
industry, a service industry, a tourism industry, that would 
enable us to be a destination for people not only from the 
State of Michigan but from the region as well.
    I hear the comments from Congressman Rogers, and it 
disturbs me to hear him say that gaming does not bring economic 
opportunity. I disagree with that. We are affected in our 
community right now by gaming. The reason I say that, if you 
look to my left, your right, here is the Canadian casino. It is 
approximately 500 yards from the city of Port Huron, just 
across the St. Clair River. We have 75 to 80 percent of the 
patrons that go to that casino comes from the State of 
Michigan. So what happens is our money goes across the river to 
a Canadian-sponsored casino and stays there. It doesn't get 
back to our community. We feel if we have the casino in our 
community, it goes to a strong way of providing jobs and money 
back to our schools, our community, our social services, and 
many other services throughout our community.
    I hear the comments also in regard to bankruptcies. In my 
day job, I have seen those bankruptcies go high, too, go higher 
than they normally are. But unfortunately, they are not tied to 
the casino or the gaming industry; they are tied to the 
economic conditions of our State, and that is where we have 
lost jobs. So we feel it is important that we have this 
opportunity to have a new industry come into our community and 
create employment opportunities.
    At this time, I also would like to thank Congresswoman 
Candice Miller for sponsoring this bill. We really appreciate 
the effort that she has gone through in trying to do what is 
right for her District. She has worked tremendously on this 
issue ever since she has taken office, and it is my gratitude, 
as the representative of the city of Port Huron, to express our 
appreciation for her efforts.
    I will entertain any other questions. Thank you.
    [The prepared statement of Mr. Neal follows:]

             Statement of The Honorable Mark Neal, Mayor, 
                      City of Port Huron, Michigan

    Chairman Pombo, Ranking Member Rahall, ladies and gentlemen of the 
committee, my name is Mark Neal, I am Mayor of the City of Port Huron, 
in the Great Lakes state of Michigan. Thank you for allowing me a few 
minutes of your time to share with you important facts about my city.
    Port Huron is a city with a population of 32,000 people. We are the 
county seat for St. Clair County, which has a population of 175,000. We 
sit on the US/Canadian Border just across the St. Clair River from 
Sarnia, Ontario. We currently have an unemployment rate approaching 20 
percent. In addition, we have many citizens that are below the poverty 
level. We are very much a blue collar community.
    Our community has been devastated by the loss of employment 
opportunities; we had two industries that provided 7,500 jobs. One 
company had 5,000 employees and another had 2,500 employees. The one 
with 5,000 employees has reduced their workforce to 500 employees and 
the company with 2,500 employees closed their doors. We have an active 
Economic Development Alliance that helps promote our industrial park. 
Many of the tenants in our industrial park are suppliers for the auto 
industry. Unfortunately, when the Big Three (Ford, GM, and Chrysler) 
say they need to cut their costs, they turn to their suppliers, which 
means we are the first to suffer from any downturn and the last to 
recover. Whenever we get a new tenant in our park, another one closes 
its doors.
    Our community is in desperate need of employment opportunities. 
That's why we asked the Bay Mills Tribe to consider resolving their 
land claim by accepting land in Port Huron for their economic 
development. With the proposed casino and their anticipation of 
employing 3,000 to 3,500 people at an above average wage, the economic 
benefit to our community would be tremendous. Those wages would be 
turned over many times in our community. You will probably hear from 
people who object to gaming and casinos. We have heard from those 
people as well. However, our community had an advisory vote in 2001 and 
the proposed casino won approval with over 54% of the vote. The main 
reason that the vote passed is because our area is already exposed to 
casino gaming. The Canadian government operates a casino just across 
the Blue Water Bridge (literally 500 yards from our site) in Port 
Huron. It takes less than ten minutes to get to the Canadian casino. 
75-80 percent of their customers come from the States. So to hear 
people say they don't want another casino in Michigan, our people are 
already gambling and they are doing it in Canada. Unfortunately, our 
community doesn't receive any benefit. No jobs, no money for our local 
government, no money for schools and no money for our social services.
    There are numerous entities that would benefit from a casino if it 
were located in Port Huron. I have included letters of support from my 
city council, the Economic Development Alliance of St. Clair County, 
the Superintendent of the Intermediate School District of St. Clair 
County, the United Way of St. Clair County as well as letters from 
local labor unions that support the casino. It is also important to 
note that Port Huron is the only border city in the northern tier that 
doesn't have a casino.
    If the proposed Bay Mills Indian Community land claim settlement is 
given Congressional approval, the 3,000 plus jobs that would be created 
would make the casino the largest employer not only in Port Huron but 
in St. Clair County as well. The City of Port Huron needs these jobs. 
The region needs these jobs. I am here to speak on behalf of my 
community to request your support for immediate passage of H.R. 831, 
the Bay Mills Indian Community Land Claim Settlement Act. We cannot 
afford to wait any longer for this legislation to be enacted as it will 
result in a massive boost to our economy that will strengthen the Port 
Huron community and the lives of our citizens. I also wish to express 
my deepest gratitude to our Congresswoman, Candice Miller, for 
championing H.R. 831 and fighting so hard to do her part to turn the 
economy around for her constituents. I urge the chairman and the 
members of this committee to help her do right by our community.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Shagen?

  STATEMENT OF PAUL W. SHAGEN, ESQ., SENIOR TRIBAL ATTORNEY, 
 SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS OF MICHIGAN, SAULT 
                      STE. MARIE, MICHIGAN

    Mr. Shagen. Mr. Chairman and members of the Committee, 
thank you for the opportunity to testify today on behalf of the 
Sault Ste. Marie Tribe of Chippewa Indians and our chairman, 
Bernard Bouschor. As some of you may be aware, Chairman 
Bouschor looked forward to appearing before this Committee on 
this important piece of legislation, but was unable to attend 
because we are in the process of concluding a tribal election 
today, so he is back in Sault Ste. Marie.
    I am a Member of the Sault Tribe's Board of Directors. For 
a Sault Tribe, that is the Tribal Council. I was first elected 
in 1998. I am also a senior tribal attorney for Sault Tribe.
    With nearly 30,000 members, we are one of the largest 
Indian tribes in the country and by far the largest in 
Michigan. The Sault Tribe and the Bay Mills Indian Community 
both hold claims to land in Charlotte Beach, Michigan, that was 
deeded in trust to the Governor in 1857 for the use and benefit 
of the tribes. The Charlotte Beach lands were later sold 
without the knowledge of either tribe. As a result, the tribes 
were denied their rights to their land and the current 
homeowners faced clouded title and greatly diminished property 
values.
    In 2002, Michigan Governor John Engler reached separate 
land claims settlements with the Sault Tribe and Bay Mills. 
Under the settlements, the tribes agreed to relinquish all 
claims to the Charlotte Beach lands, and in return Governor 
Engler concurs in the provision of the alternative lands for 
the tribes. The settlements are the basis of the bipartisan 
legislation before the Committee today.
    The Romulus site is of interest to the Sault Tribe in large 
part because the Detroit Metropolitan Wayne County Airport is 
located there. Many don't realize that Detroit Airport is one 
of the 10 busiest in the United States. We believe that a 
nearby casino would attract travelers and customers that are 
not now visiting downtown Detroit. The Romulus casino will also 
provide revenue for State and local Governments. We estimate 
that it would likely produce an additional $11 million a year 
in revenue to local Governments. In addition, we have agreed to 
pay an additional percentage of net gaming revenue from both 
the new casino and our casinos in the Upper Peninsula for a 
total of $32 million in revenue annually to the State. These 
additional fees are not currently paid by most competing tribes 
in Michigan.
    We do not see a new casino in Romulus as a threat to 
Detroit. In fact, while we consider the possibility of a 
Romulus casino, we are planning to break ground on a permanent 
Greektown casino at a total cost of $450 million. A 2003 report 
by two Hillsdale College economists concluded that the addition 
of a Romulus casino would not saturate the Detroit market.
    Nonetheless, we understand why our competitors in Detroit 
may raise concerns about a Romulus casino. We would, however, 
specifically ask Detroiters to understand the legal and 
historical circumstances that led to our settlement. We are 
committed to Detroit, and have indicated our willingness, as 
the Honorable John Dingell indicated, to work with the city and 
to ensure that Detroit's finances are not adversely affected by 
a Romulus casino.
    Deputy Assistant Secretary Martin has raised a series of 
concerns both in her testimony today and in her letter that she 
submitted about this legislation. The Sault Tribe appreciates 
her comments and looks forward to working with Interior on 
addressing these issues, which we believe can be overcome. I 
would like to quickly address a couple of her concerns.
    She argues that the gaming-related provisions of the 
agreements should be evaluated through compact amendments 
submitted to Interior. Unfortunately, compact amendments cannot 
resolve the Charlotte Beach land claims. Only Congress has the 
authority to extinguish tribal title to land.
    Second, she suggested the revenue-sharing provisions of the 
agreements could violate IGRA. In response, I would note that 
Interior has approved compacts for every tribe in Michigan 
which include the exact same revenue-sharing provisions.
    Third, she expresses concern about the impact of the 
settlements on Section 9 of the Michigan compacts. Section 9 
was included in the compacts for the benefit of the Governor, 
and in this case, Governor has chosen to waive Section 9.
    And also, just to talk briefly to the policy consideration 
that was raised by Secretary Martin, in 1994, the Department of 
Interior made a favorable finding which would have allowed 
tribal gaming by the Sault Tribe on after-acquired property in 
downtown Detroit. The reason that didn't occur was because the 
Governor of Michigan did not concur with that determination. It 
wasn't because of any objections from the Department of 
Interior.
    We have also heard some concerns about the possible 
precedent of opening the casino on land at a distance from our 
reservation. And we don't view this as being an issue. Interior 
has reported that there are at least four tribes that have 
already done so, and one of these is in Michigan in the Upper 
Peninsula, Keweenaw Bay Indian Community. Another is in 
Wisconsin, where a tribe has a casino in Milwaukee, more than 
200 miles from the tribe's reservation. Moreover, this is 
consistent with IGRA in that the settlement of a land claim 
exemption covers this exact situation before you today. 
Opponents may wish to graft a distance limit on the law, but it 
simply is not there.
    In conclusion, we believe that H.R. 2793 and H.R. 831 
deserve the support of the members of the Resources Committee. 
The bills will do several things. First, they will clear title 
and restore property values for the Charlotte Beach homeowners. 
Second, they will provide the tribes a fair compensation for 
the land to which they were entitled. And third, it will bring 
jobs and economic development to the communities that have 
voted to welcome tribal casinos.
    Mr. Chairman, we look forward to working with you and the 
members of the Committees on this important piece of 
legislation and we thank you for the opportunity to testify 
today.
    [The prepared statement of Mr. Shagen follows:]

   Statement of Paul W. Shagen, Esq., Member, Board of Directors and 
  Senior Tribal Attorney, Sault Ste. Marie Tribe of Chippewa Indians, 
                       Sault Ste. Marie, Michigan

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on behalf of the Sault Ste. Marie Tribe of 
Chippewa Indians and our Chairman, Bernard Bouschor. As you know, 
Chairman Bouschor looked forward to appearing before the Committee on 
this important legislation but is unable to attend because our tribe is 
concluding our election today. In his absence, I am pleased to be here 
to represent the Tribe.
    I am a Member of the Sault Tribe's Board of Directors, which is our 
tribal council, and also a senior tribal attorney for the Sault. I was 
first elected to the Board in 1998. With nearly 30,000 members, we are 
one of the largest Indian tribes in the country and by far the largest 
in Michigan. Our territory is the eastern Upper Peninsula of Michigan, 
and our government is headquartered in the city of Sault Ste. Marie. 
Although most of our members are in the Upper Peninsula, the next 
highest concentration of members are in Wayne County, in suburban 
Detroit.
    We trace our roots to the Original Bands of the Sault Ste. Marie 
Chippewa Indians, which were organized tribes long before contact with 
white explorers in the 1600s. The Tribe's modern government began to 
take shape in the 1940s, when a group of Sugar Island residents began 
meeting to review their common history and develop a case for 
recognition. After more than 20 years of work, the Sault Tribe was 
recognized by the Secretary of the Interior in 1972. Land was taken 
into trust in 1974, and our Constitution was adopted in 1975.
    Since the 1970s, the Sault Tribe has created a successful, 
business-based economy to provide programs, services, and jobs for 
tribal members. The Tribe controls five Kewadin casinos in Northern 
Michigan and 15 non-gaming businesses. We employ approximately 2,500 
people and are northern Michigan's largest employer. We also own a 
majority interest in the Greektown Casino in Detroit, which is not an 
Indian casino.

The Charlotte Beach Lands and the Settlement with State of Michigan
    The Sault Ste. Marie Tribe of Chippewa Indians and the Bay Mills 
Indian Community both hold claims to land in Charlotte Beach, Michigan 
that was deeded in trust to the Governor of the State of Michigan in 
1857 for the use and benefit of the Tribes and their predecessors.
    The Charlotte Beach lands, approximately 125 acres total, were 
later sold without the knowledge or agreement of the Sault Tribe or Bay 
Mills. As a result, the Tribes were denied the rights to their land, 
and the current homeowners face clouded title, uncertain property 
rights, and greatly diminished property values. Litigation to resolve 
title was unsuccessful because the Sault Tribe, which was not a party 
to the central case, was found to be an ``indispensable party.'' The 
Sixth Circuit court noted: ``We are satisfied that the evidence 
establishes the existence of two separate tribes...both of which...have 
a potential interest in the Charlotte Beach property.'' Companion 
litigation in state court also failed to remove the cloud of title to 
the Charlotte beach parcels.
    In 2002, Michigan Governor John Engler reached separate land claim 
settlements with the Sault Tribe and with Bay Mills. In short, under 
the settlements, the Tribes agree to relinquish any and all legal and 
equitable claims to the Charlotte Beach lands, and in return, the 
Governor concurs in the provision of alternative lands in Michigan for 
the Tribes. The settlements are the basis of the bipartisan legislation 
before the Committee today, and enactment of H.R. 2793 and H.R. 831 
will ratify and implement the terms of the two settlements.
    The agreements were the product of lengthy negotiations, during 
which Governor Engler embraced two priorities: 1) that any casino 
subsequently built on the alternative lands have no real impact on 
other tribes; and 2) that any new casino have prior local support. To 
accomplish the first goal, the Sault Tribe settlement limited the 
alternative lands to parcels in specific communities. To accomplish the 
second, our settlement explicitly requires the approval of local 
communities.

Alternative Lands
    Our settlement provides for not more than two parcels of 
alternative lands, one of which could be in Otsego County, and the 
second of which could be in one of the following three locations: 
Monroe County; the City of Romulus; or the City of Flint. In each case, 
the settlement requires that the location be approved by the county or 
city, and in the case of Otsego County, it requires also the approval 
of the Little Traverse Bay Bands of Odawa Indians.
    Notwithstanding the various options included in our settlement with 
the State--and the possibility of securing alternative lands in two 
locations--we have voluntarily elected to pursue only the possibility 
of alternative land in Romulus. We are excited at the prospect of 
bringing jobs and economic development to Romulus, and we have worked 
closely with Mayor Lambert to develop a plan that meets the needs of 
the City and its residents. We are also pleased that the voters of the 
city have already shown their support, approving a referendum last year 
to allow the casino gaming contemplated by our settlement agreement 
with the state to be conducted within the corporate limits of Romulus.

Opportunity for Romulus and Its Residents
    A Sault Tribe casino in Romulus, if approved, would have an 
enormous positive impact on the community. It would result in scores of 
construction jobs while the casino is being built and add 3,500 
permanent new positions at the casino once it is open. Other than 
supervisory personnel, the jobs will be high-paying, union jobs. We 
have already received more than 500 job applications from Romulus 
residents eager to work at the casino.
    We expect that a casino in Romulus would be a magnet for other 
development in the city, including hotels, restaurants, and 
recreational facilities like a world-class golf course--all of which 
would bring jobs, taxes, and greater spending in the community.
    The Romulus site is of interest to us in large part because the 
Detroit Metropolitan Wayne County Airport is located there. Many do not 
realize that the Detroit airport is one of the ten busiest in the 
United States, with more traffic than at JFK in New York or the 
airports in Newark, San Francisco, Seattle, or Miami. As Northwest 
Airline's primary international hub, millions of passengers travel 
through the Detroit airport on their way to or from international and 
domestic destinations. We believe a nearby casino, with shuttle service 
from the terminals, would attract travelers with short layovers--
travelers not now visiting downtown Detroit or its casinos 20 miles 
away.
    The Romulus casino will also provide revenue for the State and for 
local governments. We estimate that it would likely produce 
approximately $6 million in slot revenue to local governments and $5 
million in property taxes for related development on land adjacent to 
the casino. In addition, the casino will generate about $24 million per 
year in revenues to the State, plus additional state revenues of about 
$8 million a year from our casinos in the Upper Peninsula under 
provisions of the agreement. The total increase in revenue to the State 
of Michigan will be approximately $32 million per year, not including 
additional revenue from the Bay Mills casinos.
    Moreover, the revenue from the Romulus Casino will enable the Sault 
Tribe itself to provide needed services for our own people in our 
community, including health care, housing, law enforcement, education, 
and other social services.

Impact on Detroit and Detroit Casinos
    Our friends from Detroit may express the concern that a casino in 
Romulus will have a negative impact on the non-Indian casinos that 
operate there. Obviously, as the majority owners of one of those 
casinos, Greektown, this is a subject to which we have devoted 
considerable attention.
    The Sault Tribe joined with city leaders and developers in Detroit 
in the 1980s--before any other casino company took Detroit seriously--
in an effort to bring gaming jobs, revenues, and tourists to the city. 
We took a risk in Detroit because we knew gaming there could benefit 
both the city and our Tribe. In the years since we opened Greektown, 
our vision has been proven correct. The Greektown Casino employs 2,300 
people and pays them $100 million annually. We target a significant 
percentage of our $171 million spending on Detroit-based businesses, 
including small businesses and those owned by minorities. Greektown has 
paid more than $160 million in gaming taxes to the city and state.
    We do not see a new casino in Romulus as a threat to Greektown. In 
fact, while we consider the possibility of a Romulus casino, we are 
also planning to break ground on a permanent Greektown Casino at a 
total project cost of about $450 million. The new casino-resort will 
have 3,300 employees and include a 400-room hotel, 100,000 square feet 
of gaming space, a spa, a 1,500-seat theater, and a 4,000-space 
attached garage.
    The Sault Tribe has also commissioned studies to analyze the impact 
of a Romulus casino on the casinos in Detroit. A 2003 report concluded 
that the addition of a casino in Romulus would not saturate the Detroit 
market. The study, by two Hillsdale College economists, suggested that 
the potential size of the Detroit/Windsor market could approach that of 
the Chicago market. Even if a new casino in Romulus generated $325 
million in revenue, the Detroit/Windsor market would remain nearly $500 
million smaller than Chicago.
    Nonetheless, we can understand why Detroit's leaders would raise 
concerns about a tribal casino about 20 miles from the downtown 
casinos. As in any metropolitan area, there is natural competition 
between businesses in the suburbs and the city. We would, however, 
respectfully ask Detroiters to understand the legal and historical 
circumstances that led to our settlement with Governor Engler. And we 
have indicated our willingness to work with the city to ensure that 
Detroit's finances are not adversely affected by the opening of a 
casino in Romulus.

Need for Congressional Action
    The agreements will take effect when Congress approves the 
bipartisan legislation to ratify the settlements, extinguish the 
Tribes' land claims, and authorize the Secretary of the Interior to 
take the alternative lands into trust. Together, H.R. 2793 and H.R. 831 
would accomplish these objectives. Only passage of both bills will 
clear title to the Charlotte Beach lands.
    Recognizing this, the Sault Tribe is working closely with Bay Mills 
in support of the two bills. Last year, our Board of Directors passed a 
resolution in support of the Bay Mills legislation. The Bay Mills 
Executive Council considered and approved a similar measure with 
respect to our legislation. In a memorandum of understanding between 
the two tribes earlier this year, we reiterated our joint support for 
the enactment of the two bills that would resolve the Charlotte Beach 
issue.
    In conclusion, we believe H.R. 2793 and H.R. 831 deserve the 
support of the Members of the Resources Committee. The bills will:
    <bullet>  Clear title and restore property values for the Charlotte 
Beach homeowners;
    <bullet>  Provide the Tribes with fair compensation for the land to 
which they were entitled; and
    <bullet>  Bring jobs and economic development to communities that 
have voted to welcome tribal casinos.
    Mr. Chairman, we look forward to working with you and Members of 
the Committee on this important matter, and we thank you for the 
opportunity to testify today.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Lambert?

           STATEMENT OF HON. ALAN R. LAMBERT, MAYOR, 
                   CITY OF ROMULUS, MICHIGAN

    Mr. Lambert. Thank you, Mr. Chairman, Committee members and 
distinguished guests. My name is Alan Lambert and I am the 
Mayor of the city of Romulus. Romulus is best known for being 
the home to Detroit Metropolitan Airport. If you have ever 
flown by commercial airline into Detroit, you have landed in 
our city. It is a pleasure to be here this afternoon to discuss 
a very important piece of bipartisan legislation introduced by 
Republican Congresswoman Candice Miller and Democratic 
Congressman John Dingell. In this election year, we are glad 
members of both parties agree that our city and the city of 
Port Huron should be able to vastly expand our economies by 
developing casinos that will add 3,500 new jobs to my city and 
thousands more to Port Huron.
    In 2002, Michigan Governor John Engler took steps to settle 
a land dispute involving land in Charlotte Beach, Michigan to 
which the Sault Ste. Marie Tribe of Chippewa Indians and Bay 
Mills Indian Community have claims. To settle the claim, the 
Land Settlement Agreement signed by Governor Engler provided 
that the Bay Mills Tribe would be allowed to develop a casino 
in Port Huron and Sault Ste. Marie would be allowed to develop 
a casino in Vanderbilt in northern Michigan as well as one in 
Romulus, Flint, and Monroe.
    The Sault Tribe has decided not to seek a casino in 
Vanderbilt and has chosen Romulus, my city, to be the location 
of the casino. Under Governor Engler's Land Settlement 
Agreements, the casino cannot be developed without the approval 
of the host cities and without the approval of Congress. Our 
City Council first provided host community approval through a 
resolution passed by a 5-2 vote. However, we felt this was too 
important to move forward without a voice of the people. 
Therefore, a referendum election was held on December 3, 2003, 
resulting in approval of the casino project in the city of 
Romulus.
    As Mayor, I was a strong supporter of this referendum, for 
reasons that I will share with you. My reasons for support were 
simple. The casino will bring 3,500 new, high-paying, permanent 
jobs to our city of 23,000 people. A casino can be a beautiful 
destination-style development that will include a hotel, 
convention center, and other amenities. It will also draw 
additional commercial development, such as retail stores, movie 
theaters, and offices, which our city needs very badly. The 
referendum also had the support of various local organizations, 
including unions, the Romulus Police Officers Association, 
Police Officers Association of Michigan, and the Southern Wayne 
County Regional Chamber of Commerce.
    This casino is a real opportunity for our city and, 
actually, for all of southeast Michigan. Romulus Casino will 
provide revenue for the State and for local Governments, 
including approximately $6 million in slot revenue to the local 
Governments and $5 million in property taxes for development 
near the casino. The casino is a tremendous opportunity for the 
people of our city and for the region.
    Because of the proximity to the airport, we have a 
responsibility to generate a positive economic climate for 
hotels and airline companies located within our city limits. 
Our airport is among the largest in the United States and the 
city of Romulus has the third-highest number of hotel rooms in 
the State of Michigan. Since 9/11, these businesses have 
suffered great losses. The casino will open up new 
opportunities that we could have never dreamed of and generate 
new businesses for them.
    The average household income in Romulus is about $31,000 
per year. These casino jobs will average about $40,000 per 
year, including benefits. We have had interest not only from 
residents, from our city, but also from people throughout 
southeast Michigan. At a job fair held last year for 2 days--
these are some the applications I would like to show you--we 
had well over 500 people in the 2 days interested in jobs.
    There have been some questions asked about what the impact 
of a Romulus casino would be on the existing Detroit casinos. A 
study was commissioned to examine the impact of the proposed 
casino on our community, including the economic impact of 
Romulus Casino on Detroit. Professor Gary Wolfram of Hillsdale 
College conducted the study. He is a noted economist and has 
real-life experience well beyond the classroom. He has served 
as deputy director of the Michigan Department of Treasury, 
appointed by Governor Engler, and also served on the Hill as 
chief of staff to Congressman Nick Smith.
    The study, which I include as an attachment to my written 
testimony, concluded that a casino in Romulus would not have 
negative impact on the Detroit casinos. The analysis suggested 
that the Detroit casino market still has substantial room for 
growth. The study also concluded that if additional casinos can 
make Detroit a destination location to out-of-state travelers, 
the entire Michigan economy may substantially benefit.
    In conclusion, a casino in Romulus would be a huge economic 
generator for our city and all of southeast Michigan, provide 
3,500 permanent high-paying jobs, and would generate other 
types of commercial development that we need, such as offices, 
retail, and other forms of entertainment. Tax revenue to 
Romulus, southeast Michigan, and the State of Michigan will be 
significant. Finally, it would not be a detriment to the city 
of Detroit.
    I urge you to support this very important bipartisan 
legislation introduced by Congresswoman Candice Miller and 
Congressman John Dingell. Our residents supported it via 
referendum, our elected officials supported it through a host 
community resolution, and Governor John Engler supported it in 
the terms of Land Settlement Agreements. Now it needs your 
support as well. This is very important bipartisan legislation 
to our city, county, and State.
    We thank you very much for your consideration.
    [The prepared statement of Mr. Lambert follows:]

          Statement of The Honorable Alan R. Lambert, Mayor, 
                       City of Romulus, Michigan

    Mr. Chairman, Committee Members, Distinguished Guests:
    I am Alan Lambert, Mayor of Romulus, Michigan.
    Romulus is now best known for being the home to Detroit 
Metropolitan Airport. If you've ever flown by commercial airline into 
Detroit, you have landed in our city.
    It is a pleasure to be here this afternoon to discuss a very 
important piece of bi-partisan legislation introduced by Republican 
Congresswoman Candice Miller and Democratic Congressman John Dingell. 
In this election year, we're glad that members of both parties agree 
that our city and the City of Port Huron should be able to vastly 
expand our economies by developing casinos that will add 3,500 new jobs 
to our city and another 3,000 jobs to Port Huron.
    In 2002, Michigan Governor John Engler took steps to settle a land 
dispute involving land in Charlotte Beach, Michigan to which the Sault 
Ste. Marie Tribe of Chippewa Indians and the Bay Mills Indian Community 
have claims. To settle the claim, the Land Settlement Agreements signed 
by Governor Engler provide that the Bay Mills Tribe would be allowed to 
develop a casino in Port Huron and the Sault Tribe would be allowed to 
develop a casino in Vanderbilt, in Northern Michigan, as well as one in 
either Romulus, Flint or Monroe.
    The Sault Tribe has decided not to seek a casino in Vanderbilt and 
has chosen Romulus, my city, to be the location of its casino.
    Under Governor Engler's Land Settlement Agreements, the casinos 
cannot be developed without the approval of the host cities and without 
the approval of Congress.
    Our City Council first provided host community approval through a 
resolution passed by a 5-2 vote. However, we felt this was too 
important to move forward without a vote of the people. Therefore, a 
referendum election was held on December 3, 2003 resulting in approval 
of a casino project in the City of Romulus.
    As Mayor, I was a strong supporter of the referendum--for reasons I 
will share with you today.
    My reasons for support were simple. A casino will bring 3,500 new, 
high paying permanent jobs to our city of 23,000. A casino can be a 
beautiful destination style development that will include a hotel, 
convention center and other amenities. It will also draw additional 
commercial development such as retail stores, movie theaters, and 
offices.
    The referendum also had the support of various local organizations, 
including unions, the Romulus Police Officers' Association, the Police 
Officers' Association of Michigan, and the Southern Wayne County 
Regional Chamber of Commerce.
    This casino is a real opportunity for our city and all of Southeast 
Michigan.
    The Romulus casino will provide revenue for the State and for local 
governments, including approximately $6 million in slot revenue to 
local governments and $5 million in property taxes for development near 
the new casino.
    A casino is a tremendous opportunity for the people of our city and 
the region.
    Because of proximity to the airport, we have a responsibility to 
generate a positive economic climate for our hotels and airline 
companies located within our own city limits. Our airport is among the 
largest in the United States, and the City of Romulus has the third 
highest number of hotel rooms in the State of Michigan. Since 9/11 
these businesses have suffered great losses. A casino will open up new 
opportunities that we could have never dreamed of, and generate new 
business for them.
    The average household income in Romulus is $31,000 per year. The 
casino jobs will average $40,000 per year, including benefits. We have 
had interest, not only from residents from our city, but also from 
people throughout Southeast Michigan. At a job fair held last year, 
more than 500 Romulus residents submitted applications for jobs at the 
casino.
    There have been some questions asked about what the impact of a 
Romulus casino would be on the existing Detroit casinos. A study was 
commissioned to examine the impact of the proposed casino on our 
community, including the economic impact of a Romulus casino on 
Detroit.
    Professor Gary Wolfram of Hillsdale College conducted the study. He 
is a noted economist who has real-life experience well beyond the 
classroom. He has served as Deputy Director of the Michigan Department 
of Treasury, appointed by Governor Engler, and also served here on the 
Hill as Chief of Staff to Congressman Nick Smith (R-MI).
    The study, which I include as an attachment to my written 
testimony, concluded that a casino in Romulus would NOT have a negative 
impact on the Detroit casinos. The analysis suggested that the Detroit 
casino market still has substantial room for growth. The study also 
concluded that if additional casinos can make Detroit a destination 
location for out-of-state travelers, the entire Michigan economy may 
substantially benefit.
    In conclusion, a casino in Romulus will be a huge economic 
generator for our city and all of Southeast Michigan. It will provide 
3,500 permanent high paying jobs, and it would generate other types of 
commercial development that we need, such as offices, retail stores, 
and other forms of entertainment.
    The tax revenue to Romulus, Southeast Michigan, and the State of 
Michigan will be significant, and finally it would not be detrimental 
to the City of Detroit.
    I urge you to support this very important bi-partisan legislation 
introduced by Congresswoman Candice Miller and Congressman John 
Dingell. Our residents supported it via referendum. Our elected 
officials supported it through a host community resolution. And 
Governor John Engler supported it in the terms of the Land Settlement 
Agreements Now, it needs your support as well. This is very important 
bi-partisan legislation to our city, county, and state.
    Thank you very much.
    NOTE: The Wolfram study attached to Mr. Lambert's statement has 
been retained in the Committee's official files.
                                 ______
                                 
    The Chairman. Thank you. I thank the entire panel for your 
testimony.
    Any of you can answer this. How close together in terms of 
miles are these two sites?
    Mr. Neal. I think, Mr. Chairman, I would estimate we are 
probably about 75 miles from each other.
    The Chairman. That is pretty close.
    In trying to settle this, why were these two sites chosen?
    Mr. Parker. I can answer that to some extent. This is what 
the Governor of the State of Michigan wanted at the time of 
negotiations. And as I stated earlier, he really wanted 
something in Port Huron to compete with what was happening 
across the border and to try to stem the flow of cash going 
from Michigan into Ontario, Canada.
    The Chairman. And the other site, was there a specific 
reason why that was chosen?
    Mr. Lambert. If I could, Mr. Chairman. I note that he had 
given a choice of the three locations, Romulus, Monroe, and 
Flint, and I believe the Sault picked our location because of 
the airport and thought it could be a new way to get people to 
fly in.
    Mr. Shagen. And obviously another component of that is that 
these are two communities that have consented to this and that 
want this and are excited about this opportunity. So that is 
another reason for this.
    The Chairman. Was there a reason why both of these were not 
put in the same city?
    Mr. Parker. I would imagine that Governor Engler may be a 
person who could answer that question. We were negotiating with 
the State of Michigan to settle the Bay Mills claim to lands 
that were taken from us. So our settlement was specific to us.
    The Chairman. And were all the negotiations separate?
    Mr. Parker. Yes.
    The Chairman. And obviously, this is something that has 
been going on for a number of years in trying to come up with a 
settlement. And we have had testimony in the other body that 
was not the agreement that there is today on supporting both 
bills. And there are some concerns amongst members of the 
Committee as to why the opinion has changed over the last 
couple of years in terms of support of the different land 
claims. I think we need to explore that a little bit in terms 
of why opinions have changed in the last couple of years with 
it.
    Mr. Shagen. Is that question directed at myself?
    The Chairman. Predominantly, yes.
    Mr. Shagen. OK, thank you. In the past I know that Chairman 
Bouschor testified before the Senate Committee on Indian 
Affairs. And, you know, at that point in time, we hadn't 
entered into a settlement agreement with Governor Engler yet. 
And we understood, and so did the landowners, that this would 
not clear their title, that, as the Sixth Circuit has ruled, we 
are an indispensable party, we have a claim. And, you know, we 
could not support the legislation at that point in time 
because, quite frankly, it didn't include us and it wasn't 
going to resolve the issue, from our perspective. So now that 
we have worked, the two tribes have cooperated since then and 
we now have a settlement agreement similar to what Bay Mills 
has, and we feel now that these two bills together, jointly, 
will resolve this land claim issue. So that is the reason why 
Sault Tribe is now supporting this measure, because we are 
included in it when we should have been included initially.
    The Chairman. All right. Thank you.
    Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Shagen, do you have a petition before the Department of 
Interior now on this land settlement and taking the land into 
trust?
    Mr. Shagen. I don't believe that we do at this point. I 
understand that Bay Mills has submitted their settlement 
agreement to the Department of Interior. That is not something 
that we have done. That is something that we are amenable to 
and that we can go forward with and work with Interior to 
resolve some of these issues. We don't object to that. But we 
haven't done that up to this point.
    Mr. Kildee. And I would suggest that it would probably be a 
prudent thing to do, to have at least two venues there to 
pursue your petition. And that is the more appropriate venue, 
particularly for this type of petition. You mentioned four, and 
there may very well be four. I can only find three where the 
land not contiguous to the reservation was taken into trust for 
the purpose of gaming. That is one in Wisconsin, one in 
Washington, and of course the Keweenaw Bay in Michigan. But 
whether it be three or four, all of those, those three or four, 
were all done through the administrative process. None were 
done through the Congressional process. So I think it would be 
just a prudent thing to do the same as Bay Mills has done, is 
to use both avenues or venues for that purpose.
    Mr. Shagen. I believe the fourth was the Seneca Nation of 
New York on a location in Niagara Falls.
    Mr. Kildee. I wasn't aware of that one. I was aware of the 
there.
    The Mayor of Romulus--
    Mr. Lambert. Yes, sir.
    Mr. Kildee. I fly into your city every week. I do know that 
Romulus has gone through similar things to Flint, Michigan, 
right, it has had its great days and not so great days and some 
changes in automotive industry and manufacturing in general.
    Mr. Lambert. Yes, sir.
    Mr. Kildee. You are convinced, I am sure, then, that 
Romulus could compete in that market? You really will have, if 
you are successful in getting a casino getting a casino there, 
you will have four casinos in Wayne County, right--the three in 
Detroit and the one in Romulus?
    Mr. Lambert. That is correct, sir.
    Mr. Kildee. How many miles away from Detroit is Romulus, 
roughly?
    Mr. Lambert. Approximately 25.
    Mr. Kildee. Twenty-five miles?
    Mr. Lambert. Yes.
    Mr. Kildee. And you think you could compete with the other 
three in Wayne County?
    Mr. Lambert. Yes, we do.
    Mr. Kildee. Can you tell us why you think, what factors 
have gone into that?
    Mr. Lambert. I think what is going to be a major key is 
having new business, actually people flying into the airport. 
This is going to be a resort-style with a convention center. We 
believe we are going to be able to have a lot of fly in traffic 
that doesn't come to Detroit right now. In fact, we believe 
when they do fly in, they will visit the Romulus site and also 
go to Detroit and visit the sites there.
    Mr. Kildee. So you think the three in Detroit--one of which 
is not trust territory; the Sault Ste. Marie is primarily owned 
by the tribe but it is not trust territory--if they and the 
other two, MGM and the other one, would be able to succeed also 
along with yours?
    Mr. Lambert. We believe that to be correct, sir.
    Mr. Kildee. And there are market studies on that?
    Mr. Lambert. That is right, there are.
    Mr. Kildee. All right. Well, I helped write IGRA and I 
tried to fair in IGRA. This is a difficult time for me, because 
I have friends all over. Jeff, you and I have been friends for 
a long time, and I hope that will persist before, during, and 
after this discussion here. But several things that I pushed in 
IGRA which I think have been helpful to the Native Americans, 
one was the Land Claims Settlement Exemption. We pushed that in 
there because we foresaw that things like this could happen 
where there were claims. And I am very aware, Chairman Taylor, 
of your claim at Charlotte Beach there. And we put that in, and 
I think we probably assumed, however, that that would be done 
more through, as the other four had been done, through the 
administrative process rather than a Congressional process. But 
I did help put that in because I could see situations that both 
Sault Ste. Marie and Bay Mills have.
    Another thing I pushed to put in the bill at that time, 
because I was on the Committee then, on IGRA, was the fact that 
if States are not bargaining in good faith, then the Secretary 
of Interior could intervene and bargain for that. And Bruce 
Babbitt came close to promulgating the rules on doing just 
that. So we tried to be fair to everyone, tried to be fair to 
the Indian tribes. And after the Cabazon decision, I am proud 
of the fact that I helped write IGRA, and I want IGRA to work. 
And I would prefer, certainly, however, obviously with my 
position being what it is today, that you use the 
administrative process rather than the Congressional process 
because I am just a little fearful of the precedent that we may 
create here by other people coming to Congress asking to bypass 
that administrative process.
    But otherwise, Mr. Chairman, I have no questions. I think 
all the witnesses have testified very well.
    The Chairman. Thank you.
    Mr. Gibbons?
    Mr. Gibbons. [Presiding.] Thank you, Mr. Kildee. And since 
it is my turn to ask a question, I think I will take advantage 
of this opportunity.
    I would like to ask Mr. Shagen, since he is the resident 
expert on IGRA--
    Mr. Shagen. Oh, I don't--let's not get carried away here.
    Mr. Gibbons. Well, we are going to assume that because you 
are the senior attorney for the tribe.
    One of the core requirements of IGRA, in order to establish 
a casino on non-ancestral land, is to get the consultation and 
approval of the other nearby tribes. Is that correct?
    Mr. Shagen. I don't believe that to be the case.
    Mr. Gibbons. It is not?
    Mr. Shagen. Yes.
    Mr. Gibbons. Then I have been misled into my understanding 
of what IGRA requires as well. So you are telling this 
Committee that it is not a requirement? Is that correct?
    Mr. Shagen. It is not under--I have been advised it is not 
under IGRA, but it is under the Indian Reorganization Act, the 
land to trust requirements. So there is nothing in IGRA as far 
as requiring--
    Mr. Gibbons. All right, that is--you are right. You are 
right. I take back my statement about that. But you have 
identified the issue that if it is going to be taken into trust 
by the Government for a casino, it requires consultation and 
approval of the neighboring tribes, does it not?
    Mr. Shagen. It does, for the land to trust. And that was 
one of the primary concerns of Governor Engler in adopting the 
settlement agreement, that it, one, there is the local approval 
from the local community; two, that it not adversely impact 
another tribe. In the case of the Vanderbilt site, we had a 
consent requirement, if we had gone forward with that, that we 
got the consent of the Little Traverse Bay Bands of Odawa 
Indians. However, we have foregone that.
    Mr. Gibbons. So there are some tribes that are here in the 
audience today, I am sure you are aware, who are not in support 
of this idea.
    Mr. Shagen. Yes.
    Mr. Gibbons. What efforts have you taken on behalf of this 
tribe to see that the essential component that we are talking 
about here has been met with to assure fairness to those other 
tribes?
    Mr. Shagen. Well, what I have been told is that it is 
actually--the requirement is consultation with the other tribes 
for the land to trust, not necessarily--
    Mr. Gibbons. Is it consultation with the BIA, or actually 
agreement with the other tribes as well?
    Mr. Shagen. It is consultation--not agreement. Consultation 
with the other tribes is the requirement. And as far as the 
other tribes, what attempt we have taken, it is no secret that 
we are business competitors. You know, the Saginaw Chippewa 
Tribe is located north of Detroit and I am sure that they will 
be here today testifying in opposition to that. And, you know, 
a casino in Port Huron may impact them in some way. But we are 
business competitors and, you know, that is the reality of the 
situation.
    Mr. Gibbons. So you don't feel at all averse to the idea 
that you could install or put this casino in place without the 
consent or approval or acceptance of your project by those 
neighboring tribes?
    Mr. Shagen. I mean, I think in the best-case scenario it 
would be nice to always be able to--
    Mr. Gibbons. Well, that is in the best-case scenario. This 
is what you are doing today--
    Mr. Shagen. Exactly.
    Mr. Gibbons. Let me ask the Mayor of Romulus, Mr. Lambert. 
Sir, welcome before the Committee.
    Mr. Lambert. Thank you.
    Mr. Gibbons. I know that Mr. Kildee talked about the three 
other casinos in Detroit. This would be a fourth. Those other 
three casinos pay a nine-something, 9.9 percent tax on the 
gaming revenues to those communities.
    Mr. Lambert. Right.
    Mr. Gibbons. What steps are being taken should that revenue 
drop off dramatically by those communities and those Government 
agencies for that share of revenue that you are going to take 
from there?
    Mr. Lambert. Actually, I think I should refer back to Mr. 
Shagen, because the Sault had said that they were going to work 
with Detroit on lost revenue. Actually, the city of Romulus 
would have nothing to do with it. Detroit maybe would get 9 
percent of whatever percent they get, we would get 2 percent, 
out of the compact. So that money would be for the city of 
Romulus. The Sault had mentioned they would work with Detroit 
on any kind of revenue loss.
    Mr. Gibbons. All right.
    Mr. Lambert. Are in negotiations with them at this point, I 
believe.
    Mr. Gibbons. And if we do this, would you have a problem 
with us granting a trust status for a casino development right 
next-door to your property?
    Mr. Shagen. I guess that is something that I am not 
prepared to answer at this point.
    Mr. Gibbons. Well, what would you--just throw it up as a 
ballpark kind of concept idea. If we got one on either side of 
you, right next-door, would you--it certainly would be OK with 
Romulus, because they are going to get the revenue from it. But 
would you be OK with it?
    Mr. Shagen. We probably would be in the same situation as 
some of the other tribes in trying to protect our market.
    Mr. Gibbons. That is all I wanted to know.
    Mr. Kildee, do you have any further questions?
    Mr. Kildee. Yes, thank you, Mr. Chairman. I appreciate 
that.
    Mr. Parker, if I may ask you, if we would pass this law as 
written now, we would in effect put the compact terms into law. 
How, then, would you be able to modify or renegotiate that 
compact if it is part of Federal law?
    Mr. Parker. That is an interesting question simply because 
we are not asking you to modify or approve our existing 
compacts. Our existing compacts have already been approved. 
They were approved in 1993. They were published in the Federal 
Register. And they allow us to game on the site we have now and 
also on the site in Port Huron. What we are asking now for 
Congress to do is to relinquish our claim to the Charlotte 
Beach area by Congressionally approving the settlement 
agreement we have with the Governor of the State of Michigan--a 
totally separate document from the compact.
    Mr. Kildee. I am wondering if, dealing with your 
attorneys--and Mr. Shagen, yourself, you are an attorney--if it 
might be better, if this bill is to move forward, to take the 
language put in the compact into a Federal law out, because it 
seems to me that in the future you would have a difficult time 
changing that compact without changing Federal law.
    Mr. Parker. But the compact is not being modified or 
addressed in any way through this legislation.
    Mr. Kildee. No, but if you wanted to modify it in the 
future--
    Mr. Parker. There are provisions in the compact to do this. 
Because the compact itself is not a part of the pertinent law, 
nor is it as an attachment modifying this. This is just simply 
a settlement agreement. We were told by Interior that in order 
for us to resolve our claim, we had to have an Act of Congress.
    Mr. Kildee. I would just advise you--and I am not an 
attorney, I am a Latin teacher--just to make sure that you 
haven't locked yourself in in the future, just to review that 
again.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you very much, Mr. Kildee. And to each 
of our panel members, I want to thank you--Oh, excuse me. Mr. 
Cole has a question. I am sorry.
    Mr. Cole. Thank you very much, Mr. Chairman. I will try and 
be brief because I know it is late.
    I just wanted to make a point, actually. First of all, I 
wanted to thank you, gentlemen, for, frankly, the cooperative 
spirit. I am always impressed when I see--I live in a State 
that has a lot of disputes between the State, the localities, 
and the tribes. And to see them all come together around an 
agreement I think is always a very impressive achievement. 
There are very legitimate policy and process issues here, and I 
have not made up my mind about those, but I very much 
appreciate the manner in which you have tried to settle a 
problem and help a community and, frankly, take a tribe, which 
I think is an asset to a community, and turn it into something 
that is good for all concerned.
    Insofar as opposition to what you are trying to do is 
focused on legitimate concerns about process and are we setting 
precedents here that are bad, I think that is fair and we ought 
to look at that very carefully. On the other hand, if the 
opposition is simply economic--you know, we have it here, we 
don't want you to have it there, that cuts in--that is not 
legitimate. I mean, every tribe has a right to develop its 
assets, and to do so in a cooperative and conciliatory way with 
the other governmental entities with which you are dealing is 
really very impressive. And you are to be commended.
    So I hope we will try and find ways to work with you to 
resolve the problems, as opposed to taking an approach--and I 
am sure we will try to work with you, but as opposed to 
letting, you know, competing economic interests drive this. It 
ought to really be about the process and what is right. And 
again, I would tell you there are a lot of communities in the 
country, and a lot of States, that could learn a lot from the 
process that you developed to get to this point. So thank you 
for your efforts in that regard.
    Thank you, Mr. Chairman.
    Mr. Gibbons. Thank you very much, Mr. Cole.
    Mr. Stupak?
    Mr. Stupak. Mr. Chairman, thank you.
    Mr. Parker, when did the Bay Mills Community first seek 
assistance from the Department of Interior for help in pursuing 
its land claim here on Charlotte Beach? And has it been a long-
time venture, or is it something that mostly has come up with 
the expansion of gaming opportunities?
    Mr. Parker. This goes back to 1925. We made reference to 
the Interior Department to assist us in getting the property 
back. Land claims--that was going through a while back, meaning 
Land Claims Commission was reviewing the stuff, we submitted it 
to them. They let it go, though, because it was with the State 
not the Federal Government, although in other instances where 
tribes had claims with the State, they were allowed to go 
forward. So this is something we have been working on for quite 
some time. And your predecessor Mr. Davis, Congressman Davis, 
was working on this also.
    Mr. Stupak. Was the Port Huron area ever part of your 
aboriginal land? And if so, was this land ever ceded under 
treaties with the United States?
    Mr. Parker. It is our belief from our research that, yes, 
it was. In 1807 there was a treaty that ceded that portion of 
the land to the Federal Government. And I briefly touched on 
this before. And when they talked about the larger Chippewa 
Tribe, what they were talking about was the Chippewa Nation 
that was located in the Michigan area. After that treaty and 
that negotiation, that is when they started breaking--the 
Federal Government started breaking a nation up into tribes and 
smaller bands to facilitate the cession treaties that were 
going forward. And as I had stated earlier, the post-secondary 
educational opportunities that Michigan tribal representatives 
enjoy are based on that treaty of 1807. And that is open to all 
tribal Indians in Michigan.
    Mr. Stupak. When you mention universities, are you saying 
that secondary education is for Chippewa Indians available 
through Michigan universities based upon the treaties?
    Mr. Parker. And it is Odawa-- This was Indian population of 
Michigan. It is open to everybody.
    Mr. Stupak. And that admission is to all State 
universities, or certain ones?
    Mr. Parker. State universities and State community 
colleges.
    Mr. Stupak. Have members of your tribe been able to take 
advantage of that?
    Mr. Parker. I did.
    Mr. Stupak. You did?
    Mr. Parker. Mm-hm.
    Mr. Stupak. Anyone currently?
    Mr. Parker. Quite a few.
    Mr. Stupak. OK.
    Mr. Shagen, there has been some discussion today about 
Section 9 of the Michigan compact with the Community. Could you 
explain to the Committee what Section 9 is and why it is or is 
not a problem? It seems to be perceived a problem, at least by 
BIA.
    Mr. Shagen. Section 9 of the compact required that gaming 
revenues from a casino on newly acquired land be shared among 
all of the Indian tribes of Michigan. And it is my 
understanding that Section 9, and I believe that the Governor's 
counsel at the last hearing testified to this, that Section 9 
was included in the Tribal-State Gaming Compact for the benefit 
of the Governor. And in this case, Section 9 is not implicated, 
because the Governor chose to waive that requirement.
    Mr. Stupak. Well, then, do the tribes then pay money to the 
State of Michigan? I am not talking about local communities, 
but to the State of Michigan for the benefit of the people of 
the State of Michigan?
    Mr. Shagen. I am sorry, I didn't catch the first part of 
that.
    Mr. Stupak. Do the tribes pay part of their casino revenues 
to the State of Michigan for the benefit of the State of 
Michigan?--and not necessarily local communities that may be 
around the reservation.
    Mr. Shagen. We don't currently, but under the provisions of 
the settlement agreement with the State, we would pay 8 percent 
to the State from Romulus and, in addition, we would once again 
start paying the 8 percent from our northern casino properties 
to the State.
    Mr. Stupak. So by doing this agreement, this land 
transfer--the title of your property is extinguished and in 
exchange you get these two parcels of property, and if you do 
put up casinos, then 8 percent not only of the revenues from, 
in your case, Romulus or Bay Mills/Port Huron, but also 8 
percent from your northern casinos would then go to the State 
of Michigan?
    Mr. Shagen. Exactly. And we estimate that--
    Mr. Stupak. Would any other tribes be required to do that 8 
percent?
    Mr. Shagen. No.
    Mr. Stupak. So if there is some perceived advantage, 
economic advantage to you, you would still pay 8 percent, which 
would be a disincentive to go through with this agreement 
because not only would you do it for your new locations, but 
also your current location. Is that correct?
    Mr. Shagen. Yes, we would pay 8 percent on all locations 
across the board.
    Mr. Stupak. There has been some discussion about Detroit, 
and I think you hit it a little bit, but if you would take an 
opportunity, I would like to give you an opportunity to express 
or indicate how would the Sault Tribe make Detroit whole, or 
how it may or may not change if this bill is enacted?
    Mr. Shagen. Well, I wasn't involved in those discussions, 
necessarily, with the city, but it is my understanding that 
there is a proposal on arrangement, that is being worked on, 
whereby the Sault Tribe from the Romulus property would make up 
any economic loss to the city, assuming that that occurred. It 
is our opinion that that won't occur and that the Detroit 
market can sustain an additional casino very easily. But in the 
event that that happened, we are in the process right now of 
working with the city to try to resolve the issue.
    Mr. Stupak. You are somewhat familiar with the city of 
Detroit and your casino down there, Mr. Shagen. Is there any 
requirement of consultation or permission of other casino 
owners before your new casino in Greektown rolls out their new 
casino? Or do you have to get permission from them to do 
something? Do you have to get permission from them to put in a 
new type of gaming? Do you have to get permission from them to 
increase the odds or lessen the odds?
    Mr. Shagen. Well, we have to work with the Michigan Gaming 
Control Board and their restrictions, but not the other 
casinos.
    Mr. Stupak. With that, Mr. Chairman, I yield back.
    Mr. Gibbons. Thank you very much. And with that, if there 
are no further questions, I would excuse our third panel with a 
vote of thanks for your testimony here today. We have 
appreciated it. It has been helpful to us. And we will excuse 
you and call up the fourth panel.
    The fourth panel is the Honorable George Bennett, Tribal 
Councilor of the Grand Traverse Band of Ottawa and Chippewa 
Indians, Suttons Bay, Michigan; Tribal Chief Audrey Falcon, the 
Saginaw Chippewa Indian Tribe of Mount Pleasant, Michigan; Mr. 
Richard Cummings, President of Michigan Machinists Council, 
Port Huron, Michigan; and Mr. William Black, Legislative and 
Community Affairs Director, Michigan International Brotherhood 
of Teamsters, Detroit, Michigan.
    Before you would be seated, if you would all rise and raise 
your right hand.
    [Witnesses sworn.]
    Mr. Gibbons. Let the record reflect that each of the 
witnesses answered in the affirmative.
    And to each of our witnesses, let me begin by welcoming you 
to the panel here today. As we have explained to each of the 
panels before you, and I am sure you heard, there is a series 
of little lights in front of you that try to move the process 
along by giving you sort of a stoplight effect. If it is green, 
you can go; if it is yellow, we ask you to sort of try to slow 
down and sum it up; and when it is red, it indicates that your 
5 minutes time has come to an end and we would appreciate it if 
you would yield to courtesy and wrap up your testimony.
    With that, I think we will just begin in the order that we 
listed you on the sign-up sheet. We will begin with the 
Honorable George Bennett. We would like to welcome you, and the 
floor is yours. We look forward to your testimony.
    Mr. Bennett.

  STATEMENT OF GEORGE BENNETT, TRIBAL COUNCIL, GRAND TRAVERSE 
   BAND OF OTTAWA AND CHIPPEWA INDIANS, SUTTONS BAY, MICHIGAN

    Mr. Bennett. Good afternoon, Mr. Chairman, distinguished 
members of the Resources Committee. My name is George E. 
Bennett, and I am the Vice Chairman of the Tribal Council of 
the Grand Traverse Band of Ottawa and Chippewa Indians located 
near Traverse City, Michigan. I am here on behalf of the 
Honorable Robert Kewaygoshkum, our chairman, who was unable to 
reschedule another commitment here and was unable to be here 
with us today.
    With me today is my friend and colleague, the Honorable 
David Arroyo, who is on my left.
    First, thank you, Mr. Chairman and members of the 
Committee, for the courtesy of inviting us to testify before 
your Committee today. We have focused our testimony directly on 
H.R. 831 and H.R. 2793, as introduced. I would request that if 
there are any changes under consideration to those bills that 
we be given a reasonable amount of time to review and comment 
on such changes before they are given serious consideration.
    Mr. Chairman, we request that our written testimony and 
resolution be entered into the record and I will summarize my 
testimony in order to save time, and answer any questions you 
may have regarding my comments.
    Mr. Gibbons. Let me say, without objection it will be so 
entered into the record. Thank you.
    Mr. Bennett. Thank you, Mr. Chairman.
    The proposed legislation is premised on a sham concoction 
of an unfounded land claim. While our tribe is for fair and 
rule-governing economic competition within the marketplace, 
these proposals would change the rules, relieve the tribes of 
their contractual obligations to other Michigan tribes, and 
create an exemption of Federal rules governing the 
establishment of new gaming facilities far from the traditional 
tribal lands. We respectfully, but forcefully, must oppose this 
legislation.
    Mr. Chairman, the legislation pending before this Committee 
asks Congress to violate the Federal trust responsibility and 
notions of fundamental fairness by requesting that Congress 
write special rules favoring a few specific tribes over others, 
all in contravention of a clear agreement made that these 
specific tribes respect the rights of other Michigan tribes. If 
this legislation is enacted by Congress, it would establish a 
terribly destructive precedent that would unleash an avalanche 
of land claims before the Congress in Indian country and in our 
communities throughout the Nation.
    As an alternative solution, Bay Mills and Sault Ste. Marie 
tribes are fully authorized and able to pursue Section 
2719(b)(1)(A) applications under the Indian Gaming Regulatory 
Act with the Secretary of the Interior in order to advance 
their desire to game on off-reservation land, without involving 
a Congressionally imposed settlement of a sham land claim. And 
Bay Mills and Sault Ste. Marie are fully capable of honoring 
their obligations to Michigan tribes under Section 9 of our 
Michigan State Gaming Compact Agreement in process.
    The Congress should reject these bills and not assist them 
in reneging on their obligations to the 10 other tribes in 
Michigan.
    Mr. Chairman, again, ``miigwech.'' Thank you for the 
opportunity this Committee has given our tribe to testify.
    [The prepared statement of Robert Kewaygoshkum and the 
resolution follow:]

Statement of The Honorable Robert Kewaygoshkum, Chairman, Presented by 
The Honorable George Bennett, Tribal Councilor, on behalf of The Grand 
              Traverse Band of Ottawa and Chippewa Indians

Introduction.
    Good afternoon, Mr. Chairman and Members of this distinguished 
Committee. My name is George Bennett. I am a member of the Tribal 
Council of the Grand Traverse Band of Ottawa and Chippewa Indians, 
located near Traverse City, MI. I am here on behalf of our Tribal 
Council, and its Chairman, the Honorable Robert Kewaygoshkum, who was 
unable to reschedule another commitment he had for today. With me is my 
colleague and fellow Tribal Councilor, the Honorable Dave Arroyo.
    I would like to thank this Committee for inviting the Grand 
Traverse Band to testify today. We have focused our testimony on H.R. 
831 and H.R. 2793 as introduced and would request that if there are any 
changes under consideration to those bills that we be given a 
reasonable amount of time to review and comment on such changes before 
they are given serious consideration.
    Both H.R. 831 and H.R. 2793, and a companion Senate bill introduced 
several years ago, S. 2986, attempt to provide a legislative remedy for 
an un-established and unfounded land claim of the Bay Mills Indian 
Community and the Sault Ste. Marie Tribe of Chippewa Indians. In so 
doing, these bills attempt to circumvent a very important promise made 
by seven Michigan Tribes, including Bay Mills, Sault Ste. Marie, and 
the Grand Traverse Band, when they entered into their IGRA Gaming 
Compacts with the State of Michigan in 1993. At that time, each of our 
seven Tribes pledged not only to the State but to each other that we 
would not engage in economic warfare over gaming. Each Tribe agreed 
that it would pursue proposals to establish casinos far removed from 
its traditional territory only if it had first reached a revenue-
sharing agreement with the other six Tribes.
    This inter-tribal agreement was critical to each Tribe's survival, 
because proposals to game far off-reservation in the more populous 
parts of the State posed then and pose today the real potential to 
choke off the revenues of casinos closer to home that the Tribes rely 
upon to fund essential governmental programs and for employment. H.R. 
831 and H.R. 2793, as proposed by Bay Mills and Sault Ste. Marie, 
brazenly violate that promise. Rather than honoring their Compact 
pledge, Bay Mills and Sault Ste. Marie have asked the federal Congress 
to impose federal legislation--based on a land claim that has never 
been proven--that would excuse them from complying with their inter-
Tribal promises and that would instead favor them to the great 
detriment of others, all in violation of the Federal trust 
responsibility to act with the interests of all Tribes in mind. 
Congress should reject the Bay Mills and Sault Ste. Marie request to 
legislatively impose such an unfair proposal. For these reasons, the 
Grand Traverse Band respectfully but firmly opposes H.R. 831 and H.R. 
2793 and similar legislative provisions with false land claim premises 
and unfair results.
    We take no pleasure in opposing legislation sought by two of our 
sister Indian tribes. We have worked with both the Bay Mills and the 
Sault Ste. Marie Tribes on many issues of common interest and concern 
over the years. We expect to do more of the same in the future. But as 
set out below, the rationale for the bills before this Committee is 
without foundation in fact or law or sound Indian policy. H.R. 831 and 
H.R. 2793 would set a bad precedent and produce a grossly unfair result 
in violation of Compact agreements, the Indian Gaming Regulatory Act 
(the ``Act'' or ``IGRA''), and a policy of fair dealings. We must 
therefore oppose their enactment.

Background on the Grand Traverse Band.
    The traditional tribal territory of the Grand Traverse Band 
(``GTB'' or ``Band''), is located in the northwest portion of 
Michigan's lower peninsula. The Band operates two casinos under the 
provisions of IGRA, both of which are situated well within the 
traditional territory of the Band. Our Peshawbestown casino, Leelanau 
Sands, is located in the heart of our 1855 treaty reservation near the 
center of the Band's modern-day government operations in Peshawbestown, 
Michigan. Our Turtle Creek casino falls squarely within the Band's 
traditional territory near the exterior boundaries of our 1836 treaty 
reservation.
    In a decision upholding the legality of our Turtle Creek Casino 
under the Act, the U.S. Court of Appeals for the Sixth Circuit very 
recently affirmed the finding of U.S. District Court Judge Douglas W. 
Hillman that the casino is located ``...at the heart of the region that 
comprised the core of the Band's aboriginal territory and was 
historically important to the economy and culture of the Band.'' Grand 
Traverse Band of Ottawa and Chippewa Indians v. United States 
Attorney,--F.3d--, 2004 WL 1144510, *1 (6th Cir. 2004) (quoting Grand 
Traverse Band of Ottawa and Chippewa Indians v. United States Attorney 
198 F.Supp. 2d 920, 926 (W.D.Mich. 2002)). [While the case name of the 
Sixth Circuit and district court Turtle Creek decisions reflects the 
fact that GTB originally brought a declaratory judgment action against 
the United States to establish the legality of its Turtle Creek Casino, 
the United States, in an opinion issued by the National Indian Gaming 
Commission and concurred in by the Secretary of the Interior, declared 
prior to trial its own view that the Casino was legal under the Act, 
again based on the casino's location in the Tribe's core territory. The 
Turtle Creek litigation accordingly proceeded only against the State of 
Michigan.]

H.R. 831 and H.R. 2793 Would Establish a Devastating Precedent.
    H.R. 831 and H.R. 2793 are, at best, premature. They are both 
premised on purported land claims which have never been established in 
any court of law. It would be risky and ill-considered for the U.S. 
Congress to preempt normal judicial processes by wading into a dispute 
imposing a remedy before there is any adjudication of the claims. Yet 
this is what these two bills would do. They would by-pass the courts 
and force upon the local communities, Indian and non-Indian alike, 
remedies with all kinds of ramifications, both intended and perhaps 
unintended. Chief among these would be Congress's validation of the 
effort by Bay Mills and Sault Ste. Marie to evade the promise made in 
their IGRA gaming compacts that they would not pursue casino proposals 
far off-reservation without first taking into account the interests of 
other Michigan Tribes.
    H.R. 831 and H.R. 2793 Are Premised on Land Claims That Have Been 
Rejected Both By the Courts and the Secretary of the Interior.
    H.R. 831 and H.R. 2793 would ratify a land claim settlement where 
the underlying land claim has never been proven to be valid. In both 
state and federal court, the Bay Mills Indian Community has attempted 
to establish a valid land claim to the Charlotte Beach property. [See 
Bay Mills Indian Community v. Western United Life Assurance Co., No. 
2:96-CV-275, 26 Indian L. Rep. 3039 (W.D. Mich., Dec. 11, 1998), aff'd, 
208 F. 3d 212, 2000 WL 282455 (6th Cir., Mar. 8, 2000)); Bay Mills 
Indian Community v. Court of Claims, State of Michigan, 244 Mich. App. 
739, 626 N.W. 2d 739 (2001), cert. denied, 122 S. Ct. 1303 (2002). 
Notably, the Charlotte Beach land claim site is located within Chippewa 
County, an Upper Peninsula county in which both Bay Mills Indian 
Community and Sault Ste. Marie Tribe have long resided and have their 
trust and reservation lands.] The essence of Bay Mills' land claim is 
that the United States issued patents to tribal land on or near 
Charlotte Beach to a non-Indian prior to the Congressional ratification 
of the 1855 treaty. [See 626 N.W.2d at 172.] Bay Mills claims that the 
land, which was eventually lost to county property tax foreclosure, 
remained in trust and should never have been subject to state or local 
taxes. [See id.]
    From the beginning, the Grand Traverse Band has supported Bay 
Mills' attempts to prove the validity of its Charlotte Beach land 
claims in a court of law. We would strongly support further attempts by 
Bay Mills to establish its judicial claims, including a Congressional 
waiver of the sovereign immunity of any indispensable parties for the 
purpose of reaching the merits of the Charlotte Beach land claim.
    To this point, however, on each of its attempts to judicially 
establish a land claim, Bay Mills has failed to affirmatively make its 
case. For example, in Bay Mills Indian Community v. Court of Claims, 
State of Michigan, a case decided in the Michigan state courts and with 
respect to which the United States Supreme Court recently denied 
certiorari, the Michigan Court of Appeals held that Bay Mills did not 
establish a prima facie case that the State of Michigan and the United 
States violated the Non-Intercourse Act. [See id. at 173-174.] The same 
court also found that the land at issue was properly subject to county 
property taxes because the federal government intended for the land to 
be alienable when it issued the patents. [See id. at 172-73 (citing 
Cass Co., Minnesota v. Leech Lake Band of Chippewa Indians, 524 U.S. 
103 (1998)).] The federal court litigation, entitled Bay Mills Indian 
Community v. Western United Life Assurance Co., also failed to 
establish a land claim as it was dismissed because of the refusal of 
the Sault Ste. Marie Tribe to waive its sovereign immunity and 
participate in the litigation. [See 26 Indian L. Rep. at 3041-42 
(finding the Sault Ste. Marie Tribe indispensable to further 
proceedings in the Charlotte Beach land claims litigation).] As such, 
the liability of the State of Michigan or the United States has never 
been established by Bay Mills or Sault Ste. Marie, and Sault Ste. Marie 
has in fact affirmatively sought to preclude a judicial resolution of 
the issue on the merits. Moreover, the Secretary of the Interior has 
expressly rejected Bay Mills' Charlotte Beach land claim pursuant to 
the process established by 28 U.S.C. Sec. 2415. [As this Committee 
knows well, section 2415 operates as follows: [Section] 2415(c) 
``provides that there is no limitations period for suits for possession 
or title brought by the United States.'' Title 28 U.S.C. Sec. 2415(b) 
provides that Indian claims that are on a list published by the 
Secretary of the Interior pursuant to section 4(c) of the Indian Claims 
Limitations Act of 1982 are not barred until (1) one year after the 
Secretary publishes, in the Federal Register, a rejection of the claim, 
or (2) three years after the Secretary submits legislation to Congress 
to revoke the claim. Seneca Nation of Indians v. State of New York, 26 
F. Supp. 2d 555, 573 (W.D. N.Y. 1998), aff'd 178 F. 3d 95 (2nd Cir. 
1999), cert. denied, New York v. Seneca Nation of Indians, 528 U.S. 
1073 (2000).] So, having lost each time in the court, or having sought 
to evade a judicial decision on the matter, Bay Mills and Sault Ste. 
Marie have now come to Congress to obtain what the courts and the 
Secretary cannot say is legally theirs. In sum, the Bay Mills and Sault 
Ste. Marie proposals would turn the accepted understanding of IGRA's 
land settlement provision directly on its head. For until now, as one 
academic recently put it, it has widely been understood that ``[t]he 
viability of establishing gaming operations under the IGRA on lands 
taken into trust as part of a settlement of a land claim is, at the end 
of the day, directly related to the viability of the land claim 
itself.'' Blake A. Watson, Indian Gambling in Ohio: What are the Odds?, 
32 CAP U. L. REV. 237, 292 (2003).

H.R. 831 and H.R. 2793 Invite Groundless Land Claims and Sham 
        Transactions.
    If enacted despite the fact that the validity of the Charlotte 
Beach land claims has never been established, H.R. 831 and H.R. 2793 
would encourage other non-federal parties to conjure up sham 
transactions affecting Indian land claims deemed groundless by the 
Department of the Interior, and then settle those claims with a tribe 
and run to Congress to get a land-claim settlement exception under 
IGRA. We do not use the term ``sham'' lightly here. It was the very 
same term used by Sault Ste. Marie chairman Bernard Bouschor two years 
ago when he testified before the U.S. Senate Committee on Indian 
Affairs in opposition to Bay Mills' earlier attempt to obtain 
legislation based on the very same land claim and rationale at issue 
here. See October 10, 2002 record of the Hearing of the Senate 
Committee on Indian Affairs on S. 2986, a Bill to Provide For and 
Approve the Settlement of Certain Land Claims of the Bay Mills Indian 
Community, Michigan.
    Allowing Bay Mills, Sault Ste. Marie and the State of Michigan to 
invoke a federal remedy for an Indian land claim in which there is no 
federal or state liability establishes an unprincipled precedent. The 
states are no more than outside parties to IGRA's land claim settlement 
exception. If Congress ratifies the Bay Mills and Sault Ste. Marie 
proposed Settlement Agreement, then any party--states, counties, local 
landowners--could settle a land claim of dubious validity with an 
Indian Tribe and demand to enjoy the benefits of the land claim 
settlement exception under IGRA. Large non-Indian gaming interests 
could see fit to acquire property with the cloud of potential Indian 
land claims, settle the claim with the Tribe, and then strike a deal 
with the Tribe to invoke the land claim settlement exception to IGRA's 
general prohibition. The result could be an all-out proliferation of 
gaming that would ultimately result in significant damage to the 
interests of Tribes and others throughout America, and would embroil 
the Congress in controversy after controversy that subject it to the 
manipulation of collusive local interests.
    The Grand Traverse Band's recent litigation with the State of 
Michigan, the Michigan State Department of Natural Resources, and 
Mirada Ranch, Inc., provides an instructive example of how the new Bay 
Mills and Sault Ste. Marie proposed precedent could be utilized to 
expand gaming operations. The Grand Traverse Band filed affidavits in 
our litigation that may have served to cloud title for some purposes on 
lands located on South Fox Island in Lake Michigan. The affidavits 
stated that Band members may have land claims to certain parcels on the 
Island. If the Congress were to enact H.R. 831 and H.R. 2793, the Grand 
Traverse Band and its members could use that bill as a precedent 
justifying us to cut a deal with the South Fox Island landowners to 
settle our land claim and then demand land far from South Fox for 
gaming purposes in accordance with the manner proposed by H.R. 831 and 
H.R. 2793. Indeed, unlike Bay Mills' and Sault Ste. Marie's land 
claims, which have been expressly rejected by the Secretary of the 
Interior, our South Fox Island claims remain valid and preserved under 
28 U.S.C. Sec. 2415.
    Section 2415 presumably has a very important role to play here. 
Where the Secretary of the Interior, in the exercise of her expertise, 
has expressly rejected the validity of a land claim under that 
provision, a subsequent effort to settle that same ``claim'' in order 
to invoke the land settlement provision of IGRA seems suspect at best. 
Certainly Congress should not be about the business of over-riding both 
the Judicial and Executive Branches in order to render valid an 
otherwise invalid land claim. [The continued inability of Bay Mills to 
establish the viability of the Charlotte Beach land claim, and the 
repeated characterization of that claim as a ``sham'' by Sault Ste. 
Marie, render highly questionable the State of Michigan's claim that 
any need exists to ``settle'' that claim in order to protect land 
values or the ability to levy real property taxes.]

H.R. 831 and H.R. 2793 Contravene Federal Indian Law and Expand IGRA.
    The Grand Traverse Band opposes the dramatic expansion of the 
exceptions to the general prohibition against gaming on after-acquired 
lands proposed in H.R. 831 and H.R. 2793.
    Even if Bay Mills and Sault Ste. Marie had a valid land claim to 
land in Charlotte Beach, the Grand Traverse Band could not support 
those Tribes in a scenario where they exchanged purported rights to 
their traditional territory in Charlotte Beach for gaming lands 
hundreds of miles away as is proposed in H.R. 831 and H.R. 2793. Public 
policy, federal Indian policy, and federal case law are overwhelmingly 
arrayed against construing land claim settlements in the manner 
endorsed by H.R. 831 and H.R. 2793, and Bay Mills and Sault Ste. Marie 
have fostered such a construction only because of their desire to evade 
their obligations to other Michigan Tribes under Section 9 of our IGRA 
Gaming Compacts.
    The policy enunciated by Congress in 1988 with the enactment of 
IGRA would be undermined by adoption of H.R. 831 and H.R. 2793. IGRA 
provides a general prohibition of gaming on lands placed into trust 
after the passage of IGRA on October 17, 1988. [See 25 U.S.C. 
Sec. 2719.] Generally, Congress contemplated that gaming on after-
acquired lands could only take place on lands located within or 
contiguous to the boundaries of the reservation of an Indian tribe. 
[See 25 U.S.C. Sec. 2719(a)(1).] The general prohibition is subject to 
certain exceptions: Tribes may game on after-acquired lands either 
after successfully completing a rigorous administrative process 
resulting in approval by the Secretary of the Interior and the Governor 
of their gaming proposal (25 U.S.C. Sec. 2719(b)(1)(A)), or after 
establishing that the after-acquired lands were taken into trust as 
part of the settlement of a land claim, the restoration of lands to a 
restored tribe, or in establishing the initial reservation of an 
administratively acknowledged tribe (25 U.S.C.Sec. 2719(b)(1)(B)). [See 
25 U.S.C. Sec. 2719(b)(1)(B)(i).] The three Section 2719(b)(1)(B) 
exceptions are meant to be limited in scope, and to apply only to lands 
located within or near a Tribe's traditional territory.
    Congress did not intend for the land claims settlement exception to 
be exploited in the manner proposed by H.R. 831 and H.R. 2793. The 
three exceptions contained in Section 2719(b)(1)(B) should be read in 
the same context. One of the fundamental rules of interpreting statutes 
relating to Indian Tribes is that ``Federal policy toward Indians is 
often contained in several general laws, special acts, treaties, and 
executive orders, and these must be construed in pari materia in 
ascertaining congressional intent.'' [Yellowfish v. City of Stillwater, 
691 F. 2d 926, 930 (10th Cir. 1982), cert. denied, 461 U.S. 927 
(1983).] The other two exceptions--the restored lands exception [See 25 
U.S.C. Sec. 2719(b)(1)(B)(iii).] and the initial reservation exception 
[See 25 U.S.C. Sec. 2719(b)(1)(B)(ii)] ``both have been interpreted by 
the courts as limiting gaming validated by these exceptions only to 
areas in which the Indian Tribe has a traditional, historical, and 
cultural connection and relationship. Grand Traverse Band, 2004 W.L. 
1144510 (6th Cir. 2004); TOMAC v. Norton, 193 F.Supp 2d 182 (D.D.C. 
2002); Sault Ste. Marie Tribe of Chippewa Indians v. United States; 
Confederated Tribes of Coos, Lower Umpgua and Siuslaw Indians 116 
F.Supp 2d 155(D.D.C. 2000). H.R. 831 and H.R. 2793 would create 
precedent for courts to read all three exceptions in Section 
2719(b)(1)(B) as including lands put into trust for purposes of gaming 
far from that Indian Tribe's traditional territory.
    Contrary to Bay Mills' Port Huron and Sault Ste. Marie's Romulus or 
Otsego County proposals, the Grand Traverse Band's efforts to lawfully 
operate our Turtle Creek gaming facility properly followed the intent 
and underlying policy of Sec. 2719(b)(1)(B). The Band established in 
federal court that the Turtle Creek site was within the historical and 
cultural center of the Grand Traverse Band's traditional territory. No 
additional federal action was necessary because our land was already 
held in trust and subject to the governmental authority of our Tribe.

H.R. 831 and H.R. 2793 Attempt to Circumvent the Promises Made By Bay 
        Mills and Sault Ste. Marie to Other Michigan Tribes Under 
        Section 9 of the Tribal-State IGRA Compacts.
    The tribal-state IGRA gaming compacts negotiated in 1993 between 
seven Michigan Tribes (including Bay Mills, Sault Ste. Marie and GTB) 
and the State contain an identical provision, Section 9, which declares 
as follows:
        An application to take land in trust for gaming purposes 
        pursuant to Sec. 20 of IGRA (25 U.S.C. Sec. 2719) shall not be 
        submitted to the Secretary of the Interior in the absence of a 
        prior written agreement between the Tribe and the State's other 
        federally recognized Indian Tribes that provides for each of 
        the other Tribes to share in the revenue of the off-reservation 
        gaming facility that is the subject of the Sec. 20 application.
    See, e.g., A Compact Between the Bay Mills Indian Community and the 
State of Michigan, Sec. 9 (emphasis added).
    The meaning of and intent behind Section 9 are clear. At the time 
that the 1993 Compacts were negotiated, each of the 7 signatory Tribes 
was operating casinos within its traditional territory. Under IGRA and 
the Compacts, each of the Tribes could continue to operate those 
casinos in separate, independent efforts to foster tribal self-
government and economic development. Furthermore, pursuant to the three 
section 2719(b)(1)(B) exceptions described above, each of the Tribes 
could develop additional IGRA-governed gaming facilities within its 
traditional territory. However, if any Tribe sought to take land into 
trust for gaming purposes outside of its traditional territories, each 
Tribe agreed that it first had to work out revenue sharing agreements 
with the other Tribes. In this way, the Michigan Tribes pledged not to 
engage in a form of economic warfare that would ultimately injure all 
of them. They promised not to engage in an endless game of attempting 
to leapfrog over one another in moving closer to major population 
centers while cutting off revenues to their less aggressive brethren. 
Only once they had worked out cooperative arrangements among themselves 
would the Michigan Tribes then attempt to secure the approval of the 
Secretary of the Interior, and the concurrence of the Governor, for 
far-reaching off-reservation gaming proposals under Section 20 of IGRA.
    Very shortly after the 1993 Compacts were finalized, the Michigan 
Tribes demonstrated their understanding of how Section 9 of the 
Compacts was meant to work. The Tribes worked cooperatively on a 
proposal to take land into trust for gaming under IGRA in the City of 
Detroit. They crafted an appropriate revenue-sharing agreement and only 
because the Governor, at the last minute, withdrew his support for the 
proposal did the collaborative effort not come to fruition. [After the 
tribal IGRA deal was blocked, the State issued licenses for three 
commercial (non-IGRA) casinos in Detroit. All operate under authority 
of state law and not the federal Indian Gaming Regulatory Act although 
one of the owner-operators is the Sault Ste. Marie Tribe.]
    By contrast, the legislation being advanced by Bay Mills and Sault 
Ste. Marie would establish IGRA-authorized gaming operations far from 
the traditional territories of those two Tribes without involving the 
other Michigan Tribes and without any regard for their well-being. H.R. 
831 and H.R. 2793 are nothing more than a naked attempt to circumvent 
Section 9 of the 1993 IGRA Compacts and the protection Section 9 offers 
for other Tribal signatories. Bay Mills and Sault Ste. Marie seek to 
establish casinos in parts of the State far removed from their 
traditional territories in violation of their pledge to first work out 
a revenue sharing arrangement with other Tribes. Under normal 
circumstances, the Bay Mills and Sault Ste. Marie proposals would fall 
squarely within Section 2719(b)(1)(A) of IGRA--the Tribes would have to 
convince both the Secretary of the Interior and the Governor that 
gaming proposals should move forward. However, because an application 
under Section 2719(b)(1)(A) would trigger the revenue-sharing 
requirements of Section 9, and because they seek to get a free pass 
from the Congress to avoid the revenue sharing and governmental 
cooperation underpinning that Compact provision, Sault Ste. Marie and 
Bay Mills have brazenly sought to characterize their land grab efforts 
in southern Michigan as involving the settlement of a land claim in the 
Upper Peninsula. As detailed above, however, the validity of their land 
claims in Chippewa County has never been established and those claims 
have indeed previously been described by the Chairman of Sault Ste. 
Marie as a ``sham'' in public testimony opposing the very position 
being taken today by the Sault Ste. Marie Tribe. Moreover, no court of 
law has ever construed the ``settlement of a land claim'' provision in 
IGRA to authorize Tribes to establish casinos far removed from the 
traditional territory subject to the land claim being settled as is 
here proposed by Bay Mills and Sault Ste. Marie, even assuming the 
existence of a valid claim.
    Congress should accordingly reject the legislative proposals of 
Sault Ste. Marie and Bay Mills as sham efforts to renege on their 
Compact obligations to avoid injury to other Tribes economically 
through off-reservation gaming proposals. The Sault Ste. Marie 
proposal, for example, would authorize the establishment of a casino in 
Otsego County. Were Sault Ste. Marie in fact to develop a casino in 
Otsego County, the casinos presently operated by the Little River Band 
of Ottawa Indians, the Little Traverse Bay Bands of Odawa Indians, and 
the GTB [these three Tribes operate their casinos within their 
traditional tribal territories under authority of the IGRA and the 
tribal-State Compacts], would all stand to suffer significantly, as 
Otsego County falls in-between the major population centers downstate 
and the casinos run by those Tribes. All three Ottawa Tribes have 
invested tremendous resources in the development of their casinos, and 
as Judge Hillman expressly found and the Sixth Circuit expressly 
affirmed in the case of the GTB Casino, those casinos not only provide 
tribal members with valuable employment opportunities but also fund ``a 
variety of governmental programs, including health care, elder care, 
child care, youth services, education, housing economic development and 
law enforcement.'' Grand Traverse Band, 198 F.Supp.2d at 926. Grand 
Traverse Band, 2004 WL at *2.

Conclusions
    The Sault Ste. Marie and Bay Mills legislative proposals are 
premised upon a sham concoction of an unfounded land claim. While GTB 
is for fair and rule-governed economic competition in the market place, 
the Bay Mills and Sault Ste. Marie proposals would change the rules, 
relieve Bay Mills and Sault Ste. Marie of their contractual obligations 
to other Michigan tribes, and create an exception to the rules 
governing the establishment of new tribal gaming facilities far from 
traditional tribal territories. We respectfully but forcefully must 
oppose H.R. 831 and H.R. 2793.
    Mr. Chairman, the legislation pending before this Committee asks 
Congress to violate the federal trust responsibility and notions of 
fundamental fairness by requesting that Congress write special rules 
favoring a few specific Tribes over others, all in contravention of a 
clear agreement made by those specific Tribes to respect the rights of 
other Michigan Tribes.
    If the Congress enacted H.R. 831 and H.R. 2793, it would establish 
a terribly destructive precedent that would unleash a flood of land 
claims mischief in Congress, in Indian Country, and in communities 
throughout the United States. Bay Mills and Sault Ste. Marie are fully 
authorized and able to pursue Section 2719(b)(1)(A) applications under 
IGRA with the Secretary of the Interior in order to advance their 
desire to game far off-reservation without involving a Congressionally 
imposed settlement of a sham land claim, and Bay Mills and Sault Ste. 
Marie are fully capable of honoring their obligations to other Michigan 
Tribes under Section 9 in the process. The Congress should reject these 
bills and insist that these two Tribes abide by their obligations. At 
the very least, the Congress should not assist them in breaching their 
obligations to the Grand Traverse Band and other Tribes in Michigan.
    For these reasons, the Grand Traverse Band respectfully urges this 
Committee and the Congress to reject as unwise and unfounded the 
provisions of H.R. 831 and H.R. 2793, and all provisions similar to 
them which would purport to resolve unresolved land claims and 
implicate lands far from the land claims in question.
    Mr. Chairman, thank you for the opportunity this Committee has 
accorded the Band to testify on these matters and to note for the 
record the Grand Traverse Band's strong opposition to H.R. 831 and H.R. 
2793.
    I ask that a copy of my written statement and a copy of the 
recently-enacted resolution of the Tribal Council of the Grand Traverse 
Band, ``Resolution 04-22.1402--Opposition to H.R. 831 and H.R. 2793'', 
be included in the record of this hearing I would be pleased to try to 
answer any questions you may have.

[GRAPHIC] [TIFF OMITTED] T4455.010

[GRAPHIC] [TIFF OMITTED] T4455.011

[GRAPHIC] [TIFF OMITTED] T4455.012

[GRAPHIC] [TIFF OMITTED] T4455.013


    Mr. Gibbons. Mr. Bennett, thank you very much. I think what 
we will do is just go through the complete list of witnesses 
here with their testimony and then ask questions. And to each 
of you let me say that, without objection, your full and 
complete written testimony will be entered into the record. You 
may feel free to summarize as you see fit.
    Now we will hear from Tribal Chief Audrey Falcon. Ms. 
Falcon, welcome. The floor is yours.

   STATEMENT OF TRIBAL CHIEF AUDREY FALCON, SAGINAW CHIPPEWA 
              INDIAN TRIBE, MT. PLEASANT, MICHIGAN

    Ms. Falcon. Thank you.
    Mr. Chairman, members of the Committee, my name is Audrey 
Falcon and I am the Chief of the Saginaw Chippewa Indian Tribe. 
I appreciate the opportunity to testify today against 
legislation that will cause great harm to our tribe, its 
members, other tribes in Michigan, and Indian tribes across the 
country.
    With me today are Tribal Subchief Bernie Sprague and Tribal 
Treasurer Charmaine Benz.
    Mr. Chairman, the two bills before this Committee would 
allow the Bay Mills Tribe and the Sault Ste. Marie Tribe to 
build two casinos hundreds of miles from their reservation and 
in the treaty territory of the Saginaw Chippewa Tribe.
    Mr. Chairman, it is important to understand the treaty 
history of the Michigan Indian tribes and the U.S. Government. 
I have brought a map showing the different treaty areas of the 
Michigan Indian tribes. Between 1795 and 1864, the United 
States negotiated several treaties with the Michigan Indian 
tribes. Of greatest import to this discussion is the 1807 Land 
Cession Treaty signed by Chippewas, Ottawas, and Potawatomis. 
The Chippewa leaders who signed the 1807 treaty are ancestors 
of my tribe, the Saginaw Chippewa Indian Tribe. It is important 
to note that there is no historical evidence that shows that 
any Chippewa from the Upper Peninsula signed the 1807 treaty.
    The land ceded to the United States in 1807 includes almost 
all of southeast Michigan. If you look at the map, it is the 
area shaded in green. These are the lands that my tribe's 
ancestors hunted and fished for hundreds of years. These are 
also the lands that my ancestors ceded to the U.S. Government 
almost 200 years ago. And these are the same lands on which Bay 
Mills and Sault Ste. Marie Tribe want to build additional 
casinos despite the fact that their traditional lands and 
reservations are several hundred miles away in the Upper 
Peninsula of Michigan. That is why my tribe and so many other 
tribes in Michigan oppose these bills.
    Mr. Chairman, our tribe does not believe the land exception 
provision in the Indian Gaming Regulatory Act was intended to 
allow tribes to move hundreds of miles from their traditional 
territories and reservations and build casinos under the guise 
of settling land claims that have been invented solely for that 
purpose.
    Mr. Chairman, if the Congress were to pass this 
legislation, it would distort the intent and meaning of IGRA 
and open the door for every tribe in the United States to 
petition Congress to settle moral claims against various States 
even where no viable legal claims exist and allow them to build 
casinos in every corner of the United States where gaming is 
viable. Our tribe does not believe Congress should be doing 
that, and we believe that IGRA does not allow it.
    These bills do not settle the kinds of land claims 
contemplated by IGRA. The alleged claims of the Bay Mills and 
Sault tribes have not been accepted by the judiciary and there 
is no pending litigation awaiting settlement. These bills ask 
Congress to substitute itself for the judiciary and simply 
declare the existence of land claims which Congress then 
supposedly settles by allowing the tribes to build casinos 
hundreds of miles away from their reservation and territorial 
lands. Such action would make a travesty of the IGRA process 
and should not be allowed to happen.
    These bills would also create great problems for existing 
Tribal-State compacts in Michigan. Our tribe, the Bay Mills 
Tribe, and Sault Ste. Marie Tribe are all signatories of the 
1993 Gaming Compact with the State of Michigan. The compact at 
Section 9 provides that if a tribe acquires other lands to 
expand its gaming operations to another location, it has to get 
the concurrence and approval of all the other federally 
recognized tribes of Michigan. The same provision applies to 
our tribe and all other compacted tribes in Michigan. The Bay 
Mills and Sault Ste. Marie tribes are trying to bypass this 
important compact provision by getting Congress to overrule it 
because they do not have approval of the other compacted tribes 
as required by the compact. They are pursuing this legislation 
in an attempt to evade their obligations to the other tribes 
under their gaming compact. Congress should not be a party to 
such an attempt.
    On behalf of the Saginaw Chippewa Indian Tribe, I ask the 
Committee to reject these bills and to stop every effort to get 
them enacted into law.
    Today we met with representatives from the city of Detroit, 
and they do not support H.R. 2793, and asked me to express that 
they are in the room.
    Thank you for the opportunity to testify, and I am 
available for any questions you may have.
    [The prepared statement of Ms. Falcon follows:]

    Statement of Audrey Falcon, Chief, Saginaw Chippewa Indian Tribe

    Mr. Chairman, Members of the Committee, my name is Audrey Falcon 
and I am the Chief of the Saginaw Chippewa Indian Tribe. I appreciate 
the opportunity to testify today against legislation that will cause 
great harm to our tribe, its members, other tribes in Michigan, and 
Indian Tribes across the country.
    With me today are Tribal Subchief Bernie Sprague, and Tribal 
Treasurer Charmaine Benz.
    Mr. Chairman, the two bills before this committee would allow the 
Bay Mills tribe and the Sault Ste. Marie tribe to build two casinos 
hundreds of miles from their reservation and in the treaty territory of 
the Saginaw Chippewa Indian Tribe.
    Mr. Chairman, it is important to understand the treaty history of 
the Michigan Indian tribes and the U.S. Government. I have brought a 
map showing the different treaty areas of the Michigan Indian tribes. 
Between 1795 and 1864, the United States negotiated several treaties 
with the Michigan Indian tribes.
    Of greatest import to this discussion is the 1807 land cession 
treaty signed by Chippewas, Ottawas and Potawatomis. The Chippewa 
leaders who signed the 1807 treaty are ancestors of my tribe, the 
Saginaw Chippewa Indian Tribe. It is important to note that there is no 
historical evidence that shows that any Chippewa from the Upper 
Peninsula signed the 1807 treaty.
    The lands ceded to the United States in 1807 includes almost all of 
southeastern Michigan. If you look at the map, it is the area shaded in 
green. These are the lands that my tribe's ancestors hunted and fished 
for hundreds of years. These are also the lands that my ancestors ceded 
to the United States Government almost 200 years ago. And these are the 
same lands on which the Bay Mills and Sault Ste. Marie tribe want to 
build additional casinos despite the fact that their traditional lands 
and reservations are several hundred miles away in the Upper Peninsula 
of Michigan. That is why my tribe and so many other tribes in Michigan 
oppose these bills.
    Mr. Chairman, our tribe does not believe the land exception 
provision in the Indian Gaming Regulatory Act (IGRA) was intended to 
allow tribes to move hundreds of miles from their traditional 
territories and reservations and build casinos under the guise of 
settling land claims that have been invented solely for that purpose.
    Mr. Chairman, if the Congress were to pass this legislation it 
would distort the intent and meaning of IGRA and open the door for 
every tribe in the United States to petition Congress to settle moral 
claims against various states even where no viable legal claims exist 
and allow them to build casinos in every corner of the United States 
where gaming is viable. Our tribe does not believe Congress should be 
doing that and we believe that IGRA does not allow it.
    These bills do not settle the kinds of land claims contemplated by 
IGRA. The alleged claims of the Bay Mills and Sault Ste. Marie tribes 
have not been accepted by the judiciary and there is no pending 
litigation awaiting settlement. These bills ask Congress to substitute 
itself for the judiciary and simply declare the existence of land 
claims, which Congress then supposedly settles by allowing the tribes 
to build casinos hundreds of miles away from their reservation and 
territorial lands. Such action would make a travesty of the IGRA 
process and should not be allowed to happen.
    These bills would also create great problems for existing tribal/
state compacts in Michigan. Our tribe, the Bay Mills tribe and Sault 
Ste. Marie tribe are all signatories of the 1993 gaming compact with 
the state of Michigan. The compact at section 9 provides that if a 
tribe acquires other lands to expand its gaming operations to another 
location it has to get the concurrence and approval of all other 
federally recognized tribes in Michigan. The same provision applies to 
our tribe and all other compacted tribes in Michigan. The Bay Mills and 
Sault Ste. Marie tribes are trying to bypass this important compact 
provision by getting Congress to overrule it because they do not have 
approval of the other compacted tribes as required by the compact. They 
are pursuing this legislation in an attempt to evade their obligations 
to the other tribes under their gaming compact. Congress should not be 
a party to such an attempt.
    On behalf of the Saginaw Chippewa Indian Tribe, I ask the Committee 
to reject these bills and to stop every effort to get them enacted into 
law.
    Thank you for the opportunity to testify and I am available for any 
questions you may have.
                                 ______
                                 
    Mr. Gibbons. Ms. Falcon, thank you very much for your 
testimony. We certainly appreciate the added information that 
you have brought to us today.
    We turn now to Mr. Richard Cummings, President, Michigan 
Machinists Council. Mr. Cummings, welcome. The floor is yours. 
We are looking forward to your testimony.

           STATEMENT OF RICHARD CUMMINGS, PRESIDENT, 
       MICHIGAN MACHINISTS COUNCIL, PORT HURON, MICHIGAN

    Mr. Cummings. Thank you, Mr. Chairman.
    In addition to my complete testimony, I would like to enter 
into the record several letters of endorsement from our 
community, from the St. Clair County AFL-CIO, Machinists Union, 
Greater Port Huron Chamber of Commerce, Economic Development 
Alliance, St. Clair County Intermediate School District, Blue 
Water Convention Tourism Bureau, and the United Way of St. 
Clair County.
    Mr. Gibbons. Without objection.
    Mr. Cummings. Thank you.
    [NOTE: The letters submitted for the record have been 
retained in the Committee's official files.]*** insert
    Mr. Cummings. Mr. Chairman, I represent 11,300 machinists 
in the State of Michigan, of which 400 are located in St. Clair 
County, along with 4,500 in the city of Romulus at the Detroit 
Metropolitan Airport, of which currently there are 1,500 
machinists at the Metro Airport laid off due to downsizing, new 
technology, and elimination of jobs. I am here to support 
Candice Miller, our Congresswoman's Bill 831 along with the 
H.R. 2793 from Romulus.
    Before I forget, I would like to agree with Mr. Young's 
opening statement, the fact that we elected Congresswoman 
Candice Miller to represent the constituents in Port Huron. And 
I believe Mr. Young's statement to be the way the average voter 
feels. We don't feel that Mr. Rogers's effect in his community 
affects our community. The difference being--I looked up the 
statistics, and they are also in package, the unemployment 
statistics we sent here today--in my community, we are talking 
about 14 to 20 percent unemployment. It is so high because a 
lot of people have run out of benefits and the statistics stop 
when you are out of benefits.
    We are right across the river, as the picture indicates and 
you will see in the packet that was given to you, from the 
Canadian casino. We are not here to take business away from any 
other gaming community; we are competing with Sarnia, Ontario. 
There are over $200 million U.S. dollars, which is 5,000 
visitors a day going to Sarnia, right across the river from the 
city of Port Huron, of which there are about $200 million, like 
I said, 76 percent of the patrons of two casinos located three 
miles across the river from us goes on a daily basis.
    In our community in the last 3 years, we have lost over 20 
manufacturing facilities in the city of Port Huron. As you all 
know, tourism is number two in the State of Michigan, the 
number two industry. We are right up here in the thumb, where 
we have the lake, we have a beautiful situation. We are 
competing with Canada, and they are taking even our tourist 
business.
    We think this agreement would settle this long-standing 
dispute concerning the Charlotte Beach land dispute, we think 
it would keep U.S. dollars and jobs in Port Huron, and we think 
the impact because of the way the people voted in Port Huron--
in fact, this Saturday will be 3 years ago that the residents 
of the city of Port Huron have voted by a 54 percent margin to 
get this casino.
    As far as some of the other tribes testifying about 
competing, as far as I know, Mt. Pleasant is a 2-hour drive 
away from Port Huron. The other factor that enters in here with 
the city of Detroit that I disagree with, Congressman Rogers 
testified earlier, he said that this casino gaming in the three 
casinos in Detroit cost in excess, I thought he said, of a 
million dollars in fire protection and police protection. But 
he did not state the fact of the millions of dollars of revenue 
that is created by the excess of 5,000 jobs by those three 
casinos in Detroit.
    It is an important point to make, that we are not competing 
with the city of Detroit. The people that are going to the 
Canadian casino from the United States already have that option 
to go to Mt. Pleasant, other casinos, along with Detroit. They 
don't choose to go to that area, so therefore they are taking 
our jobs out of the country.
    Now, we are losing all of our manufacturing capabilities. 
In St. Clair County, when I say 14 to 20 percent, in a 
community of 170,000 people, we have 9,000 people right now out 
of work. We have 22,000 people that don't even have insurance.
    I have been on the Economic Development Committee up there 
for 25 years. This is the first project of any significance 
that I have seen come along the way not asking the Government 
and not asking the city of Port Huron and St. Clair County to 
give tax abatements. Where generally we give millions and 
millions of dollars for 12, 15, 20 jobs, these people come in 
here with substandard wages. Then when their tax abatements run 
out, they leave our community. I think that is terrible to the 
citizens of the United States.
    I think this casino would create much-needed revenue and 
good jobs and good benefits for our people, along with helping 
the revenue for the State and the Federal Government.
    Thank you. I would be glad to answer any questions.
    [The prepared statement of Mr. Cummings follows:]

   Statement of Richard W. Cummings, President, Michigan Machinists 
 Council, International Association of Machinists and Aerospace Workers

    Chairman Pombo and Members of the House Resources Committee, I 
appear before you today on behalf of the 11,300 machinists in the state 
of Michigan and in particular the 397 in St. Claire County and 4500 in 
Romulus who work at the Detroit Metro Airport of which 1500 are 
currently laid off and without jobs.
    Specifically, my testimony is focused on Congresswoman Candice 
Miller's bill, H.R. 831--the settlement of the Bay Mills Indian 
Community Land Claim and Congressman John Dingell's bill, H.R. 2793--
the settlement of the Sault Ste. Marie Tribe of Chippewa Indian Land 
Claim and its anticipated economic impact on our community and state. I 
am not that familiar with employment statistics of the proposed Romulus 
casino, however, I did some checking and 1500 of the machinists at the 
airport along with employees of other unions have been downsized and 
their jobs eliminated. I will address the following four points:
    <bullet>  The ability of this bill to settle a long existing Native 
American land claim dispute while providing in excess of 3,000 
employment opportunities for a community with severe employment needs. 
Thus, positively affecting the economic well-being of both U.S. 
populations without the necessity of governmental funding.
    <bullet>  The retention of otherwise lost U.S. dollars for the 
growth and development of the economy of communities in the United 
States.
    <bullet>  The impact of the development project which this 
settlement will allow on the ability to provide charitable services on 
a local level for residents of St. Clair County, Michigan.
    <bullet>  The endorsements attained and necessary for the positive 
development of a joint venture between the two populations involved.
    The passage of this bill would allow the Bay Mills Indian Community 
to establish a casino in Port Huron, Michigan at the site of the 
current Thomas Edison Inn, within 500 yards of the Blue Water Bridge 
international border crossing. This casino will provide significant 
income for both the Bay Mills Indian community and the residents of 
Port Huron and the surrounding area.
    As you can see from my supporting documentation, Port Huron is 
experiencing real unemployment rates estimated to be as high as 14%. 
Compared to other areas of the state the Port Huron area consistently 
has a higher rate. It is important for you to know that these are now 
permanently lost jobs. They are primarily the result of plant closings, 
not lay- offs.
    Currently, in the Port Huron area employers that have even a few 
job openings are hesitant to even put an ad in the paper or advertise 
that there is an opening. The reason for this is that within two days 
they will be overwhelmed with hundreds of applicants causing confusion 
and lost time to the company.
    The consistent and escalating unemployment situation was the 
genesis of a joint project by residents of Port Huron and the Bay Mills 
Indian Community to develop and construct a casino in Port Huron. This 
casino will provide an opportunity for the Port Huron community to 
develop its geographic potential as a tourist destination and allow it 
to become a viable piece of the tourist industry of the state. The 
proposed casino would provide 650 construction jobs for one year and 
2,500 to 3,000 permanent jobs. These jobs will have living wages that 
will support families and promote economic development of the entire 
community.
    There are already casinos taking in a $100 million a year from Port 
Huron, on the other side of the boarder in Canada. Each day 5,000 U.S. 
residents cross the bridges to utilize the two Canadian casinos located 
within 3 miles of this border crossing. They spend over $100 million 
U.S. dollars at these facilities annually. Seventy-five percent (75%) 
of these casinos' customers are from the U.S. These travelers are the 
target market for a casino in Port Huron. The people who are 
frequenting these gaming establishments do so because it meets their 
needs in distance and accessibility. They are not customers that 
normally frequent other Michigan casinos nor do surveys indicate they 
would. We want to stop this loss of U.S. revenue and bolster our local 
economy.
    For those who are concerned about the proliferation of casinos in 
Michigan, they should know that Port Huron is the only boarder crossing 
in Michigan with a Canadian Casino and no facility on the United States 
side. We believe that this is the major reason that our community 
suffers while others prosper. Our neighbor to the north in Sarnia, 
Ontario flourishes while we remain stagnate in an economic recession.
    In addition to revenue for the state; the proposed casino project 
includes the provision of 5% of the net revenues to be paid to the City 
of Port Huron to enhance and develop the City. As you are well aware, 
an increased local economic base that has the potential for consistent 
returns reduces the need for governmental subsistence programs at any 
level individual, governmental or corporate. This project will not 
require the governmental funding for job creation or retention normally 
present in any major job creation project. In fact by recapturing our 
own U.S. dollars being spent elsewhere it will provide revenue for 
government.
    Also, the casino project developed in Port Huron has taken the 
charitable and human service needs into account with 3% of the net 
revenue distributed to local charities through the United Way. This 
would mean a sustained environment for human services to reach all age 
levels and to once again contain prevention programs for the at-risk.
    Finally, I wish to list the endorsements for this casino project 
for your consideration. Without these endorsements this project could 
not exist and this appeal would not occur:
    <bullet>  The International Association of Machinists and Aerospace 
Workers
    <bullet>  The St. Clair County AFL-CIO Central Labor Council
    <bullet>  The Greater Port Huron Chamber of Commerce
    <bullet>  The Economic Development Alliance of St. Clair County
    <bullet>  St. Clair County Intermediate School District
    <bullet>  The Blue Water Convention and Tourism Bureau
    <bullet>  The United Way of St. Clair County
    For all the reasons I have discussed, the residents of Port Huron 
who approved this casino project three years ago by a 54% majority 
support it now more than ever.
    Please take the necessary action to pass H.R. 831 and H.R. 2793 
submitted by Congresswoman Candice Miller, 10th District of Michigan 
and Congressman John Dingell, 15th District of Michigan. Our residents 
in Port Huron have patiently waited for three years, as economic 
conditions have worsened, for legislation to approve this well 
developed plan to help our community help itself. Your action now is 
imperative.
                                 ______
                                 
    Mr. Jones. [Presiding.] Thank you.
    Mr. Black, we now recognize you.

 STATEMENT OF WILLIAM BLACK, LEGISLATIVE AND COMMUNITY AFFAIRS 
  DIRECTOR, MICHIGAN INTERNATIONAL BROTHERHOOD OF TEAMSTERS, 
                       DETROIT, MICHIGAN

    Mr. Black. Thank you, Mr. Chairman and members of the 
Committee. Thank you today for this wonderful opportunity to 
testify in front of this honorable body.
    I am pleased to be here this afternoon on behalf of the 
Michigan Teamsters and President Lawrence Brennan and 
International Brotherhood of Teamsters and our president, James 
P. Hoffa.
    I am here to testify in favor of H.R. 2793 and H.R. 831, 
which would bring thousands of needed jobs to Michigan. These 
measures, if enacted, will have a profoundly positive effect on 
the communities of Romulus and Port Huron.
    The Michigan Teamsters represent over 99,000 active and 
retired members in the State of Michigan. We currently 
represent over 300 members currently employed at the casinos.
    One of our priorities is to encourage job creation and 
economic development, particularly in communities such as 
Romulus, which, like many other communities in the State of 
Michigan, has been negatively impacted by manufacturing jobs 
leaving the State. Michigan has suffered over 180,000 
manufacturing jobs permanently lost in the last 3 years.
    The creation of a new Indian casino in Romulus is central 
to our plans and the plans of the Mayor of the city of Romulus 
to bring new jobs and new development to Romulus, and the Sault 
Ste. Marie casino in Romulus would create over 3,500 or more 
new jobs, including 3,350 jobs in the casino and another 150 
that would be in the hotel and restaurant. Most of these jobs 
will be union jobs paying a decent living wage and providing 
much-needed benefits such as health insurance, 401(k)'s, and 
vacations.
    In other States, studies have shown that casino employment 
can spur economic growth, reduce unemployment, and reduce 
welfare and dependence--much demonstrated in the revitalization 
that we are seeing in downtown Detroit.
    Moreover, the creation of casinos and a resort in Romulus 
will spur additional development near the casino and elsewhere 
in Romulus. Millions of passengers pass through the Detroit 
Metropolitan Wayne County Airport, the airport located in 
Romulus, which is a major hub for Northwest Airlines, which is 
currently facing layoffs of both flight attendants, pilots, and 
other crews. Romulus is roughly 20 miles from downtown Detroit.
    Finding a way to entice the millions of passengers who 
travel through the Detroit hub to leave the airport and visit 
the surrounding communities is a key to promoting economic 
development of the area. A casino would draw many of those 
passengers, and the casinos in turn would prompt other 
recreational and business developments in the region. We 
believe that, with the coming of the hotel, it would enhance 
business meetings and conventions to take place as well.
    The new casinos would also bring revenue for the community 
in which they will be located. The Romulus casino is expected 
to generate slot revenue for local Government of $6 million 
annually. In Romulus, with a city budget of $19 million, this 
new revenue stream would enable the city to do much more for 
its citizens, expanding social services and programs for all 
the residents.
    It is difficult to measure, Mr. Chairman. The legislation 
before you simply ratifies a settlement reached by Governor 
Engler 2 years ago. H.R. 2793 settles a century-old land claim 
in the interests of homeowners in Charlotte Beach area and 
provides the Sault Tribe an opportunity to acquire alternative 
lands in Romulus on which the tribe would have the ability to 
build a casino. H.R. 831 does the same thing for the Bay Mills 
Indian Community, which would acquire land in Port Huron. In 
each case, these new casinos would bring vital new jobs to 
communities that need them and that have voted by referendum to 
welcome casino gaming.
    Thank you again for your invitation to speak before you 
today. If you have any questions, I will be more than glad to 
answer them. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Black follows:]

Statement of William Black, Legislative and Community Affairs Director, 
          Michigan Brotherhood of Teamsters, Detroit, Michigan

    Mr. Chairman and members of the committee, thank you for the 
opportunity to testify today. I am pleased to be here on behalf of the 
Michigan Brotherhood of Teamsters, President Lawrence Brennan, 
International President James P. Hoffa, and our members throughout 
Michigan.
    I am here to testify in favor of H.R. 2793 and H.R. 831, which 
would bring thousands of needed jobs to Michigan. These measures, if 
enacted, will have a profoundly positive effect on the communities of 
Romulus, Port Huron, and Charlotte Beach.
    The Michigan Brotherhood of Teamsters represents 99,000 active and 
retired members in Michigan, including over 300 casino workers in 
Michigan.
    One of our priorities is to encourage job creation and economic 
development, particularly in communities such as Romulus, which has had 
two major companies close over the past five years. Over 180,000 
manufacturing jobs have been lost in Michigan in recent years.
    The creation of a new Indian casino in Romulus is central to our 
plans, and the plans of Mayor Lambert and the city, to bring new jobs 
and new development to Romulus. A Sault Tribe casino in Romulus would 
result in 3,500 or more new jobs, including 3,350 casino jobs and 
another 150 hotel and restaurant jobs. Most of them will be union jobs. 
In our experience, casino jobs tend to be high-paying, desirable 
positions. In other states, studies have shown that casino employment 
can spur economic growth, reduce unemployment, and reduce welfare 
dependence.
    Moreover, the creation of a destination casino and resort in 
Romulus will spur additional development near the casino and elsewhere 
in Romulus. Millions of passengers pass through Detroit Metropolitan 
Wayne County Airport each year. The airport, located in Romulus, is 20 
miles from downtown Detroit.
    Finding a way to entice the millions of passengers who travel 
through the Detroit hub to leave the airport and visit the surrounding 
communities is a key to promoting economic development of the area. A 
casino would draw many of those passengers, and the casino, in turn, 
would prompt other recreational and business development in the region, 
bringing more jobs and revenue for the community.
    The new casinos would also bring revenue for the communities in 
which they will be located. The Romulus casino is expected to generate 
slot revenue for local governments of $6 million annually. In Romulus, 
with an annual city budget of $19 million, this new revenue stream will 
enable to city to do much more for its citizens, expanding social 
services and programs for all residents.
    Mr. Chairman, the legislation before you simply ratifies 
settlements reached between Governor Engler and the tribes two years 
ago. H.R. 2793 settles a centuries-old land claim in the interest of 
homeowners in the Charlotte Beach area and provides the Sault Tribe an 
opportunity to acquire alternative lands in Romulus on which the Tribe 
will build a casino. H.R. 831 does the same thing for the Bay Mills 
Indian Community, which would acquire land in Port Huron. In each case, 
the new casinos would bring vital new jobs to communities that need 
them and that have voted by referenda to welcome casino gaming.
    Thank you again for the invitation to appear here today. I would be 
happy to answer any questions you may have.
                                 ______
                                 
    Mr. Jones. I thank the panelists. I am sorry that I was 
late getting here today. I am not the Chairman, but I am 
filling in. But I am a member of this Committee, and this is an 
issue that is of great interest to those of us in North 
Carolina. I am not going to take your time by talking about our 
situation down in North Carolina.
    But I do have one question for Mr. Bennett. Is it common 
for tribes to establish land claims through a judicial process 
before seeking a resolution of such claims in Congress?
    Mr. Bennett. My answer would be yes. I think that you have 
to have a judicial decision before you come before Congress, I 
would think. Otherwise, why create the courts?
    Mr. Jones. Right.
    The other panelists are from Michigan. I assume they have 
statements--so I will stop with that question. Thank you for 
the answer.
    Mr. Kildee. Mr. Chairman, I was going to grab the chair 
when Mr. Gibbons left, but you grabbed it first.
    Mr. Jones. Well, maybe next year.
    [Laughter.]
    Mr. Kildee. First of all, each one of the panelists sitting 
right now I feel very close to, as I felt close to Chairman 
Parker and to Bernard Bouschor, who could not be here today. 
This is where some honest people disagree as to process. Again, 
I think every Native American in this room knows that I have 
been a staunch advocate of their rights of sovereignty and 
their rights to game. I think our main point of differences 
here is whether we run this through the Congressional process 
or the process that we put into place in many bits of Federal 
legislation, including IGRA itself. My feeling is that we run a 
real danger for the country, various places throughout the 
country, by running this through the Congressional process, 
where, as I have said earlier, there would be no place in 
America that could not be a subject of Indian gaming. So I 
think we have to proceed most cautiously and that is why we, in 
other Federal laws and IGRA, we did put in place an 
administrative process. So we are all people of good will 
trying to do what is right here.
    If I may ask a question of both the tribal leaders. What 
other tribes in Michigan might be adversely affected if these 
bills were enacted? Mr. Bennett, you can start first and then 
Chief Falcon.
    Mr. Bennett. Thank you, Mr. Kildee, for the question. I 
took the liberty of calling each of the tribes, with the 
exception of Sault Ste. Marie and Bay Mills. Of that, we had 10 
tribes--nine tribes of the 10 were in opposition. The one that 
didn't oppose it didn't have a feeling one way or the other. 
And so we took a survey about how this legislation might impact 
their community and they were strictly opposed to it because it 
leaves them out of the--under Section 9 of the compact 
agreement, they get the Governor to waive it. So they play no 
party into what goes on within the State. So I think, in all 
fairness to all the tribes of the State, I think we have a 
right to say something about what goes on in the State. Thank 
you.
    Mr. Kildee. Chief Falcon?
    Ms. Falcon. I haven't called all the tribes, but there are, 
I believe, three that I know I have spoken to that are opposed. 
Also, Laura Spurr, the chairwoman of the Huron Potawatomi 
Tribe, is asking that she be associated with the Saginaw, 
Chippewa, and Grand Traverse testimony today in agreement.
    Mr. Kildee. Thank you. Mr. Bennett, we have known each 
other for about 40 years, right?
    Mr. Bennett. I am not that old, Dale.
    Mr. Kildee. OK. Well, I am.
    [Laughter.]
    Mr. Kildee. What happens to Section 9 of the 1993 compact 
if we pass this law?
    Mr. Bennett. Well, it is still in force, in my opinion. 
Whether the State has the discretion of waiving it or not, it 
is their business. But if they are going to do that, I say we 
need some consultation with it. I mean, we could very well lose 
a lot of revenue and not follow the process that has been put 
in place by the State of Michigan.
    Mr. Kildee. All right, I really have no further questions 
and refer to my colleague, Mr. Stupak.
    Mr. Stupak. Thank you.
    Mr. Bennett, you just said that if the State of Michigan 
wants to waive Section 9, that is their business.
    Mr. Bennett. Well, it is our business. I mean, it affects 
all the tribes in the State. We all have the compact.
    Mr. Stupak. Well, you said it is their business. If the 
State of Michigan, and its representative would be the Governor 
of the State, wants to waive it for this tribe or that tribe, 
that is really between the State of Michigan and that tribe, is 
it not?
    Mr. Bennett. Yes.
    Mr. Stupak. And the only interest you would have is not 
because the Governor doesn't have the right to do it but 
because of the economic impact it may have on your tribe. 
Correct?
    Mr. Bennett. That is correct.
    Mr. Stupak. In fact, these tribes you talked to, their 
opposition is based upon economic interest, is it not?
    Mr. Bennett. No, I would not say so, Bart.
    Mr. Stupak. What other interest would they have?
    Mr. Bennett. They would have not only economic but I think 
policy issues that would be taken for granted by the State, the 
agreement that we had with the State of Michigan.
    Mr. Stupak. What policy decisions would this--
    Mr. Bennett. Well, if you enter into a compact agreement 
with all of the tribes, it seems to me--I am not here to speak 
on behalf of the State, but I am here to speak on behalf of my 
own tribe--we think it is just poor policy, and certainly this 
legislation doesn't help it any.
    Mr. Stupak. And when you enter into a compact, that is the 
Grand Traverse Band of Chippewa and Ottawa Indians with the 
State of Michigan, right?
    Mr. Bennett. That is correct.
    Mr. Stupak. So you have your own compact with the State of 
Michigan, correct?
    Mr. Bennett. It was signed with all of those tribes in 
August of 1993.
    Mr. Stupak. True. But each tribe has their own compact--
    Mr. Bennett. That is correct.
    Mr. Stupak.--which is then signed and published in the 
Federal Register.
    Mr. Bennett. That is correct. You are correct.
    Mr. Stupak. So there could be differences in them, too, 
could there not?
    Mr. Bennett. No, I don't believe so.
    Mr. Stupak. OK. But you have your own separate compact?
    Mr. Bennett. We do.
    Mr. Stupak. OK. So if there is a violation of compact, that 
is really between the Governor's Office and that tribe and 
their individual compact.
    Mr. Bennett. I would say that, but if you are harmed, I 
think there is legal recourse given consideration.
    Mr. Stupak. Sure, and the legal recourse here would be 
economic damages if you are economically--
    Mr. Bennett. That is correct.
    Mr. Stupak. So your objection, then, is based on economic 
grounds.
    Mr. Bennett. Well, I would go beyond that. I think legal 
grounds as well.
    Mr. Stupak. Did your tribe or anyone else object to the 
Governor for signing this?
    Mr. Bennett. Well, Mr. Stupak, I think it was done at the 
11th hour as Mr. Engler was going out the back door.
    Mr. Stupak. Well, Bay Mills signed their in September. I 
think maybe Sault Tribe was December, after they got the two 
together. And you just weren't aware of it, because--
    Mr. Bennett. Well, we get information like that through the 
newspaper. I mean, I think there is more of a relationship that 
needs to be developed between the State and the tribes.
    Mr. Stupak. So from September to the end of the year, while 
Governor Engler was still there, did Grand Travers or the 
Saginaw Chippewas object to the Governor or try to get him to 
change his mind before this became law?
    Mr. Bennett. No, because we didn't feel it was right.
    Mr. Stupak. When we speak of--and Ms. Falcon, I guess I 
would address this question to you. You indicated that, on your 
map there, and there has been testimony from BIA that there was 
a Greater Chippewa Tribe or Chippewa Nation, and you are all 
descendants of that Greater Chippewa Nation, is that correct?
    Ms. Falcon. Yes.
    Mr. Stupak. So Chippewa Nation really had all of Michigan 
and went into Canada, even Wisconsin, did it not?
    Ms. Falcon. Yes, it did.
    Mr. Stupak. And the signators to those treaties, when they 
ceded land, would be your ancestors and also ancestors of the 
Bay Mills and the Sault Tribe, correct?
    Ms. Falcon. The 1807 was just the Saginaw Chippewa Tribe, 
and we were paid--that is the lands that we were paid, that 
were ceded.
    Mr. Stupak. That is the part that you ceded, right?
    Ms. Falcon. My ancestors.
    Mr. Stupak. Your ancestors. Correct?
    Ms. Falcon. Correct.
    Mr. Stupak. And your ancestors were part of this Greater 
Chippewa Nation, correct?
    Ms. Falcon. Yes, they were.
    Mr. Stupak. In fact, if you take a look at it, you have the 
Saginaw Tribe of Chippewa Indians, you have the Sault Tribe of 
Chippewa Indians, you have the Bay Mills Tribe, which is also 
Chippewa Indians, you have the Grand Travers Tribe of Chippewa 
and Ottawa Indians. You were all part of one nation at that 
time, much like we are all 50 States of one Nation. But what 
the Federal Government did here was individually, if I can use 
the words, break down that Greater Nation in the smaller bands 
and tribes so they could get you to cede land to the United 
States. Isn't that correct?
    Ms. Falcon. Yes.
    Mr. Stupak. And that would be like some nation, like Canada 
trying to negotiate strictly with Michigan to the disadvantage 
of the rest of the United States, but to their advantage. 
Correct?
    Ms. Falcon. Correct.
    Mr. Stupak. Not a very good way of doing business, as we 
look back now a couple of hundred years, right?
    Ms. Falcon. Right.
    Mr. Stupak. So when you say that these casinos would be 
going into land not owned by Bay Mills or Sault Ste. Marie, it 
really was owned by their forefathers who may have signed these 
treaties way back in 1807 or even before that time. Isn't that 
correct?
    Ms. Falcon. Yes, but 1807 was the land that was paid to the 
Saginaw Chippewa Tribe. The treaty was with the Saginaw 
Chippewa Tribe.
    Mr. Stupak. Sure. That was your part of it. And Bay Mills 
and Sault did theirs about 1856, and you go to the western part 
of the U.P., the other Chippewas did theirs a little bit later. 
Then you go down to the Potawatomis and all that. The point 
being, they are all part of one nation. You derived your rights 
in being a sovereign nation, in being a recognized tribe, based 
upon the first treaties made in Michigan with the Chippewas. Is 
that not correct?
    Ms. Falcon. That would be correct.
    Mr. Stupak. OK. Did the Saginaw Chippewa Tribe disagree at 
any time when the Bay Mills gave up land in the Higgins Lake 
area to the Federal Government to help provide habitat to the 
Kirtland warbler back in the early 1990s?
    Ms. Falcon. I think I would need to research that, or go 
back and look. I am not aware of that.
    Mr. Stupak. OK. So do you know of any other way, without 
Congress acting, that you can extinguish rights to your 
property whether it is Charlotte Beach or down there in Saginaw 
Midland area where you are located? Do you know of any way in 
which we can extinguish title to Native American land?
    Ms. Falcon. No, I don't.
    Mr. Stupak. There are no administrative ways, there is no 
court or anything. The only way you can do it is through an Act 
of Congress, right?
    Ms. Falcon. I would have to look into that and research it 
and come back with an answer. But I know that our tribe has 
unsettled land claims also.
    Mr. Jones. If the gentleman--excuse me, one more question 
after she completes this, Mr. Stupak.
    Mr. Stupak. I will stop right there. Thank you, Mr. 
Chairman.
    Mr. Jones. I want to thank the witnesses today on behalf of 
the Committee for their valuable testimony and the members of 
the Committee and Mr. Stupak for joining us today on this 
important issue.
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing. The hearing record will be held open for 
these responses.
    If there is no further business, the Chairman again thanks 
the members of the Committee and our witnesses. The Committee 
stands adjourned.
    [Whereupon, at 4:58 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Carson follows:]

 Statement of The Honorable Brad Carson, a Representative in Congress 
                       from the State of Oklahoma

    Mr. Chairman, thank you for holding this hearing today to consider 
these two pieces of legislation. Since taking office, I have fought to 
protect and strengthen the sovereign rights of Indian nations. However, 
I have concerns with the precedent these bills will set in Indian 
country.
    From what I understand, they would enable the Bay Mills Indian 
Tribe and the Sault Ste. Marie Tribe to settle land claims and build 
new casinos hundreds of miles from their reservation, on land they have 
no historical ties to; and the measures put Congress in the position of 
ratifying a tribal/state gaming compact for the first time in history.
    It is my understanding these bills are opposed by a number of 
tribes in Michigan, some members of the Michigan Congressional 
Delegation, and even the Administration does not support these bills. 
For these reasons, I am very concerned with H.R. 831 and H.R. 2793, and 
I look forward to hearing and reviewing the testimony from the 
interested parties here today.
    Thank you.
                                 ______
                                 
    [A letter submitted for the record by The Honorable Kwame 
M. Kilpatrick, Mayor, City of Detroit, Michigan, follows:]

[GRAPHIC] [TIFF OMITTED] T4455.008

[GRAPHIC] [TIFF OMITTED] T4455.009

                                 <all>

</pre></body></html>
